<html>
<title> - H.R. 3989, THE STUDENT SUCCESS ACT, AND H.R. 3990, THE ENCOURAGING INNOVATION AND EFFECTIVE TEACHERS ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                  H.R. 3989, THE STUDENT SUCCESS ACT,
                     AND H.R. 3990, THE ENCOURAGING
                 INNOVATION AND EFFECTIVE TEACHERS ACT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 16, 2012

                               __________

                           Serial No. 112-52

                               __________

  Printed for the use of the Committee on Education and the Workforce



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-814 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Bob Goodlatte, Virginia              Lynn C. Woolsey, California
Duncan Hunter, California            Ruben Hinojosa, Texas
David P. Roe, Tennessee              Carolyn McCarthy, New York
Glenn Thompson, Pennsylvania         John F. Tierney, Massachusetts
Tim Walberg, Michigan                Dennis J. Kucinich, Ohio
Scott DesJarlais, Tennessee          Rush D. Holt, New Jersey
Richard L. Hanna, New York           Susan A. Davis, California
Todd Rokita, Indiana                 Raul M. Grijalva, Arizona
Larry Bucshon, Indiana               Timothy H. Bishop, New York
Trey Gowdy, South Carolina           David Loebsack, Iowa
Lou Barletta, Pennsylvania           Mazie K. Hirono, Hawaii
Kristi L. Noem, South Dakota         Jason Altmire, Pennsylvania
Martha Roby, Alabama
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 16, 2012................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Balfanz, Robert, research scientist and co-director, Everyone 
      Graduates Center, Center for Social Organization of 
      Schools, School of Education, Johns Hopkins University.....    32
        Prepared statement of....................................    33
    Cunningham, Jimmy, superintendent, Hampton School District...    40
        Prepared statement of....................................    42
    Kazmier, Felicia, art teacher, Otero Elementary School, 
      Colorado Springs, CO.......................................    37
        Prepared statement of....................................    39
    Luna, Tom, Idaho superintendent of public instruction; 
      president, Council of Chief State School Officers (CCSSO)..     9
        Prepared statement of....................................    11
    Pompa, Delia, senior vice president of programs, National 
      Council of La Raza.........................................    13
        Prepared statement of....................................    16
    Schaffer, Hon. Bob, chairman, Colorado State Board of 
      Education; former Member, U.S. House of Representatives....    27
        Prepared statement of....................................    29

Additional Submissions:
    Mr. Balfanz, response to questions submitted for the record..   143
    Biggert, Hon. Judy, a Representative in Congress from the 
      State of Illinois, questions submitted for the record to:
        Ms. Kazmier..............................................   136
        Mr. Luna.................................................   137
        Mr. Schaffer.............................................   139
        Mr. Cunningham...........................................   141
        Mr. Balfanz..............................................   143
    Mr. Cunningham, response to questions submitted for the 
      record.....................................................   142
    Ms. Kazmier, response to questions submitted for the record..   136
    Mr. Kline:
        The National School Boards Association, prepared 
          statement of...........................................   131
    Mr. Luna, response to questions submitted for the record.....   138
    Mr. Miller:
        Betsy Landers, president, National Parent Teacher 
          Association, prepared statement of.....................    75
        James H. Wendorf, executive director, National Center for 
          Learning Disabilities, prepared statement of...........    78
        National Association of School Psychologists (NASP), 
          letter, dated January 17, 2012.........................    78
        National School Boards Association (NSBA), letter, dated 
          January 19, 2012.......................................    85
        American Association of School Administrators (AASA), 
          letter?.87.............................................
        Organizations (38) in opposition to the Student Success 
          Act, letter, dated January 24, 2012....................    89
        U.S. Chamber of Commerce, letter, dated February 13, 2012    90
        ``Cut and Run: House Republicans' Education Plan Would 
          Shortchange Disadvantaged Students and Schools,'' 
          article, Center for American Progress, February 2012...    92
        Council of Chief State School Officers (CCSSO), letter, 
          dated February 2, 2012.................................   101
        First Focus Campaign for Children, letter, dated February 
          13, 2012...............................................   102
        National Association of Elementary Schools (NAESP), 
          National Association of Secondary School Principals 
          (NASSP), letter, dated February 3, 2012................   104
        Education Task Force of the Consortium for Citizens with 
          Disabilities (CCD), letter, dated February 6, 2012.....   106
        Coalition for Teaching Quality, letter, dated February 
          13, 2012...............................................   108
        Business Coalition for Student Achievement (BCSA), 
          letter, dated February 13, 2012........................   110
        Council for Exceptional Children (CEC), letter, dated 
          February 13, 2012......................................   112
        Science, Technology, Engineering, and Mathematics (STEM) 
          Education Coalition, letter, dated February 10, 2012...   113
        Partner for Children, et al, letter, dated February 13, 
          2012...................................................   115
        Congress of American Indians (NCAI) and the United South 
          and Eastern Tribes (USET), letter, dated February 13, 
          2012...................................................   116
        National Education Association: ``Equity in Education for 
          All Students: How the House Bills Fall Short''.........   120
        New America Foundation: ``House ESEA Bill Would Lift 
          Title I Spending Requirements''........................   121
        Center for American Progress: ``Denying Poor Children an 
          Equitable Education Conservatives' Student Success Act 
          Guarantees Anything but Success,'' article, February 
          15, 2012...............................................   123
        Letter, dated February 9, 2012, from the Business 
          Coalition for Student Achievement (BCSA)...............   125
    Mr. Schaffer, response to questions submitted for the record.   139
    Thompson, Hon. Glenn, a Representative in Congress from the 
      State of Pennsylvania:
        The American Farm Bureau Federation, prepared statement 
          of.....................................................    63

 
                  H.R. 3989, THE STUDENT SUCCESS ACT,
                     AND H.R. 3990, THE ENCOURAGING
                 INNOVATION AND EFFECTIVE TEACHERS ACT

                              ----------                              


                      Thursday, February 16, 2012

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:03 a.m., in room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, Biggert, Platts, 
Foxx, Goodlatte, Hunter, Roe, Thompson, DesJarlais, Hanna, 
Bucshon, Roby, Heck, Ross, Miller, Kildee, Andrews, Scott, 
Woolsey, Hinojosa, McCarthy, Tierney, Kucinich, Holt, Davis, 
Grijalva, Bishop, and Altmire.
    Also present: Representative Polis.
    Staff present: Jennifer Allen, Press Secretary; Katherine 
Bathgate, Press Assistant/New Media Coordinator; James 
Bergeron, Director of Education and Human Services Policy; 
Heather Couri, Deputy Director of Education and Human Services 
Policy; Cristin Datch, Professional Staff Member; Lindsay 
Fryer, Professional Staff Member; Barrett Karr, Staff Director; 
Rosemary Lahasky, Professional Staff Member; Krisann Pearce, 
General Counsel; Mandy Schaumburg, Education and Human Services 
Oversight Counsel; Dan Shorts, Legislative Assistant; Alex 
Sollberger, Communications Director; Linda Stevens, Chief 
Clerk/Assistant to the General Counsel; Alissa Strawcutter, 
Deputy Clerk; Brad Thomas, Senior Education Policy Advisor; 
Kate Ahlgren, Minority Investigative Counsel; Tylease Alli, 
Clerk; Kelly Broughan, Minority Staff Assistant; Daniel Brown, 
Minority Policy Associate; Jody Calemine, Minority Staff 
Director; Tiffany Edwards, Minority Press Secretary for 
Education; Jamie Fasteau, Minority Deputy Director of Education 
Policy; Ruth Friedman, Minority Director of Education Policy; 
Brian Levin, Minority New Media Press Assistant; Kara 
Marchione, Minority Senior Education Policy Advisor; Megan 
O'Reilly, Minority General Counsel; Julie Peller, Minority 
Deputy Staff Director; Laura Schifter, Minority Senior 
Education and Disablity Advisor; and Michele Varnhagen, 
Minority Chief Policy Advisor/Labor Policy Director.
    Chairman Kline. A quorum being present, the committee will 
come to order. Well, good morning. Welcome to our legislative 
hearing on the Student Success Act and the Encouraging 
Innovation and Effective Teachers Act.
    I want to thank our witnesses, of course, and to everybody 
sitting out there. There seems to be some interest in this 
subject this morning, as there should be. So I am very, very 
glad to see all of you here.
    I was just wondering--Mr. Miller and I were just talking 
and suddenly the room became quiet, and I am trying to figure 
out what made that happen. I am looking for that tool so we----
    Well, last January--last year--we began discussion on the 
importance of rewriting elementary and secondary education law. 
We acknowledged No Child Left Behind's shortcomings and 
convened a series of hearings in which dozens of witnesses 
described the challenges facing our nation's education system. 
We discussed the overly prescriptive accountability system that 
has labeled half our schools as failures, explored the 
inadequacies of federal teacher policies, and examined the 
regulatory burdens confronting states and school districts.
    Through these conversations we have forged areas of 
agreement among members on both sides of the aisle. We can all 
see the value of parental engagement and support the 
development of more highly--high quality charter schools. We 
also agree student progress should be a larger factor in 
teacher evaluations and we support the continued use of 
disaggregated data to help protect vulnerable student 
populations and ensure all students have access to quality 
education opportunities.
    No one said rewriting a law as influential as the 
Elementary and Secondary Education Act would be easy, and the 
no one was right. Just as we found common ground we also 
unearthed differences. All members shared the desire to see our 
schools improve and have negotiated in good faith.
    Education reform is an issue that will shape future 
generations and we cannot afford to let the conversation stall. 
For the sake of our children we must continue working toward a 
consensus.
    We are here today to discuss the merits of two proposals: 
the Student Success Act and the Encouraging Innovation and 
Effective Teachers Act, which I believe present a new way 
forward for K-12 education. These proposals build upon the 
progress made under No Child Left Behind while also offering 
thoughtful solutions to address its shortfalls. However, this 
is a legislative hearing, and as such, I expect and welcome a 
robust debate on ways the policies in these bills could be 
modified to better meet our shared goal of empowering students 
to achieve their full potential.
    The Student Success Act will restore each state's authority 
and responsibility to meet the needs of its students and 
schools. Instead of a one-size-fits-all federal accountability 
system, our bill directs each state to develop its own system 
that takes into account the unique needs of students and 
communities with the flexibility to use multiple measures of 
student achievement. Each state will also implement its own 
methods for identifying low-performing schools and implementing 
successful strategies for turning failing schools around.
    Most notably, the legislation recognizes the need to 
preserve a high bar for student success. The bill maintains 
important requirements that states and school districts 
continue to make and meet high benchmarks for student learning. 
States must administer annual reading and math assessments and 
report the results disaggregated by student population, 
providing parents important information about their child's 
school.
    The second bill we will discuss today, the Encouraging 
Innovation and Effective Teachers Act, consolidates several 
federal teacher programs into a flexible grant state and local 
leaders can use to fund programs that work. It also empowers 
states to develop their own teacher evaluation systems based on 
student learning and supports creative approaches, such as 
performance pay and alternative paths to certification, which 
will help recruit and keep the most effective educators in our 
schools.
    The provisions included in the Student Success Act and the 
Encouraging Innovation and Effective Teachers Act reflect the 
input we have received from parents, teachers, principals, 
superintendents, and others in the education community. 
Additionally, these proposals strike a more appropriate balance 
between the need for a limited federal role to ensure 
transparency and the demand for state and local control.
    Unlike the administration's plan to offer temporary waivers 
that keep schools tied to a failing law, the proposals before 
us today take a step closer to enacting lasting education 
reforms that will raise the bar for student achievement and 
improve the classroom experience for children nationwide.
    I have no doubt that there will be differences of opinion 
today. However, I look forward to getting feedback from our 
excellent panel of witnesses, stakeholders in the education 
community, and from my colleagues on both sides of the aisle.
    With that, I will now yield to the senior Democratic member 
of the committee, Mr. Miller, for his opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    Last January, we began a discussion on the importance of rewriting 
elementary and secondary education law. We acknowledged No Child Left 
Behind's shortcomings, and convened a series of hearings in which 
dozens of witnesses described the challenges facing our nation's 
education system. We discussed the overly prescriptive accountability 
system that has labeled half our schools as failures, explored the 
inadequacies of federal teacher policies, and examined the regulatory 
burdens confronting states and school districts.
    Through these conversations, we have forged areas of agreement 
among members on both sides of the aisle. We can all see the value of 
parental engagement and support the development of more high quality 
charter schools. We also agree student progress should be a larger 
factor in teacher evaluations, and we support the continued use of 
disaggregated data to help protect vulnerable student populations and 
ensure all students have access to quality education opportunities.
    No one said rewriting a law as influential as the Elementary and 
Secondary Education Act would be easy. Just as we found common ground, 
we also unearthed differences. All members share the desire to see our 
schools improve and have negotiated in good faith. Education reform is 
an issue that will shape future generations, and we cannot afford to 
let the conversation stall. For the sake of our children, we must 
continue working toward a consensus.
    We are here today to discuss the merits of two proposals, the 
Student Success Act and the Encouraging Innovation and Effective 
Teachers Act, which I believe present a new way forward for K-12 
education. These proposals build upon the progress made under No Child 
Left Behind, while also offering thoughtful solutions to address its 
shortfalls. However, this is a legislative hearing, and as such, I 
expect and welcome a robust debate on ways the policies in these bills 
could be modified to better meet our shared goal of empowering students 
to achieve their full potential.
    The Student Success Act will restore each state's authority and 
responsibility to meet the needs of its students and schools. Instead 
of a one-size-fits-all federal accountability system, our bill directs 
each state to develop its own system that takes into account the unique 
needs of students and communities, with the flexibility to use multiple 
measures of student achievement. Each state will also implement its own 
methods for identifying low-performing schools and implementing 
successful strategies for turning failing schools around.
    Most notably, the legislation recognizes the need to preserve a 
high bar for student success. The bill maintains important requirements 
that states and school districts continue to make and meet high 
benchmarks for student learning. States must administer annual reading 
and math assessments and report the results disaggregated by student 
population, providing parents important information about their child's 
school.
    The second bill we will discuss today, the Encouraging Innovation 
and Effective Teachers Act, consolidates several federal teacher 
programs into a flexible grant state and local leaders can use to fund 
programs that work. It also empowers states to develop their own 
teacher evaluation systems based on student learning and supports 
creative approaches, such as performance pay and alternative paths to 
certification, which will help recruit and keep the most effective 
educators in our schools.
    The provisions included in the Student Success Act and the 
Encouraging Innovation and Effective Teachers Act reflect the input we 
have received from parents, teachers, principals, superintendents, and 
others in the education community. Additionally, these proposals strike 
a more appropriate balance between the need for a limited federal role 
to ensure transparency and the demand for state and local control.
    Unlike the administration's plan to offer temporary waivers that 
keep schools tied to a failing law, the proposals before us today take 
a step closer to enacting lasting education reforms that will raise the 
bar for student achievement and improve the classroom experience for 
children nationwide.
    I have no doubt there will be differences of opinion today. 
However, I look forward to getting feedback from our excellent panel of 
witnesses, stakeholders in the education community, and from my 
colleagues on either side of the aisle.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman.
    And good morning to our witnesses, and thank you for 
sharing your experiences and your knowledge with the committee 
this morning.
    There is nothing more important for families around this 
country than the quality of education for their children. We 
all agree that--on one thing: that we must act to reauthorize 
No Child Left Behind, and I have said before in this committee 
and I will say again, I am a very proud coauthor of that law. 
But over the last 10 years we have learned many things about 
our children's education thanks to that law.
    It is, however, long overdue for a rewrite. This fact is 
evident in nearly 40 states signaling interest in applying for 
flexibility from No Child Left Behind under the Department of 
Education's waiver process. Just last week 10 states--and I 
guess another state yesterday, New Mexico--11 states have been 
granted the--to go through the process of receiving the 
waivers, and a number of states are expected to apply in the 
next few weeks.
    What is exciting about this announcement is that these 
states aren't just running away from one-size-fits-all approach 
of NCLB. Instead, they are running toward a system that strikes 
the right balance between flexibility and accountability.
    The department's approach demonstrates that the federal 
education policy can provide flexibility without losing sight 
of the core values of equal opportunity for all. Regrettably, 
the two bills we are examining today do not reflect those 
values. Rather than looking toward the future, these bills have 
the real potential to turn back the clock decades.
    I have heard a full range of views on NCLB since its 
enactment. For instance, I have heard the word ``flexibility'' 
thrown around and offered up as the solution to the problems of 
our current law, but I have found that flexibility often gets 
raised when people are trying to avoid accountability.
    Clearly there are places in the current law where the 
federal policy needs to be more flexible, such as in school 
improvement and consolidating programs. But at no point should 
we be promoting flexibility at the expense of accountability or 
at the expense of equity in education.
    As with all of the--all other policy changes, the only 
question we should be asking is whether or not the flexibility 
will lead to better outcomes for the students, which is why the 
federal role in education exists, to support better and more 
equitable outcomes for all students. Given the state of 
education debate in our country today you might think that the 
role of education started with NCLB, but it didn't; it started 
with the Brown v. Board of Education decision and the 
Elementary and Secondary Act of 1965.
    We cannot ignore the history of how education of millions 
of children has improved since then and how student performance 
has increased across the board. The fact is elementary and 
secondary education was not better before Brown, or the first 
ESEA, or even NCLB. To say so ignores the chapters in our 
history that we are not proud of, but neither should be 
forgotten nor repeated.
    We must not shrink from our responsibility to provide 
children with an equal opportunity at a first-class education. 
With that comes the responsibility to demand accountability.
    I visit schools at every opportunity. I admire the 
teachers, the principals, and other school personnel who work 
with students daily and care deeply about their education and 
their advancement. Requiring accountability and good outcomes 
isn't a criticism of their work; it is a recognition that there 
are enormous pressures at all levels and sometimes in different 
directions within an education system.
    The federal government plays a critical role here. It can 
create guardrails to ensure equity. It can ensure that when 
states and districts and schools have to make hard decisions 
those decisions are made in the best interest of the children.
    The federal government should never be expected to 
micromanage the improvement of an individual school nor should 
it try. However, we can and should require action on behalf of 
the students where willingness to act doesn't exist.
    We must continue to support the simple idea that low-
performing schools should be identified and required to 
improve. As members of Congress it is our job to update the law 
and to reflect the current best practices and protect kids in 
the process. Through the rewrite of ESEA we can alter roles, we 
can increase flexibility, but we cannot abandon the principles 
of equity and accountability.
    If we want to uphold the promise of Brown v. Board of 
Education and the Elementary Secondary Education Act in its 
most recent iteration reducing the federal footprint in 
education should not be single-minded goal of this 
reauthorization. Improving the educational outcomes for 
children and strengthening our nation's global competitiveness. 
The question is how best to achieve that goal.
    These bills don't come close. Democrats believe that 
education must continue to be a driver of opportunity, not a 
system that locks you into a station in life, not a system that 
impedes a child taking advantage of the opportunities that 
America has to offer.
    We are proud to stand with the voices of opposition on 
these bills, and once again, we are in good company on opposing 
the majority's efforts. Groups from across the political 
educational ideological spectrum have rejected the attempts 
here to turn back the clock on America's schools. Teachers, 
business groups like the U.S. Chamber of Commerce, local 
education groups, civil rights and disability groups, and the 
national PTA have all raised serious concerns over the 
majority's rewrite of this nation's education law.
    Chairman Kline, this hearing is important for us to explore 
the weight of opposition from all corners of the country. We 
take seriously the task at hand. Kids' lives and their ability 
to have an opportunity to succeed are at stake, and I am very 
protective of a single year of a child's life; they don't get 
it back and it is very hard to make up.
    Our kids only get one shot at a decent education and that 
is why we in the Congress need to work together, not apart, to 
support state and local efforts to build a world-class 
education system, and the stakes could not be higher. It is the 
most important thing we can do--important to our nation's 
economic competitiveness and important to the lives of our 
nation's children and their families. Thank you.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Good morning, Chairman Kline. I would like to welcome our witnesses 
to this very important hearing.
    There is nothing more important for families around this country 
than the quality education of their children. We all agree on one 
thing--that we must reauthorize the No Child Left Behind Act. I have 
said before in this Committee and I will say it again. I am a proud co-
author of that law.
    Over the last ten years, we have learned many things about our 
children's education thanks to that law. It is, however, long-overdue 
for a rewrite.
    This fact is evident in the nearly 40 states signaling interest in 
applying for flexibility from NCLB under the Department of Education's 
waiver process. Just last week, ten states were given the green light 
to proceed with their new plans for improving public education and 
dozens more are expected to apply in the next few weeks.
    As I said last week, what is exciting about this announcement is 
that these states aren't just running away from the one-size-fits-all 
approach of NCLB. Instead, they are running towards a system that 
strikes the right balance between flexibility and accountability. The 
Department's approach demonstrates that federal education policy can 
provide flexibility without losing sight of the core values of equal 
opportunity for all.
    Regrettably, the two bills we are examining today do not reflect 
those values. Rather than looking toward the future, these bills have 
the very real potential to turn the clock back decades.
    I have heard the full range of views on NCLB since its enactment. 
For instance, I have heard the word ``flexibility'' thrown around and 
offered up as the solution to the problems with our current law. But, I 
have found that ``flexibility'' often gets raised when people are 
trying to avoid accountability.
    Clearly, there are places in the current law where federal policy 
needs to be more flexible, such as in school improvement and in 
consolidating programs. But, at no point should we be promoting 
flexibility at the expense of accountability or at the expense of 
equity in education.
    As with all other policy changes, the only question we should be 
asking is whether flexibility will lead to better outcomes for kids. 
Which is why the federal role in education exists--to support better 
and more equitable outcomes for all students.
    Given the state of the education debate in our country today, you 
might think that our role in education started with NCLB, but it 
didn't. It started with the Brown v. Board of Education decision and 
the Elementary and Secondary Act of 1965.
    We cannot ignore the history of how the education of millions of 
children has improved since then and how student performance has 
increased across the board. The fact is, elementary and secondary 
education was not better before Brown or the first ESEA or even NCLB. 
To say so ignores chapters in our history that we are not proud of, but 
should neither be forgotten, nor repeated. We must not shirk our 
responsibility to provide children with equal opportunity. With that 
comes a responsibility to demand accountability.
    I visit schools at every opportunity. I admire the teachers, 
principals and other school personnel who work with students daily and 
care deeply about their education.
    Requiring accountability and good outcomes isn't a criticism of 
their work. It is recognition that there are enormous pressures at all 
levels, sometimes in different directions, within an education system.
    The federal government plays a critical role here. It can create 
guardrails to ensure equity. It can ensure that, when states, districts 
and schools have to make hard decisions, those decisions are not made 
on the backs of children.
    The federal government should never be expected to micromanage the 
improvement of an individual school, nor should it try. However, we can 
and should require action on behalf of students where willingness to 
act doesn't exist.
    We must continue to support the simple idea that low-performing 
schools should be identified and required to improve.
    As members of Congress, it's our job to update the law to reflect 
current best practice and protect kids in the process. Through a 
rewrite of ESEA, we can alter roles. We can increase flexibility. But 
we cannot abandon the principles of equity and accountability if we 
want to uphold the promise of Brown v. the Board of Education, the 
first ESEA and its most recent iteration.
    Reducing the federal footprint in education should not be the 
single-minded goal of this reauthorization. Improving the educational 
outcomes for children and strengthening our nation's global 
competitiveness should be the goal.
    The question is how best to achieve that goal. These bills don't 
come close.
    Democrats believe that education must continue to be a driver of 
opportunity, not a system that locks you into a station in life.
    We are proud to stand with the voices of opposition to these bills. 
And once again, we're in good company in opposing the majority's 
effort. Groups from across the political, educational and ideological 
spectrum have rejected the attempt here to turn back the clock on 
America's schools.
    Teachers, business groups like the U.S. Chamber of Commerce, local 
education groups, civil rights and disability groups, and the national 
PTA have all raised deep concerns over the majority's rewrite of the 
nation's education law.
    Chairman Kline, this hearing is important for us to explore the 
weight of opposition from all corners of the country. We need to take 
seriously the task at hand. Kids' lives and their ability to have the 
opportunity to succeed are at stake.
    I am very protective of a single year in a child's life--they don't 
get that back. Our kids only get one shot at a decent education.
    That's why we in Congress need to work together, not apart, to 
support state and local efforts to build a world class education 
system. The stakes couldn't be higher.
    It's the most important thing we can do: Important to our nation's 
economic competitiveness and important to the lives of our nation's 
children.
    I yield back.
                                 ______
                                 
    Chairman Kline. Thank you.
    Pursuant to Committee Rule 7c all committee members will be 
permitted to submit written statements to be included in the 
permanent hearing record, and without objection the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses. I will just go across this way.
    Mr. Tom Luna is the superintendent of public instruction 
for the Idaho Department of Education. He served as a senior 
advisor to former U.S. secretary of education, Rod Paige, from 
2003 to 2005. Additionally, he currently serves as president of 
the Council of Chief State School Officers, the national 
organization representing state education chiefs, and will be 
testifying on their behalf during this hearing.
    Ms. Delia Pompa is the senior vice president of programs at 
the National Council of La Raza, where she conducts oversight 
of NCLR programs, including housing and community development, 
education, Institute for Hispanic Health, and workforce 
development. Ms. Pompa is former director of the Office of 
Bilingual Education and Minority Languages Affairs in the U.S. 
Department of Education and former executive director of the 
National Association for Bilingual Education.
    Former Representative--boy, you are a brave man, coming 
back and sitting on that side--Former Representative Bob 
Schaffer is the chairman of the Colorado State Board of 
Education. He also serves as the principal of Liberty Common 
High School, a public, tuition-free, college preparatory 
charter school serving students in grades seven through 12 that 
consistently rates among the state's top-performing schools. 
From 1997 until early 2003 he represented Colorado's fourth 
congressional district in the U.S. House of Representatives and 
served on the House Committee on Education and the Workforce.
    Welcome back.
    Dr. Robert Balfanz is co-director at the Everyone Graduates 
Center in the School of Education at Johns Hopkins University. 
He currently works with more than 50 high-poverty secondary 
schools to develop, implement, and evaluate comprehensive, 
whole-school reforms. Dr. Balfanz has published widely on 
secondary school reform, high school dropouts, and 
instructional interventions in high-poverty schools.
    Ms. Felicia Kazmier is an art teacher at Otero Elementary 
School in Colorado Springs, Colorado. She is a graduate of the 
University of Colorado at Colorado Springs with a master of 
arts and special education and completed the University of 
Colorado at Colorado Springs certification program for teachers 
of gifted and talented students. She earned a distinguished 
teacher designation through the school district's teacher 
evaluation system.
    And Mr. Jimmy Cunningham is the superintendent of schools 
for Hampton School District in Hampton, Arkansas. He has worked 
in education for 35 years, including 24 years as an 
administrator. He is on the governing board of the American 
Association of School Administrators and is president elect of 
the National Rural Education Association. He is testifying on 
behalf of the American Association of School Administrators.
    Welcome to you all. Before I recognize each of you to 
provide your testimony let me briefly explain our lighting 
system. You can see it now there in front of you.
    You will each have 5 minutes to present your testimony. 
When you begin the light in front of you will turn green; when 
1 minute is left the light will turn yellow; when your time has 
expired the light will turn red, at which point I ask that you 
wrap up your remarks as best you are able.
    After everyone has testified members will each have 5 
minutes to ask questions of the panel.
    So, it looks like we are ready to go. And again, we will 
just go this way down the panel and we will start with Mr. 
Luna.
    Sir, you are recognized.

 STATEMENT OF TOM LUNA, SUPERINTENDENT OF PUBLIC INSTRUCTION, 
                 IDAHO DEPARTMENT OF EDUCATION

    Mr. Luna. Thank you, Chairman Kline, Ranking Member Miller, 
and members of the committee, for inviting me here today to 
testify. As was stated, my name is Tom Luna and I am the 
superintendent of public instruction for the great state of 
Idaho and the current president of the Council of Chief State 
School Officers.
    Again, I want to thank Chairman Kline for these proposals 
to reauthorize the Elementary and Secondary Education Act of 
1965, what today we refer to as No Child Left Behind. I am 
pleased to be here today to discuss how to best preserve and 
advance the focus on ensuring that all children have access to 
high-quality education opportunities and ensure that they are 
all prepared for success after graduation.
    States have demonstrated that they are staunchly committed 
to raising the bar with college and career ready standards for 
all students, and we believe that federal policy must support 
the ultimate goal of ensuring that all students graduate from 
high school prepared to go on to post-secondary education and 
the workforce, and once they get there they do not need 
remediation. We urgently need Congress to reauthorize the ESEA 
law because for the past 10 years American schools have lived 
under a law that I have referred to as--it reminds me of the 
old Clint Eastwood movie, ``The Good, the Bad, and the Ugly,'' 
because there is a little bit of all of that found in this law.
    The good is that No Child Left Behind has placed a 
spotlight on student achievement in America with a heavy focus 
on math and reading, and it has had a specific focus on 
disadvantaged students, and it has established grade level 
proficiency as a target for every child. The bad is that the 
current law doesn't recognize student growth, so schools have 
numerous ways to not meet state goals but very few avenues to 
demonstrate success. The ugly: Because the law has not been 
authorized in a timely manner--going on 5 years--it has become 
a stumbling block to state and local education reforms. The 
longer reauthorization stalls the uglier the law becomes and 
the good parts become overshadowed.
    Thankfully, states have not waited for the federal 
government to act on ESEA and we have acted on our own to 
advance meaningful, state-driven levels of high accountability. 
There is a renaissance happening all across the country when it 
comes to education reform to better help our students meet the 
needs of the 21st century.
    In Idaho, for example, last year we passed the most 
comprehensive education reform laws in the country. We 
implemented a robust, statewide, pay-for-performance plan, 
giving our teachers the opportunity to not only be recognized 
but financially rewarded for their great work. We created a 
21st century schools by making historic investments in 
technology for teachers and students and quality-focused 
professional development for all teachers.
    We have eliminated tenure. We have eliminated antiquated 
last-hired-first-fired laws. We have adopted academic standards 
that are equal to any other academic standards in the world. 
And today in Idaho 50 percent of a teacher's evaluation is tied 
to student achievement, and parental input must be part of a 
teacher evaluation.
    Idaho is not alone. More than 30 states last year passed 
some form of comprehensive education reform legislation and has 
led to increased levels of accountability.
    We know states are willing and ready to take the lead. And 
how do we know this? It is because they have.
    Just look at the common core standards as just one example. 
Today 45 states have worked together with CCSSO to develop, 
adopt, and implement college and career ready standards for all 
public schools. This was a state-led effort and voluntary; the 
federal government did not lead in this effort nor did it 
compel states to participate.
    And states did not stop there. We are also collaborating to 
build the next generation of assessments aligned to these 
higher standards. Now that we have the standards in place and 
are working towards the next generation of assessments we must 
have new systems of increased accountability, and 45 states are 
working with CCSSO to develop and adopt next-generation 
accountability principles aimed at assuring better outcomes for 
all students.
    In short, state and local leaders are not running from 
accountability and improvement; we are stepping up and 
embracing high levels of it on our own accord and now we need 
for Congress to reauthorize ESEA to recognize states' rights 
and give states the flexibility and authority to continue this 
great work.
    What I am suggesting is a 10th Amendment approach to the 
federal government's role in education, where states define the 
federal government's role in education rather than the other 
way around. This is already happening around the country as 
governors, state superintendents, legislators, and others have 
helped to move education reform forward.
    So I commend Chairman Kline for offering a bill that 
acknowledges and respects that it is the state and local 
leaders who are driving education reform. Specifically, we 
support the elements of the Student Access--or Success Act and 
Encouraging Innovation and Effective Teachers Act that--and we 
have a number of different points that we support, Mr. 
Chairman, and a number of areas that we think need to be 
improved in the law, and they are part of my testimony.
    So since the red light is on and I will be a good example 
for the others, let me just say that I do believe that as long 
as the federal government spends tax dollars to fund public 
education there must be accountability for how those dollars 
are spent. Accountability means results, and results means that 
student--higher student achievement. And so we must define and 
lead education reforms with a limited federal role in 
supporting authentic, comprehensive state and local reform 
efforts.
    Thank you, Mr. Chairman.
    [The statement of Mr. Luna follows:]

    Prepared Statement of Tom Luna, Idaho Superintendent of Public 
 Instruction; President of the Council of Chief State School Officers 
                                (CCSSO)

    Chairman Kline, Ranking Member Miller, Members of the Committee, 
thank you for inviting me to testify today about the Student Success 
Act and the Encouraging Innovation and Effective Teachers Act, Chairman 
Kline's proposals to reauthorize the Elementary and Secondary Education 
Act of 1965 (ESEA). My name is Tom Luna, and I am the Superintendent of 
Public Instruction for Idaho and the current President of the Council 
of Chief State School Officers (CCSSO).
    I am pleased to be here today to discuss how to best preserve and 
advance the ESEA's longstanding focus on ensuring that all children--
especially children of color, low-income students, English Language 
Learners, and students with disabilities--have access to high quality 
educational opportunities to ensure they are prepared for success after 
graduation. States remain staunchly committed to raising the bar with 
college and career ready standards for all students, and we believe 
that federal policy must support the ultimate goal of ensuring that all 
students graduate ready for higher learning or entering the workforce. 
We urgently need for Congress to reauthorize the ESEA now, because for 
the last 10 years, American schools have lived under a law that is akin 
to the classic Clint Eastwood movie, ``The Good, the Bad and the 
Ugly.''
    First the good: No Child Left Behind has placed a spotlight on 
student achievement in America, especially among disadvantaged 
students, and it has established grade level proficiency as the target 
for every child. But while No Child Left Behind has focused America's 
schools upon improving learning for every child, it also has many bad 
parts. Notably, current law doesn't recognize student growth, so 
schools have numerous ways to fail but few avenues to demonstrate 
success. And now the ugly: because the law has not been reauthorized in 
a timely manner, its rigid accountability system has become a stumbling 
block to state and local education reforms.
    Thankfully, the states have not waited for the federal government 
to act on ESEA and have acted on our own to advance meaningful state-
driven accountability; in fact, States are currently engaged in a 
``renaissance'' of education reform. More than 30 states last year 
passed some form of comprehensive education reform legislation. States 
across the nation are addressing antiquated labor practices, improving 
student access to technology, engaging in system redesign, adopting 
clear and high academic standards, and developing data systems that 
support targeted student interventions and improved program evaluation.
    States' record of also initiating and tenaciously pursuing 
educational improvements at the national level in recent years speaks 
for itself. Working without federal involvement, 45 states worked 
together with CCSSO to develop, adopt, and now implement college and 
career ready standards for all public school students. Nearly every 
state is also currently collaborating to develop next generation 
assessments aligned to those standards to better measure what students 
know and can do; Idaho is the lead state in one of the two state 
assessment coalitions. Building on these successes, 45 states have 
worked with CCSSO to develop and adopt next generation accountability 
principles aimed at ensuring better outcomes for all students, 
including but not limited to a continued commitment to regular 
assessments, a continued focus on accountability for subgroup 
performance, and ongoing public transparency and reporting to ensure 
that parents and communities understand how their schools are 
performing. In short, state and local leaders are not running from 
accountability and improvement; we are stepping up and embracing higher 
levels of it on our own accord.
    Let me be clear: these education reform efforts have been carried 
out across the country willingly and without coercion by engaged and 
reform-oriented state leaders. We do not need the federal government to 
dictate the specific terms of state and local reforms, because we are 
situated best to develop and implement state, local, and national 
initiatives that benefit students in our state. I know of no Governor 
or State Superintendent who passively accepts current conditions in our 
public schools or seeks to conceal inadequacies in their systems; in 
fact, almost every state is, to an extent unprecedented in recent 
history, pursuing aggressive education reforms on our own accord. 
Federal law must now recognize state leadership by holding us to high 
standards and requiring adherence to core principles while unleashing 
and empowering state innovation, evaluation, and continuous 
improvement.
    And yet Congress and the Administration are still broadly debating 
what federal role is appropriate for education. As a conservative 
Republican, I submit to you that where taxpayer dollars are spent there 
is an appropriate federal role in ensuring accountability for student 
performance. The freedom for states to innovate must be built into 
statute, however. I prefer a 10th Amendment approach to the federal 
government's role in education. The 10th Amendment to the United States 
Constitution states, ``The powers not delegated to the United States by 
the Constitution, nor prohibited by it to the States, are reserved to 
the States respectively, or to the people.'' The states should 
therefore define the federal government's role in education, instead of 
the federal government defining the states' role.
    The fact that states have waited almost five years for Congress and 
the President to reauthorize the ESEA is further evidence that the 
federal role in education should be minimal. Today, states are left to 
live under an outdated law or submit ESEA waiver requests to the U.S. 
Department of Education. Last week, the President announced that 10 
states will receive waivers from central provisions of current law; 
nearly 30 states, including Idaho, are in the process of submitting 
waivers at the end of February. Many states are driven to submit 
waivers to secure temporary relief from NCLB, but what we really want 
is reauthorization of the entire law.
    As I stated above, the new ESEA must support, not hinder, the 
innovative work being done at the state and local levels. State and 
local leaders must be empowered to develop and implement a range of new 
educational models that would ensure that all students graduate college 
and career ready. That includes allowing states to develop meaningful 
accountability, improvement, teacher effectiveness, professional 
development, and other systems that reflect local conditions and needs, 
while holding us accountable for achieving the outcomes that we 
promise. In other words, the new law must set clear expectations for 
states across core areas of reform, but should not prescribe a single 
approach for how states must meet these reform objectives. We must stop 
legislating and regulating to the lowest common denominator, and begin 
to unleash educators to educate.
    ESEA must help more states continue on the road to better 
performance by incentivizing continued state leadership, clearing away 
hurdles like those I described, and creating the necessary flexibility 
for states, districts and schools to customize solutions aimed at 
addressing persistent underperformance. Regardless of federal action, 
Idaho intends to implement college and career ready standards and 
establish a new accountability system consistent with the principles 
outlined in the Council of Chief State School Officers accountability 
framework. Passage of a strong ESEA reauthorization would enable our 
state to forgo costly and burdensome implementation and administration 
of dual federal and state systems at this critical junction of reform.
    We commend Chairman Kline for offering a bill that acknowledges and 
respects that it is state and local leaders who are driving education 
reform. Specifically, we support the elements of the Student Success 
Act and Encouraging Innovation and Effective Teachers Act that:
    <bullet> Maintain a strong focus on accountability for all schools 
and recognition of the need to accurately measure student growth in 
addition to proficiency. We support eliminating the federally-defined 
100% proficiency target (AYP), but requiring states to define, report, 
and act using authentic student growth;
    <bullet> Seek annual determinations, disaggregation, and reporting 
on the performance of all schools by overall student performance and 
subgroup population performance;
    <bullet> Ensure states have a school improvement intervention 
strategy in place while granting states flexibility from the 
prescriptive federal turnaround models set forth in the School 
Improvement Grant program;
    <bullet> Allow states to develop and implement computer adaptive 
assessments; and
    <bullet> Promote policies that advance teacher and leader 
evaluation reforms, which are a top ESEA priority for Idaho and CCSSO.
    CCSSO supports modifications to the legislation, however, to 
strengthen the ability of states to deliver on their commitments to 
stronger accountability systems rooted in the ultimate goal of college 
and career readiness for all students. These include:
    <bullet> Including two additional parameters for state 
accountability and school improvement systems: states identifying at 
least a baseline percentage of lowest-performing schools and asking 
states to establish ambitious yet achievable performance targets for 
their students, without mandating a single goal or approach;
    <bullet> Granting states the express authority to withhold federal 
school improvement funding from districts that fail to implement their 
school improvement plans or strategies adequately or if those 
strategies fail to improve student achievement;
    <bullet> Clarifying that the legislation does not bar federal funds 
from being used to support the two existing state-led assessment 
consortia that are working to develop next-generation assessments 
capable of more accurately measuring student performance. Nearly every 
state is a member of one of these consortia and has a strong interest 
in maintaining a limited federal role in the support of these 
consortia; and
    <bullet> In keeping with your legislation's reliance upon increased 
state and local leadership in education, ensuring that the new ESEA 
authorizes sufficient funding to support the capacity-building and 
programmatic support necessary to advance education reform at the state 
and local levels and avoid unfunded federal mandates.
    Addressing these issues is critically important as the bill moves 
through the legislative process, but I see the Committee's upcoming 
consideration of this legislation as an important step in moving toward 
a much more effective law.
    Let me reiterate that as long as the federal government contributes 
to funding public education, it should play a limited role in ensuring 
accountability both for ensuring positive results for all students and 
encouraging the best and highest use of taxpayer dollars towards 
achieving those results. Congress must empower states also to define 
and lead education reform efforts, while limiting the federal role to 
supporting authentic, comprehensive state and local reform efforts. One 
needs only look at what is going on in Idaho, Indiana, Ohio, Florida 
and dozens of other states across the country to see evidence of our 
commitment to accountability and comprehensive reform.
    Four years ago, states were told to wait for reauthorization until 
a new Congress and a new President were elected. We cannot wait another 
two or four years. CCSSO and I look forward to working with this 
Committee and the full Congress to support a sensible and timely 
reauthorization.
                                 ______
                                 
    Chairman Kline. Thank you, Mr. Luna.
    And for all the witnesses, your entire testimony will be 
included in the record.
    Ms. Pompa, you are recognized.

 STATEMENT OF DELIA POMPA, SENIOR VICE PRESIDENT OF PROGRAMS, 
                  NATIONAL COUNCIL OF LA RAZA

    Ms. Pompa. Thank you, Chairman Kline, Ranking Member 
Miller, and all members of the committee for providing me the 
opportunity to present testimony this morning. My name is Delia 
Pompa. I am the senior vice president for programs at the 
National Council of La Raza, or NCLR. NCLR, the largest 
national Hispanic civil rights and advocacy organization in the 
United States, works to improve opportunities for Hispanic 
Americans in the United States.
    In my role at NCLR I oversee all education programs, 
including a network of over 100 charter schools. My work on 
public school reform is shaped by more than 35 years of 
experience leading local, state, and federal agencies and 
national and international organizations.
    I began my career as a kindergarten teacher and went on to 
serve as the district administrator and as assistant 
commissioner for the Texas Education Agency. I was formerly the 
director of the Office of Bilingual Education and Minority 
Language Affairs in the U.S. Department of Education, as noted, 
and my focus has always been on helping schools and teachers 
understand and respond to the needs of underserved children.
    In 2009 students of color represented 41.3 percent of all 
public school students. It is important to note that suburban 
schools added 3.4 million students between 1993 and 2006, with 
nearly all of this increase due to an increase in the 
enrollment of children of color. Given these demographic shifts 
the academic achievement of students of color and other 
underserved groups of children becomes particularly important.
    Over the last 15 years student achievement, as measured by 
the National Assessment of Educational Progress, or NAEP, has 
improved much too slowly for Hispanic, Black, and economically 
disadvantaged students. English language learners and students 
with disabilities have lost ground on NAEP after years of 
improvement.
    Addressing these challenges requires federal policy 
interventions grounded in the origins of the Elementary and 
Secondary Education Act. The Elementary and Secondary Education 
Act of 1965 is a civil rights law, enacted along with the Civil 
Rights Act of 1964 and the Voting Rights Act of 1965.
    Similar to those laws, ESEA was designed to break down 
legal and social barriers to equal opportunity. Since then our 
nation has made enormous progress in many areas of American 
life, including the elimination of Jim Crow laws, greater 
access to the ballot box, as well as the end of legal school 
segregation. However, challenges remain and ESEA remains the 
main vehicle for addressing the needs of all children and 
subgroups of children.
    Early versions of ESEA relied almost exclusively on 
additional resources to schools serving poor students with no 
real performance standards. Low expectations and poor results 
pervaded many schools attended by Latino, African American, and 
other economically disadvantaged students.
    Before NCLB the question was whether or not children with 
disabilities and English language learners could be educated. 
Now the question is, how can we prepare them for success in 
college and the workplace?
    While NCLB hasn't achieved everything we had hoped for 
there is no question that this change in mindset has been 
immensely important for these children and their families. 
Changes to ESEA must be undertaken with great care with an eye 
toward the law's initial purpose to provide an excellent 
education to all children.
    The fact that changes to NCLB contained in the Student 
Success Act seem to be designed to addressed mainly the 
challenges that school administrators face in implementing 
current law is unacceptable to the civil rights community. 
Rarely in the debate has there been an emphasis on what 
children need in order to compete in a 21st century global 
workforce, what parents hope for their children, and what 
taxpayers would expect the school system to achieve with its 
taxpayer dollars.
    If this legislation is to make a positive difference in the 
lives of children it must be improved in the following ways: We 
must require states to develop and implement college and career 
ready standards, including English language proficiency 
standards. States, districts, and schools must be accountable 
for all students by setting progress targets and a timeframe in 
which to provide results.
    Graduation rates must be disaggregated by subgroups and 
must include targets and a timeframe in which to produce 
results. The comparability loophole must be closed. Gender and 
migrant status must be included in state and school district 
report cards.
    The cap on alternate assessments on alternate achievement 
standards for students with disabilities must be restored. And 
finally, English proficiency and achievement targets for ELLs 
must be maintained.
    In closing, some say that family poverty predetermines the 
academic prospects of millions of children and that poverty 
must be eradicated before schools can be held accountable for 
helping children learn. We reject this notion.
    Our policies should ensure that all children have the 
opportunity to obtain an excellent education irrespective of 
the neighborhoods in which they live, their parents' education 
level, or their family's income. We believe that a smart and 
robust federal role is necessary to achieve this.
    I look forward to answering any questions you might have. 
Thank you.
    [The statement of Ms. Pompa follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Kline. Thank you very much.
    Mr. Schaffer, you are recognized.

STATEMENT OF HON. BOB SCHAFFER, CHAIRMAN, COLORADO STATE BOARD 
OF EDUCATION; FORMER REPRESENTATIVE IN CONGRESS FROM THE STATE 
                          OF COLORADO

    Mr. Schaffer. Thank you, Mr. Chairman, and Mr. Miller. 
Thank you very much for your kind invitation to be here today 
and to comment on the proposed legislation as it relates to 
reauthorizing the Elementary and Secondary Education Act.
    Throughout the 6 years that I represented Colorado's fourth 
district in the U.S. House I considered it a privilege to serve 
on this very committee and I really enjoyed the chance to 
discuss and act on issues similar to the ones you are 
considering today and I regard it as the most important work in 
public policy.
    Just a couple of years ago I left the private sector and 
became principal of Liberty Common High School, a public 
charter school in Fort Collins and a junior high school in my 
home town of Fort Collins. My wife and I were founding parents 
that helped start Liberty Common 16 years ago and all of our 
children have attended it--two of them are students there 
today--and I am proud to say the school continues to grow and 
has consistently been one of the state's top-performing 
schools, with over 900 students attending and about 1,300 more 
on our waiting list.
    And with that background I have become deeply convinced of 
the value of parental involvement in education, of the 
marketplace-driven benefits of school choice, of the value of 
local control in education and streamlined systems to get more 
dollars to classrooms where they are most needed. These beliefs 
are among the chief reasons I am here today. These broad 
strategies enjoy general bipartisan consensus among the seven 
members of the Colorado State Board of Education, and as 
chairman I can assure you that Colorado's board also shares an 
ambitious vision for the future of Colorado's education system.
    And we have led the country in transforming our teacher 
corps. First, let me say, Coloradans agree it is the 
fundamental right and obligation of parents to direct the 
education and upbringing of their children. Parents play the 
most important role in determining the academic success of a 
student. After that it is curriculum, and that influences the 
children tremendously.
    In exercising their rights and fulfilling their greatest 
responsibilities, parents most often look to and rely upon 
proficient teachers to assist in shaping the academic success 
of their children. And Colorado is leading the way and 
legitimately leaving behind the concept of teacher tenure.
    My colleagues and I recently passed, unanimously on a 
bipartisan basis, a new system to evaluate public school 
teachers on the basis of performance. These performance 
measures are tied 50 percent to student performance scores. The 
other half is comprised of a combination of objective and 
subjective evaluations and observations. Those teachers who are 
able to meet the performance expectations of the new system 
will receive--sorry--those teachers who are unable to meet the 
performance expectations of the new system will receive focused 
professional support for a period of time, and if that proves 
insufficient they will be replaced.
    For the vast majority of Colorado's teachers who will 
thrive under the new system they will begin, finally, to be 
treated like real professionals with compensation, recognition, 
and advancement being directly associated with performance, and 
most importantly, with useful and constructive feedback on 
their professional practice and student results. To be sure, 
Colorado still has a long way to go, but we have cleared the 
highest hurdle in this regard. We have managed to pass the 
underlying legislation and begun overhauling the necessary 
administrative structure in the state with support from a 
Republican-led board of education, two Democratic governors, 
and a split state legislature.
    In fact, last week our board received a report from the 
State Department--our education licensing unit. The question 
is, once we have an ongoing, objective teacher evaluation 
system in place, what would be the purpose of a teacher's 
license? Think about it: At a time when our schools are pressed 
for cash why do we continue to require teachers to shell out 
thousands of dollars or more per year to maintain a piece of 
paper that essentially tells us nothing about that teacher's 
suitability to teach?
    Now, when I asked our licensing staff that question they 
indicated we probably have to keep issuing meaningless and 
expensive state licenses to teachers who can barely afford to 
buy them. They told the board that we have to do this because 
the federal government would cut off a few hundred million 
dollars in funding to our state that is predicated on the old-
fashioned idea of a teacher's license. And frankly, we would 
like to move on quickly to a better measure, a results-based 
indicator of teacher quality and performance-based assessments 
to identify truly outstanding teachers in the classroom.
    Whether it is through waivers or through a restored 
regulatory relief that is a function of H.R. 3989 and H.R. 
3990, granting more freedom from federal mandates of--federal 
mandates of NCLB--does not mean lowering the bar for any child. 
Quite to the contrary, Colorado's proposal actually holds more 
schools and districts accountable to higher academic standards 
and for more students in historically disadvantaged subgroups 
than NCLB ever did.
    And we are proud of the state leadership that we have 
exerted in pushing accountability even further in a freer post-
NCLB world. Our systems are built upon disaggregated data. Our 
accountability systems track all of this and are oriented 
toward closing achievement gaps.
    We are turning underperforming schools upside down. We are 
creating more charter school options all the time in 
neighborhoods where choice creates pressure for immediate 
improvement and where customized education services are needed 
most. We did this all on our own without the federal government 
telling us we had to.
    Mr. Chairman, I appreciate the opportunity to share with 
you the perspective from the Rocky Mountain West. It is a 
perspective that favors choice, local control, a professional 
transformation of the teaching craft, transparency, 
accountability, competitiveness, and marketplace 
entrepreneurship. It is a perspective that to me seems more 
possible and likely with the introduction of the two bills you 
are considering today.
    And that concludes my remarks.
    [The statement of Mr. Schaffer follows:]

Prepared Statement of Hon. Bob Schaffer, Chairman of the Colorado State 
    Board of Education; Former Member, U.S. House of Representatives

    Mr. Chairman and Members of the Committee, thank you very much for 
your kind invitation to be here today and to comment on proposed 
legislation as it relates to reauthorizing the Elementary and Secondary 
Education Act.
    Throughout the six years that I represented Colorado's Fourth 
Congressional District in the U.S. House, I considered it a privilege 
to serve on this very Committee. I really enjoyed the chance to discuss 
and act on issues similar to the ones you're considering today and I 
regard it as the most important work in public policy.
    Though time has passed and a few of the faces have changed, I know 
the object of your interest is still the same--the wellbeing of 
America's schoolchildren. As a parent of five public-school educated 
children, my interest in this topic is personal. It's also central to 
my overall civic-leadership interest in helping build a stronger 
America for every school-aged citizen.
    The experiences of being a parent active in my kids' schools, 
serving on this Committee, and before that nine years of involvement in 
education issues as a Member of the Colorado State Senate makes for 
some habits that I've found impossible to break. A couple years after 
leaving Congress in 2003, I became an elected member of the Colorado 
State Board of Education where I now serve as Chairman.
    Just a couple years ago, I left the private sector and became the 
principal of Liberty Common High School, a public, charter high-school 
and junior-high school in my hometown of Fort Collins, Colorado. My 
wife and I were founding parents and helped start the Liberty Common 
system over 16 years ago and all of our children have attended it. Two 
of them are students there today and I'm proud to say, the school 
continues to grow, it has consistently been one of the state's top-
performing schools with over 900 students attending and about 1,300 
more on our waiting list.
    With that background, I have become deeply convinced of the value 
of parental involvement in education, of the marketplace-driven 
benefits of school choice, of the value of local control in education 
and streamlined systems to get more dollars to classrooms where they're 
needed most.
    These beliefs are among the chief reasons I am here today. These 
broad strategies enjoy general bipartisan consensus among the seven 
Members of the Colorado State Board of Education. As chairman, I can 
assure you that Colorado's board also shares an ambitious vision for 
the future of Colorado's education system.
    We've led the country in transforming our teaching corps. First, 
let me say that Coloradans agree it is the fundamental right and 
obligation of parents to direct the education and upbringing of their 
children. Parents play the most important role in determining the 
academic success of a student. After that, it is curriculum that 
influences the success of a student.
    In exercising their rights and fulfilling their great 
responsibilities, parents most often look to and rely upon proficient 
teachers to assist in shaping the academic success of their children. 
Colorado is leading the way in legitimately leaving behind the concept 
of teacher tenure. My colleagues and I recently passed--unanimously on 
a bi-partisan basis--a new system to evaluate public-school teachers on 
the basis of performance.
    These performance measures are tied fifty percent to student 
performance scores. The other half is comprised of a combination of 
objective and subjective observations. Those teachers, who are unable 
to meet the performance expectations of the new system, will receive 
focused professional support for a period of time, and if that proves 
insufficient, they'll be replaced.
    For the vast majority of Colorado's teachers who will thrive under 
the new system, they will finally begin to be treated like real 
professionals with compensation, recognition and advancement being 
directly associated with performance, and most importantly with useful 
and constructive feedback on their professional practice and student 
results. To be sure, Colorado still has a long way to go, but we've 
cleared the highest hurdles in this regard. We managed to pass the 
underlying legislation and begun overhauling the necessary 
administrative structure in the state with support from a Republican-
led State Board of Education, two Democratic governors and a split 
state legislature.
    In fact, just last week, our Board received a report from our State 
Department of Education's licensing staff. The question is, once we 
have an ongoing, objective teacher evaluation system in place, what 
would be the purpose of a teachers' license? Think about it, at a time 
when our schools are pressed for cash, why do we continue to require 
teachers to shell out a thousand dollars or more a year to maintain a 
piece of paper that essentially tells us nothing about a teacher's 
suitability to teach?
    When I asked our licensing staff that question, they indicated we 
probably have to keep issuing meaningless and expensive state licenses 
to teachers who can barely afford to buy them. They told the Board we 
have to do this because the federal government would cut off a few 
hundred million in funding to our state that is predicated on the old-
fashioned idea of a teacher license. We'd frankly like to move on--
quickly--to a better measure, a results-based indicator of teacher 
quality and a performance-based assessment to identify truly 
outstanding classroom instructors.
    H.R. 3990, the Encouraging Innovation and Effective Teachers Act, 
encourages more of this kind of reform by relying more on local 
teacher-evaluation systems and by allowing state and local leaders more 
flexibility in the use of federal education funding.
    Colorado has also been rather aggressive about updating our 
academic standards and modernizing our assessment system to meet the 
expectations of our state's higher-education system. In adopting new 
standards and developing new assessments, it would be our preference to 
make decisions based upon our values as a Western state that competes 
well in an international economy.
    While Colorado is certainly free to be at the table in developing, 
for example, the Common Core State Standards and assessments developed 
through consortia efforts with other states--which we do--we strongly 
object to and resent federal efforts to use federal funds or cash 
awards to push our state, or any state, in a direction it might not be 
inclined to go on its own volition.
    Moreover, I am concerned whether the Common Core State Standards, 
the corresponding assessments developed through the two consortia, and 
the NCLB Conditional Waivers are effectively pushing states toward a 
national curriculum. I direct your attention to the recent study 
published by the Pioneer Institute entitled, The Road to a National 
Curriculum: The Legal Aspects of the Common Core Standards, Race to the 
Top, and Conditional Wavers for additional information on this issue.
    This is why the Student Success Act (H.R. 3989) and the Encouraging 
Innovation and Effective Teachers Act (H.R. 3990) are big steps in the 
right direction, and why the Committee should pass them. The combined 
effect of these bills is to rely on state-designed accountability 
systems, state-designed academic standards and state-designed 
assessments. The bills would allow us to move forward with teacher 
assessments predicated upon verifiable success rather than the current 
federal definition which is predicated upon credentials, tenure and 
meaningless, expensive certificates from state bureaucracies.
    As you all probably know, Colorado was one of the states to receive 
one of these new NCLB waivers last week. Of course we applied for 
regulatory relief from the federal government. But the more fundamental 
question is, why should we have to go through all that effort, time and 
expense just to be able to act like an actual state and exercise the 
authority the U.S. Constitution suggests we already have?
    I have to tell you, the U.S. Department of Education was actually 
quite helpful in Colorado's application. The Department even seemed to 
want to help us to go further than your law allows us to go with 
respect to Title I portability. You see, in Colorado, we have some 
Title I schools where the students take online courses from districts a 
county or two away. Why can't the Title I funds associated with that 
child be used to assist the child at the school that can actually help 
him?
    We've done extensive analysis, consulted lawyers, agency experts 
and others and we've actually identified a way we could do this in 
Colorado. The U.S. Department of Education has given us every 
encouragement. But, the current federal law is the only thing left that 
stands in the way preventing us from helping the children of Denver to 
get the better education that their parents have chosen and that they 
deserve. I hope you'll consider these kinds of freedoms, which are very 
consistent with H.R. 3989 and H.R. 3990, as you go into markup.
    Incidentally, whether through waivers or through the restored 
regulatory relief of H.R. 3989 and H.R. 3990, granting more freedom 
from the federal mandates of NCLB does not mean lowering the bar for 
any child. Quite to the contrary, Colorado's proposal actually holds 
more schools and districts accountable to higher academic standards, 
and for more students in historically disadvantaged subgroups than NCLB 
ever did. We are proud of state leadership in pushing accountability 
even further in a freer, post-NCLB world.
    Our systems are built upon disaggregated data. Our accountability 
systems track all of this and are oriented toward closing achievement 
gaps. We're turning underperforming schools upside down. We're creating 
more charter-school options all the time in neighborhoods where choice 
creates pressure for immediate improvement and where customized 
education services are needed most. We did all of this on our own 
without the feds telling us we had to.
    In Colorado, as in every state, parents deserve to be treated like 
real customers, teachers deserve to be treated like real professionals, 
and children--all children--deserve to be treated like real Americans. 
H.R. 3989 and H.R. 3990 are promising proposals because they recognize 
that schools should enjoy the freedom to teach, and students should be 
given the liberty to learn.
    Again, I appreciate the opportunity to share with you a perspective 
from the Rocky Mountain West. It's a perspective that favors choice, 
local control, a professional transformation of the teaching craft, 
transparency, accountability, competitiveness and marketplace 
entrepreneurship. It's a perspective that, to me, seems more possible 
and likely with the introduction of the two bills you're considering 
today.
    Mr. Chairman, this concludes my remarks. Thank you.
                                 ______
                                 
    Chairman Kline. Thank you very much.
    Dr. Balfanz?

    STATEMENT OF DR. ROBERT BALFANZ, CO-DIRECTOR, EVERYONE 
GRADUATES CENTER, SCHOOL OF EDUCATION, JOHNS HOPKINS UNIVERSITY

    Mr. Balfanz. Chairman Kline, Ranking Member Miller, members 
of the committee, thank you for letting me testify today. My 
remarks today are based on 15 years of experience working as a 
researcher and practitioner with high-poverty middle and high 
schools. And what this experience tells me is that the nation 
is at a crossroads.
    Right now there is no work in the 21st century to support a 
family if you don't have a high school diploma and some post-
secondary schooling or training. Yet every year we continually 
produce 1 million young adults--we are propelling them into 
young adulthood without a high school diploma, for which there 
is really little future. And we are also--about 25 percent of 
our graduates from high school are not prepared for post-
secondary success.
    No business can survive when it only works half the time. 
No nation can be economically competitive under the same 
conditions.
    The good news is some progress is being made. Graduation 
rates are actually up, achievement is up, and low graduation 
rate high schools--those high schools that produce half our 
nation's dropouts, called dropout factories--have actually 
declined from 2,000 to 1,500. The number of students passing 
A.P. exams has doubled.
    We have also learned a lot more about what works, and we 
have also learned the early warning signs of dropping out, so 
now it is much more--we are much more able to intervene early 
and effectively. But this progress has not been fast enough, 
deep enough, or wide enough, and that is why today's hearing is 
so important.
    We have to get this right. We have to figure out how we can 
combine local energy and initiative and choice with federal 
guideposts, guardrails, and catalysts so we can have--so we can 
step on the gas. We have got to step on the gas. We have got to 
have much higher outcomes at the end of this decade than we do 
now.
    So there is an important federal role here that I just want 
to give three ideas on from my work in the field. First, we do 
need federal guideposts. We have had a great natural experiment 
in the past decade on what happens when we leave the states 
alone to set targets and goals.
    NCLB let all states figure out how they wanted to measure 
graduation rates, set their own goals, set their own targets, 
and what happened? About a dozen states stepped forward, put 
forward comprehensive plans, and saw double-digit gains in 
their graduation rates. New York and Tennessee were the 
leaders.
    Another dozen states, quite frankly, took a pass. They used 
inflated graduation rates. They said any progress matters, even 
if we go from 50 to 50.5 percent. And actually, 10 states now 
have lower graduation rates than they did in 2001.
    So we have got to find a way to build upon the work done by 
the National Governors Association with a grad rate compact and 
the Department of Ed 2008 regulations, which means that this 
year we finally have grad rate accountability in the nation. 
And the reauthorization can't go backward. It needs to build on 
that and add college readiness.
    A second area where we need a federal role is with 
guardrails. Put yourself in a place of a principal of a high-
poverty middle or high school. You have 1,000 to 2,000 
students; you have 100 adults to manage. Most of your students 
enter the building below grade level, most have waning 
motivations, many are chronically absent.
    Add several years of budget cuts, now. Enter Title I 
dollars. This is a lifeline. It is the only discretionary 
dollars you have and you are now under tremendous pressure from 
all quarters to spend that money all kinds of different ways.
    Giving some guardrails will give principals the cover and 
the support they need to do what they know is right, and that 
is why we need at least some separate, protected funding 
streams for principals doing comprehensive, evidence-based 
reform and bringing in external partners with proven track 
records of success to help build capacity. And in these regards 
the bills put forward today have good guidance. The final area 
we need the federal role is to be a catalyst. We need to 
basically soup-up the engine, right? We have got to go faster 
to get where we need to go.
    And that is about R&D, it is about innovation, but it is 
also about better dissemination. Because when I am in schools I 
admit I always see at least one great local innovation that is 
really powerful and really strong, and they almost all have 
very short shelf lives. They last as long as the developer of 
that innovation is in the school, in the district, in the 
state. So there is very little cumulative learning and we have 
very low educational productivity because of that.
    So we have to rethink how we disseminate good, local ideas 
by building learning networks and having some funding to 
support local and state dissemination efforts so we can really 
spread evidence-based and practice-validated educational 
improvements.
    In closing, we need to combine local energy, innovation, 
and wisdom with federal guideposts, guardrails, and catalysts 
to accelerate our educational outcomes and graduate all our 
students prepared for adult success. If at the end of this 
decade we are still debating how to do this and some nations 
have built more universities than we have fixed failing schools 
we will be on the wrong track.
    It is only by learning from the past decade's successes and 
struggles that we can effectively build a partnership between 
the federal government, states, and local schools and teachers 
to provide all our students with a pathway to high school 
graduation, college, and career ready. Thank you.
    [The statement of Mr. Balfanz follows:]

   Prepared Statement of Robert Balfanz, Research Scientist, and Co-
     Director of the Everyone Graduates Center, Center for Social 
 Organization of Schools, School of Education, Johns Hopkins University

    Chairmen Kline, Ranking Minority Member Miller, members of the 
Education Committee thank you for inviting me to testify today. My 
remarks are shaped by my experience over the past decade and half, as 
both a researcher and practitioner, working to improve educational 
outcomes for high-poverty middle and high schools at the federal, 
state, district, and school levels. Most recently, this has involved 
working with 12 school districts including Philadelphia, East Baton 
Rouge, Boston, Los Angeles, and San Antonio on a school reform effort 
called Diplomas Now, an Investing in Innovation I3 winner, designed for 
the highest needs middle and high schools that drive the nation's 
dropout crisis. It combines evidence-based whole school reform, with 
enhanced student supports provided by non-profit partners, guided by an 
early warning system
    What our research and this experience tell me is that our nation 
stands at a crossroads.
    The recent economic challenges have brought into stark relief that 
in order to prosper in the 21st century, our nation needs to graduate 
all its students from high school prepared for post-secondary success, 
be it through college, job training or the military. Simply put, there 
is little work for young adults who do not have a high school diploma. 
Currently, nearly three out of four high school dropouts in their 20s 
are not employed full time. If you are 25 years old, without a high 
school diploma, and no work history, are you ever going to find 
sustained work? Moreover, there is little work that will support a 
family, unless you have not only a high school diploma but also some 
post-secondary schooling or training. At its core our nation is based 
on work and family. Yet we are turning out more than a million students 
a year, who lack the education needed to work and support a family. 
Only three out of four students in each high school class are earning 
their high school diplomas, and at least another 25% graduate from high 
school but are unprepared for additional schooling or training. No 
business can survive when it succeeds only half the time, nor can any 
country remain economically competitive. The economic cost of the 
dropout crisis is enormous in terms of lost wages, revenues, and 
productivity. Moreover, my work on the dropout crisis, I have found no 
more passionate advocates for the need to end the crisis, than the 
leaders of the U.S. Army Ascension command. Not only because of its 
ramifications for a strong military, but because they can see, that 
left unchecked, this crisis threatens our nation's fabric.
    The good news is progress has been made over the past decade and 
our knowledge of what needs to be done and how has increased. 
Graduation rates and achievement are up. The number of high schools 
where graduation is at best a 50/50 proposition (the nation's ``dropout 
factories,'' which produce half the nation's dropouts) has declined 
from about 2,000 to 1,500. The number and percent of students taking 
and passing AP tests, indicating that they are doing college level work 
in high school, has doubled.
    Over the past decade, we have also learned the early warning signs 
that indicate students are on the path to dropping out, years before 
this will occur. This means we can now be much more effective and 
efficient in getting the right intervention to the right student at the 
right time, and in so doing, keep many more students on the path to 
high school graduation. The last decade has also seen significant 
advances in building the evidence base needed to improve educational 
practice. As importantly, thanks to NCLB, the idea that schools must be 
accountable for all students, rich and poor, majority and minority, 
English language learner and special education students, learning at 
sufficient levels for success in the 21st century has become firmly 
engrained in our education system.
    The progress though has not been fast enough, deep enough or wide 
enough. While NCLB focused schools attention on the pressing need to 
improve the achievement of all students, it did not provide for 
tailored enough interventions. That is why today's hearing and the re-
authorization of the Elementary and Secondary Education Act is so 
timely, and so important. We have to get this right. Our nation's 
future depends on figuring out how we can step on the gas, and not tap 
on the brakes. Central to this will be figuring out the most beneficial 
federal role.
    Here I would like to offer three suggestions.
    First, my experience and research suggests we need federal 
guideposts. Over the past ten years, we have had a great natural 
experiment about what happens when we let states lead without federal 
guideposts. NCLB left it to the states to set their own high school 
graduation rate goals, select their own means of measuring graduation 
rates, and allowed any improvement to satisfy accountability 
requirements. What was the result? Some states led the way and put 
forth comprehensive and sustained efforts to raise their graduation 
rates, and saw large gains. Tennessee, for example, increased its 
graduation rate by 18 percentage points, New York by 13, and overall 
nine states had average gains of at least one percentage point per 
year. On the other hand, almost an equal number of states used 
inaccurate graduation rate measures and either lulled themselves into a 
false sense of complacency or did not give raising graduation rates 
high priority. Today, 10 states have lower graduation rates than they 
did in 2002, in an economic era when every dropout means lost revenue 
and increased social cost. When the states that moved ahead on their 
own are combined with the states that did not, the nation as a whole 
witnessed only a modest 3 percentage-point increase in high school 
graduation rates. Recognizing that this was not a prescription for 
national prosperity, the Bush administration in 2008 put forth 
regulations that required all states to measure graduation rates in the 
same accurate manner, set forth more aggressive graduation rate goals, 
and established substantial and continuous rates of improvement. To 
give states time to make this shift, it established this year, 2011-12, 
as the first year that federal graduation rate accountability would 
take hold. The re-authorization of ESEA needs to codify these 
graduation rate improvement guideposts that all states have agreed to, 
and in so doing, keep all states focused on graduating all their 
students prepared for college, career, and civic life.
    Second, there is a need for federal guardrails. As we work together 
to increase the nation's rate of educational progress, there is a 
federal role in making sure that all kids and all schools are included, 
that critical performance measures are being used, and that taxpayers 
get a good return on their investment. As I have worked with state 
department of education officials, school district leadership, and 
principals across the nation, I have never seen anything but good 
intentions. I am continually amazed by the level of insight and wisdom 
brought to the day-to-day work of educating students. But we are all 
human, and as such, struggle to make good decisions when faced with too 
many competing needs, too little time, or not enough good information. 
Accordingly, I have also too often seen whole groups of students, or 
whole categories of schools, being put aside, as either not the 
priority of the moment, too challenging to address, or beyond the 
capacity at hand. In particular, I have seen this happen with high 
schools. Districts sometimes view them as too hard to reform, and 
instead focus on improving earlier grades, with the hope that over 
time, these improvements will trickle up and make high schools more 
successful. But in the meantime, thousands of students each year 
continue to drop out of school, but stay in the community, at high 
economic and social costs.
    As a nation, we cannot afford to have whole groups of kids, or sets 
of schools not able to perform at the level needed for success in the 
21st century. Thus, it is important for the re-authorization of ESEA to 
continue to stress that all means all kids and all schools. Over the 
past two years, the number of high schools with low graduation rates, 
the nation's ``dropout factories,'' have declined at an accelerated 
pace. This is good news but we cannot ease up, as 1,500 remain. That is 
why in its re-authorization ESEA needs to maintain a focus on 
transforming the lowest-performing schools, including high schools with 
graduation rates below 60%. It is not enough just to identify these 
schools. Within their communities it is well known that they have not 
been successful, often for decades. In many cases, it was only when 
NCLB, most recently through school improvement grants, finally said 
they must be transformed or replaced that significant and urgent 
efforts to improve the schools commenced. But the re-authorization also 
needs to go beyond current efforts and build up the capacity of state 
educational agencies, school districts, and school leadership teams to 
make good decisions and implement evidence-based reforms so all kids 
and all schools can improve. This is especially essential in high-
poverty rural areas and smaller, formerly industrial cities, where 
often the only high school in the district has as many dropouts as 
graduates, and the school district fundamentally lacks the capacity to 
transform it.
    There is also a need for federal guardrails with regard to 
performance measures. Take the case of chronic absenteeism. There is 
perhaps no more basic performance measure than how often students 
attend school. Even the greatest teachers and the strongest curriculum 
will not produce learning gains, if students are not regularly in 
class. You have to be there. Yet, while nearly every parent receives an 
accounting with each report card of how many days of school their child 
missed, it is very rare, for schools, districts, and states to report 
to the public how many students in each school are chronically absent 
or have missed a month or more of school. The reason is simple, no one 
has asked them to do it. As a result, left unmeasured, chronic 
absenteeism and its detrimental effects remain unrecognized, and much 
like bacteria in a hospital, chronic absenteeism silently creates 
educational and social havoc. Consider just one statistic. In a report 
we will release in a few months, we found a major state, where 20,000 
students per class of sixth-graders cumulatively missed 6 months or 
more of school between 6th and 8th grades. Ultimately, only 3% of 
students from this group recovered sufficiently to enroll in higher 
education. The irony is that, once identified, chronic absenteeism is 
something communities can do something about. Recently a number of 
mayors, most prominently Mayor Bloomberg of New York, recognizing the 
connection between absenteeism, school achievement and advancement, and 
crime, unemployment, and social costs have led the charge to address 
it. In addition to achievement test scores, graduation and college 
readiness rates, the re-authorization of ESEA should include expanded 
measures of attendance, so all parents, communities, and taxpayers can 
know how many students at the schools they support are missing a month 
or more and a week or less of school.
    The final area where there is a need for federal guardrails is how 
federal funds (in particular Title 1 dollars) get spent at the school 
and district levels. When you spend time in schools (in particular, 
high-poverty middle and high schools) one thing you quickly learn is 
that their principals have some of the most complex and challenging 
jobs in America. Imagine having to organize often 100 or more adults, 
to teach and support, 700 to 2,000 students, the majority of whom enter 
the 6th or 9th grade behind grade level, often with waning motivations, 
impacted by concentrated and often inter-generational poverty, and as 
we have just heard high rates of chronic absenteeism. Add to this, now 
several years of budget cuts. Into this environment comes federal Title 
1 money, which in reality is viewed by principals and school districts 
as often the only discretionary funding they have. As such, this 
funding is very important to enable different high-poverty schools, 
with different needs, to implement the reforms they need to improve. Bu 
we also need to take into account that in this environment, principals 
are not that different from mayors. They seek to use federal funds to 
strategically bring in high value-added resources, but they also feel 
pressure to use money to engender support, buy peace, and reward 
loyalty. Inertia can also play a limiting role, in particular, when 
Title 1 funds have been used for years to cover the salaries of 
employees who are valued by the community, but may not necessarily 
represent the most effective way to off-set the impact of poverty and 
propel student achievement. Hence, it is important to put some 
guardrails on how Title 1 funds are used by districts and states. To 
avoid micro-regulation, perhaps this can best be achieved through 
incentives--by having a base level of discretionary Title 1 funding, 
but then reserving some portions of it, for schools that a) implement 
evidence-based comprehensive reforms, informed by a needs and capacity 
assessment, and b) bring in external partners with track records of 
success in similar schools to enhance school and district capacity. On 
this later point, Chairman Kline's Encouraging Innovation and Effective 
Teacher Act provides some excellent guidance.
    The last area, where there is a clear need for a federal role, is 
as a catalyst. To accelerate educational improvement fast enough to 
keep the nation competitive, not only do we need federal guidepost and 
guardrails, but we need to soup up the engine. Part of this is enhanced 
research, development, and evaluation, as well as incentives to 
encourage innovation. Here, strategic federal investments to further 
build the knowledge base are essential. But what I want to end my 
testimony with is a brief discussion of the importance of 
dissemination, in particular of evidence- and practice-validated 
educational improvements.
    Much of this nation's wealth can be traced to large improvements in 
agricultural productivity. In many states, this generated the wealth 
that let them invest heavily in education during the first half of the 
20th century, which in turn positioned the nation to be at the 
forefront of the human capital driven technology revolutions that 
powered economic growth in the latter part of the century. One key 
driver of agricultural productivity, in turn, was the federally funded 
agricultural extension agency that spread scientific farming techniques 
throughout the nation, but also worked to customize and adapt them to 
local conditions, while also spreading local innovations more broadly. 
What is the relevance of this history lesson to improving educational 
outcomes today? In my work with states, school districts, and schools, 
I almost always see one or more really powerful practices wherever I 
go. But over time I have realized that many have very short shelf-lives 
and only exist as long as their developer or proponent is in the 
school, or working for the district or state department of education. I 
also often see examples of uninformed practice or efforts that have 
been shown by solid research to be typically ineffective. As a result, 
we are constantly re-inventing things, already proven and established 
elsewhere, but not sustained or spread, while at the same time 
unknowingly implementing a practice that has been shown broadly not to 
work. Consequently, educational productivity is often quite low. This 
tells me we need to re-think how we disseminate evidence-based and 
practice-validated educational improvements, in part, by funding 
dissemination efforts at the local and state levels and creating more 
efficient means to spread what works with a means to customize it to 
local conditions. This translation function is not unique to education; 
it is increasingly being practiced in medicine and public health.
    In closing, in my work with schools over the past decade and a 
half, I have seen impressive efforts that have led to large 
improvements in educational outcomes in our highest-poverty schools. 
This has occurred when the adults in the building have been guided by 
ambitious improvement goals and a sense of shared urgency; when they 
have had access to good data to guide diagnosis and performance; when 
they have applied evidence-based strategies that enabled them to 
provide strong and coherent instructional programs school-wide; when 
point professional development enables teachers to organize the school 
around teacher teams led by strong leaders, and when these teams 
partner with their parents and non-profits with track records of 
providing the range of student support to propel all students to 
attend, behave, and try hard. These are the efforts we need to bring to 
scale, for our nation to meet the economic and social challenges of the 
21st century. The federal government has a key checks-and-balances role 
to play in providing the guideposts, guardrails, and catalysts needed. 
If at the end of this decade, we are still debating how to do this, 
while other nations have built more universities than we have fixed 
failing schools, we as nation will be on the wrong track.
                                 ______
                                 
    Chairman Kline. Thank you.
    Ms. Kazmier?

           STATEMENT OF FELICIA KAZMIER, ART TEACHER,
                    OTERO ELEMENTARY SCHOOL

    Ms. Kazmier. Good morning, everyone. My name is Felicia 
Kazmier and I am an art teacher at Otero Elementary School in 
Harrison School District 2 in Colorado Springs, Colorado.
    I would sincerely like to thank Chairman Kline, Ranking 
Member Miller, and other members of the committee for allowing 
me the opportunity today to address the committee and the bills 
they have put forward to reauthorize the Elementary and 
Secondary Education Act. It is both an honor and a privilege as 
an ordinary citizen to have the opportunity to possibly 
encourage innovation in the way our students will be educated.
    Let me state for the record that I love my job. Teaching is 
not for everyone, and especially when you are working for a 
district like Harrison School District 2, which holds you 
accountable. Our district has implemented an evaluation system 
that not only evaluates our effectiveness as teachers but 
expects us to produce results in regard to student learning 
while compensating us for our hard work.
    In the last 5 years Harrison has stepped up to the 
challenge that now faces many Americans in this room today: 
Should teacher evaluation be linked to student achievement 
results? At Harrison School District 2 teacher effectiveness is 
measured by formal and information observations, written 
summative and ongoing spot observations. Our administrators 
provide feedback, coaching, and professional development to 
improve teacher effectiveness.
    The teacher's results are divided into eight weights per 
content area. Another teacher, depending on the grade and 
content, will have assessments that reflect achievement in 
their content area.
    The district did not have to compensate teachers but 
chooses to do so. The more effective I am the more students 
achieve and the more money I can potentially earn. If a teacher 
is deemed ineffective than the administrator has decisions to 
make about training, remediation, and removal.
    I believe that what makes our district's system work is 
that all teachers have been given an opportunity to help in 
creating our evaluation system. I was asked by our 
superintendent to sit down with him and other art teachers, as 
non-core subject teachers, to create a system by which we could 
be effectively evaluated. How can I take issue with a system 
that I, myself, have been asked to help create? I have been 
given a voice and for that I am grateful.
    I am a supporter of the Encouraging Innovation and 
Effective Teachers Act and the direction that the act is going 
because it requires districts to design teacher evaluation 
systems around broad parameters while giving the districts the 
flexibility they need to create a system that works for their 
needs and their students and staff. When districts make student 
achievement data a significant part of their teacher evaluation 
process they help teachers to better understand the power of 
and utilize the information gleaned from data.
    Our district, our administrators, and all of our teachers 
are daily collecting data because knowing what your students 
are able to do should drive effective instruction. When 
districts use multiple measures of evaluation in assessing 
teacher performance teachers are responsible for two things: 
their effectiveness in the classroom and the results their 
students produce. Multiple measures gives us as teachers more 
than one way to evaluate what our students know and are able to 
do. Shouldn't administrators evaluate their teachers in much 
the same way?
    When districts have more than two rating categories for the 
performance of teachers it gives teachers a way not only to 
increase their effectiveness but also the effectiveness of 
those around them. When working with novice teachers this year 
I looked to our performance evaluation scale as a guideline as 
to how best help them achieve success for their students and 
for themselves. If teachers believe that they can move up the 
scale through improving the quality of their classroom 
performance achievement scores will improve as well.
    When districts make personnel decisions based on 
evaluations they do so to ensure that students will receive the 
best teaching possible provided by the most effective teachers 
available. In our district, if you are a Proficient II teacher 
or above you can be asked to change schools so as to provide 
effective instruction where it is most needed.
    When districts seek input from parents, teachers, school 
leaders, and other staff in the school in the development of 
the evaluation system everyone has a stake in the outcome. Our 
district holds accountability meetings, focus group meetings, 
and shareholder meetings to provide opportunities for 
everyone's voice to be heard.
    When creating a system such as Harrison School District 2 
has it is vital to reach out and invite in those who will be 
most impacted by the system. When so much is at stake it is 
imperative that the district reach both inward and outward in 
order to ensure that everyone has a reason to buy in.
    I support and am excited about the Encouraging Innovation 
and Effective Teachers Act because responsibility for student 
achievement should belong to the districts. I know that before 
I started working for this district I believed I was a good 
teacher. I thought I had been teaching for some time and I knew 
my content area so that must make me a good teacher.
    The quality of the instruction I currently present to my 
students is so far ahead of any teaching that I have ever done. 
Understanding the difference between good teaching and great 
teaching is what inspires me to support the Encouraging 
Innovation and Effective Teachers Act.
    Like any other parent, I would want nothing less for my own 
three children than I would give to any of my students, and 
that is effective instruction provided to them by a teacher who 
has proven to get the results while at the same time creating a 
positive learning environment.
    [The statement of Ms. Kazmier follows:]

          Prepared Statement of Felicia Kazmier, Art Teacher,
             Otero Elementary School, Colorado Springs, CO

    Good morning everyone. My name is Felicia Kazmier and I am the Art 
teacher at Otero Elementary School in Harrison School District 2 in 
Colorado Springs, CO. I would sincerely like to thank Chairman Kline, 
Ranking Member Miller and other members of the Committee for allowing 
me the opportunity today to address the Committee and the bills they 
have put forward to reauthorize the Elementary and Secondary Education 
Act. It is both an honor and a privilege as an ordinary citizen to have 
the opportunity to possibly encourage innovation in the way our 
students will be educated. Let me state for the record that I love my 
job. Teaching is not for everyone and especially when you are working 
for a district like Harrison School District 2 which holds you 
accountable. Our district has implemented an evaluation system that not 
only evaluates our effectiveness as teachers, but expects us to produce 
results in regard to student learning while compensating us for our 
hard work.
    In the last five years, Harrison has stepped up to the challenge 
that now faces many Americans today in this room; should teacher 
evaluation be linked to student achievement results? Harrison School 
District 2 has established a pay for performance system that measures 
teachers on effectiveness and results (50/50). Teacher effectiveness is 
measured by formal and informal observations, written summative and 
ongoing spot observations: at least 8 for probationary teachers and 4 
for non-probationary teachers. Our administrators provide feedback, 
coaching, and professional development to improve teacher 
effectiveness. The teacher's results are divided into 8 weights-for 
example for me a District Art Project, a District CBM which is a 
curriculum based measurement, a District Art Assessment set, a Mid-
semester Performance task, my school's individual state test results 
and lastly my individual achievement goal. Another teacher, depending 
on the grade and content, will have assessments that reflect 
achievement in their content area. Within this process collaboration is 
necessary because all teachers own building scores based on our state 
assessments. I look to my colleagues to assist me in how to best teach 
writing so that my students can not only write about Art but then also 
use these writing skills to improve their state writing scores. In 
order to be Exemplary on individual goals and student achievement, I 
have to impact other students outside of my own building. This year 
while mentoring several first year teachers I focused on one teacher 
and wrote an Exemplary goal with her that would impact how effective 
she would be in her instruction. We not only met her goal but her data 
exceeded our expectations. This type of collaboration cannot be 
overlooked when it comes to impacting the quality of effective teachers 
we employ.
    The district did not have to compensate teachers, but chooses to do 
so. The more effective I am, the more students achieve and the more 
money I can potentially earn. I am currently a Proficient II teacher, 
which is one of nine effectiveness levels. If a teacher is deemed 
ineffective, then the administrator has decisions to make about 
training, remediation, or removal. I believe that what makes our 
District's system work is that all teachers have been given the 
opportunity to help in creating our evaluation system. While I am not a 
classroom teacher, as an Art teacher, I teach the entire school. So 
when it came time to have a say into what my evaluation process would 
look like, I chose the leadership role and stepped up to the challenge. 
I was asked by our Superintendent to sit down with him and other Art 
teachers to create a system by which we could be effectively evaluated. 
How can I take issue with a system that I myself have been asked to 
help create? I have been given a voice and for that I am grateful. We 
took small steps to get to where we are today. First, our district had 
to create an environment where teachers and administrators were 
prepared to recognize and then provide amazing instruction. Our 
principals started coming into our rooms and taking notes. We sat down 
together and started discussing what good instruction looks like. We 
were trained and given instructional feedback. I wanted to get better 
not just for me, but for my students. Side by side we have designed a 
system that allows my students to create amazing art to show what they 
know. Quarterly and semester testing provides me feedback on what my 
students are learning. Day to day assessment occurs and I see growth. 
How can I say that I am a good teacher without having data to justify 
that statement?
    I am a supporter of the Encouraging Innovation and Effective 
Teachers Act and the direction that the act is going because it 
requires districts to design teacher evaluation systems around broad 
parameters while giving the districts the flexibility they need to 
create a system that works for their needs and the needs of their 
students and staff. When districts make student achievement data a 
significant part of their teacher evaluation process they help teachers 
to better understand the power of and utilize the information gleaned 
from data itself. Our district, our administrators and all of our 
teachers are daily collecting data because knowing what your students 
know and are able to do should drive effective instruction. When 
districts use multiple measures of evaluation in assessing teacher 
performance, teachers are responsible for two things, their 
effectiveness in the classroom and the results their students produce. 
Multiple measures gives us as teachers more than one way to evaluate 
what our students know and are able to do, shouldn't administrators 
evaluate their teachers in much the same way? When districts have more 
than two rating categories for the performance of teachers, it gives 
the teachers a way to not only increase their effectiveness, but also 
the effectiveness of those around them. When working with novice 
teachers this year, I looked to our performance evaluation scale as a 
guideline as to how best help them achieve success for their students 
and for themselves. If teachers believe that they can move up the scale 
through improving the quality of their performance in the classroom, 
achievement scores will improve as well. When districts make personnel 
decisions based on evaluations, they are doing so to ensure that 
students receive the best teaching possible provided by the most 
effective teacher available. In our district, if you are a Proficient 
II teacher or above, you can be asked to change schools so as to 
provide effective instruction where it is most needed. When districts 
seek input from parents, teachers, school leaders, and other staff in 
the school in the development of the evaluation system, everyone has a 
stake in the outcome. Our district holds accountability meetings, FOCUS 
groups and shareholders meetings to provide opportunities for 
everyone's voice to be heard. When creating a system such as Harrison 
School District 2 has, it is vital to reach out and invite in those who 
will be most impacted by the system. When so much is at stake, it is 
imperative that a district reach both inward and outward in order to 
ensure that everyone has reason to buy in.
    I support and am excited about the Encouraging Innovation and 
Effective Teachers Act because responsibility for student achievement 
should belong to the districts. I know that before I started working 
for this district, I believed I was a good teacher. I thought that I 
had been teaching for some time and I knew my content area so that must 
make me a good teacher. The quality of the instruction I currently 
present to my students is so far ahead of any teaching I have ever 
done. Understanding the difference between good teaching and great 
teaching is what inspires me to support the Encouraging Innovation and 
Effective Teachers Act. Like any other parent, I want nothing less for 
my own three children than I would give to any of my students and that 
is effective instruction provided to them by a teacher who has been 
proven to get results while at the same time creating a positive 
learning environment.
                                 ______
                                 
    Chairman Kline. Thank you.
    Mr. Cunningham, you are recognized.

   STATEMENT OF JIMMY CUNNINGHAM, SUPERINTENDENT OF SCHOOLS, 
                    HAMPTON SCHOOL DISTRICT

    Mr. Cunningham. Chairman Kline, Ranking Member Miller, and 
members of the committee, it is my honor to testify today and I 
appreciate your invitation to hear my concerns as I report from 
a public school administrator's perspective.
    My name is Jimmy Cunningham and I serve as superintendent 
of the Hampton School District in Hampton, Arkansas. We are a 
small, rural community serving 550 students.
    Let me begin by highlighting the improvement of Arkansas' 
performance as measured in the recently released Education Week 
Quality Counts. Arkansas has improved from average in policy 
and performance to a current ranking of fifth in the nation. 
This is due to the hard work of dedicated teachers, 
administrators, and the State Department of Education that 
remains committed to improving instruction, and a governor that 
always has an open door.
    I am here to provide testimony about recently released--
introduced legislation to reauthorize ESEA, currently known as 
No Child Left Behind. The sincere, ongoing efforts of this 
committee to reauthorize ESEA and improve America's schools 
over the last 4 years are recognized across this nation. 
Reauthorization is crucial to providing the nation's schools 
with relief from current law, which is both broken and lacking 
in flexibility states and local school districts need to 
support student learning and achievement.
    The recently introduced Student Success Act and Encouraging 
Innovation and Effective Teachers Act represent a strong step 
in the right direction in large part because they re-center the 
balance of federal involvement in education, returning 
leadership to education stakeholders at the state and local 
level. The Hampton School District receives $153,922 in Title I 
funding, which represents a mere 1.7 percent of our $8.8 
million operating budget. For this reason we strongly support 
the efforts of these bills to balance the proper role of the 
federal government in education, including returning ownership 
of the accountability and assessment system to the state and 
local levels.
    Accountability measures must be transparent, fair, and use 
multiple measures of evidence of growth. We believe in the 
requirements for annual assessment, but under state direction. 
The assessment measures should measure proficiency and growth 
while also allowing the IEP team to ensure that children under 
IDEA receive alternative assessments.
    I am pleased to see Chairman Kline's proposal allows 
students with the most significant cognitive abilities to be 
assessed alternatively. The bill makes significant improvements 
in the federal role in accountability, standards, and 
assessments.
    As an example of these improvements I found the proposed 
legislation maintains student disaggregation by subgroup; 
eliminates the utopian 100 percent proficiency requirement; 
eliminates SES/Choice; returns ownership of the accountability 
system to the state and local level; maintains school 
improvement by low-performing schools under state direction; 
maintains the requirement of annual assessments under state 
direction; requires that assessments measure proficiency and 
growth; removes caps on alternative assessments by allowing the 
IEP team to ensure that children are assessed in a meaningful, 
fair, and accurate manner; maintains current law related to 
comparability calculations; maintains supplement/supplant 
language; reduces federal overreach in school improvement/
turnaround strategies; puts states and districts in charge of 
designing teacher evaluation system; includes student 
performance in teacher evaluation; provides funding flexibility 
between certain programs within Title I; eliminates the 
requirements of highly qualified teacher provisions while 
allowing the states the flexibility to maintain appropriate 
qualifications; consolidates 21st century funds and allows 
school districts to use these funds to expand learning time; 
and reauthorizes the Rural Education Achievement Program.
    Delving deeper into an issue I am personally vested, I want 
to talk about the concerns of Title I formula. A major flaw in 
the Title I formula is the current weighting system, which in 
theory is designed to drive Title I funding to districts with 
the highest concentrations of Title I-eligible students.
    I, along with AASA and NREA, am strongly committed to this 
intent. Regrettably, current law sometimes does the exact 
opposite. Current law uses two weighting systems, one based on 
percent of a district's students who are Title I-eligible, 
percentage weighting, and the other based on sheer number of 
Title I-eligible students, number weighting.
    Every LEA in the nation runs a poverty indicator through 
both the number and percentage weighting brackets and whichever 
one yields the highest per-pupil allocation is the one used in 
final allocation of funds. Unfortunately, the number weighting 
bracket is mathematically far more powerful than the percentage 
weighting bracket, meaning that money diverted away from 
smaller, poorer districts to larger, less poor districts. This 
adversely affects small districts, both rural and urban, and 
inflate benefits to low-poverty districts.
    Fortunately, there is a legislative fix introduced by 
Congressmen Glenn Thompson, House Resolution 2485, that has the 
ACE Act as a part of the Formula Fairness Campaign, both of 
which are championed by a broad range of national 
organizations, including the Rural School and Community Trust, 
American Association of School Administrators, National Rural 
Education Advocacy Coalition, American Farm Bureau, Save the 
Children, and National Alliance of Black School Educators.
    Our job is far from complete. I commend this committee's 
ongoing efforts to reauthorize ESEA and look forward to the 
continued leadership committed to the current improvement in 
and support of our nation's public schools. After all is said 
and done, it is still about our kids.
    [The statement of Mr. Cunningham follows:]

        Prepared Statement of Jimmy Cunningham, Superintendent,
                        Hampton School District

    Chairman Kline, Ranking Member Miller and members of the Committee: 
It is my honor to testify today, and I appreciate your invitation to 
hear my concerns, as I report from a public school administrator's 
perspective.
    My name is Jimmy Cunningham and I currently serve as the 
superintendent of Hampton School District in Hampton, Arkansas. We are 
a small, rural community, serving 550 students. I speak to you from my 
35 years as an educator, including 24 years as an administrator, as 
well as a member of the American Association of School Administrator's 
(AASA) Governing Board and President-Elect of the National Rural 
Education Association (NREA).
    Let me begin by highlighting the improvement of Arkansas' 
performance as measured in the recently released Education Week Quality 
Counts. Arkansas has improved from `average' in policy and performance 
to a current ranking of fifth in the nation. This is due to the hard 
work of dedicated teachers, administrators and the State Department of 
Education that remains committed to improving instruction, and a 
governor that always has an open door.
    I am here to provide testimony about recently introduced 
legislation to reauthorize the Elementary and Secondary Education Act 
(ESEA), currently known as No Child Left Behind (NCLB). The sincere, 
ongoing efforts of this committee to reauthorize ESEA and improve 
America's schools over the last four years are recognized across this 
nation. Reauthorization is crucial to providing the nation's schools 
with relief from current law, which is both broken and lacking in the 
flexibility states and local school districts need to support student 
learning and achievement.
    The recently introduced Student Success Act and Encouraging 
Innovation and Effective Teachers Act represent a strong step in the 
right direction in large part because they re-center the balance of 
federal involvement in education, returning leadership to education 
stakeholders at the state and local level. The Hampton School District 
receives $153,922 in Title I funding, which represents a mere 1.74 
percent of our $8,840,245.00 operating budget. For this reason, we 
strongly support the efforts of these bills to balance the proper role 
of the federal government in education, including returning ownership 
of the accountability and assessment systems to the state and local 
levels.
    Accountability measures must be transparent, fair and use multiple 
measures of evidence of growth. We also believe in the requirements for 
annual assessment, but under state direction. The assessment measures 
should measure proficiency and growth while also allowing the IEP team 
to ensure that children under IDEA receive alternative assessments. I 
was pleased to see Chairman Kline's proposal allows students with the 
most significant cognitive abilities to be assessed alternatively. The 
bills make significant improvements in the federal role in 
accountability, standards and assessments. As an example of the 
improvements I found in the proposed legislation, the bills:
    <bullet> Maintain student disaggregation by subgroup
    <bullet> Eliminate the utopian 100 percent proficiency requirement
    <bullet> Eliminate SES/Choice
    <bullet> Return ownership of the accountability system to the 
state/local level
    <bullet> Maintain school improvement for low performing schools, 
under state direction
    <bullet> Maintain the requirement for annual assessments under 
state direction
    <bullet> Require that assessments measure proficiency and measure 
growth
    <bullet> Remove caps on alternate assessments, allowing the IEP 
team to ensure that children are assessed in a meaningful, fair and 
accurate manner
    <bullet> Maintain current law related to comparability calculations
    <bullet> Maintain supplement/supplant language
    <bullet> Reduce federal overreach into school improvement/
turnaround strategies
    <bullet> Put states and districts in charge of designing a teacher 
evaluation system
    <bullet> Include student performance in teacher evaluation
    <bullet> Require multiple measures for teacher evaluation
    <bullet> Provide for funding flexibility between certain programs 
within Title I
    <bullet> Eliminate requirements related to Highly Qualified Teacher 
provisions while allowing states the flexibility to maintain 
appropriate qualifications
    <bullet> Consolidate 21st Century funds and allows school districts 
to use the funds for expanded learning time
    <bullet> Reauthorize the Rural Education Achievement Program
    Delving deeper into an issue I am personally vested in, I want to 
talk about concerns within the Title I formula. A major flaw with the 
current Title I formula is the current weighting system, which in 
theory is designed to drive Title I funding to districts with the 
highest concentrations of Title I-eligible students. I, along with AASA 
and NREA, am strongly committed to this intent. Regrettably, current 
law sometimes does the exact opposite. Current law uses two weighting 
systems, one based on the percentage of a district's students who are 
Title I eligible (percentage weighting) and the other based on the 
sheer number of Title I-eligible students (number weighting).
    Every LEA in the nation runs their poverty indicator through both 
the number and percentage weighting brackets, and whichever one yields 
the highest per-pupil allocation is the one used in the final 
allocation of funds. Unfortunately, the number weighting bracket is 
mathematically far more powerful than the percentage weighting bracket, 
meaning that money is diverted away from smaller, poorer districts to 
larger, less poor districts. This adversely affects small districts, 
both rural and urban, and inflates benefits to low-poverty districts.
    Fortunately, there is a legislative fix that has been introduced to 
this Committee and will hopefully be included as the bill moves through 
the rest of the reauthorization process. The All Children Are Equal 
(ACE) Act (HR 2485) was introduced by Congressman Glenn Thompson and 
garnered broad, bipartisan support from 17 House colleagues. ACE 
addresses the issue of number-vs-percentage weighting by gradually 
phasing out number weighting so that after four years, virtually all of 
the nation's schools will receive Title I allocations based on the 
percentage of students in poverty, in line with the original intent of 
Title I dollars being targeted to concentrations of poverty.
    The ACE Act is part of the Formula Fairness Campaign, both of which 
are championed by a broad range of national organizations, including 
the Rural School and Community Trust, American Association of School 
Administrators, National Rural Education Advocacy Coalition, American 
Farm Bureau Federation, Save the Children, National Alliance of Black 
School Educators and more. I, along with the above listed 
organizations, strongly urge the Committee to include the ACE Act in 
the ESEA bills as they move through the reauthorization process.
    It is imperative that federal education policy makers, while 
continuing to work to improve the currently flawed law, recognize the 
success our nation's public schools have had while placing an emphasis 
on our standards and accountability measures. Our schools continue to 
improve even with limited resources, resources that have been 
increasingly limited--at the federal, state and local level--as the 
recession wears on. We realize these are tough economic times for our 
nation and states. That said, now is the time for this Committee and 
Congress to create and support education policy that best serves our 
students. There is a direct correlation between the strength of the 
nation's education system and long-term economic prosperity.
    Our job is far from complete. I commend this Committee's ongoing 
efforts to reauthorize ESEA and look forward to continued leadership 
committed to the continued improvement in and support of our nation's 
public schools. After all is said and done, it is still all about the 
kids.
                                 ______
                                 
    Chairman Kline. Thank you very much, Mr. Cunningham.
    Thank you very much to all the witnesses. As we thought 
when I was introducing you, it is an excellent panel--great 
experience. I appreciate all of your testimony.
    Mr. Luna, let me start with you if I could. We have heard 
some criticism, including today and over the days, that the 
Student Success Act is a--roll back of accountability for 
student achievement, particularly for our most vulnerable 
student populations. Do you believe that is what this bill 
does?
    Mr. Luna. I don't believe that is accurate, Mr. Chairman, 
and I--the reason is because I think states have demonstrated 
that without being compelled by the federal government they 
have adopted higher academic standards than they have had in 
the past--standards that are equal to any other academic 
standard in the world, recognizing that our children will 
compete in a global environment. States are now working 
together to develop the next generation of assessments so that 
we can assess all students at higher levels. And also, states 
have worked together to develop the next generation of 
accountability systems.
    And as I mentioned in my comments, without any compulsion 
from the federal government there is a renaissance going on 
across the country in education reform, and without waiting for 
reauthorization states have taken the lead, and I think they 
will continue to do so. So I don't think the fact that the 
federal government doesn't specifically address the issue does 
not mean that states will not raise the standards because we 
have already demonstrated not only that we will but that we 
have.
    Chairman Kline. Thank you.
    Ms. Kazmier, in your testimony you talk about the teacher 
evaluation system that if teachers were deemed ineffective 
through this system that they could be subject to additional 
training, remediation, or removal. What does that process look 
like?
    Ms. Kazmier. Well, Chairman, having absolutely no 
experience with that personally, which is----
    Chairman Kline. Congratulations.
    Ms. Kazmier. Thank you very much--I do know that my 
district has set up a system that allows for teacher success. 
We prepare our teachers for that. This was not a system that 
was thrust upon us, as I have stated, that we all had a stake 
in it, we all had a say.
    However, when teachers are failing to provide the quality 
of instruction that our district deems necessary for our 
students what we end up doing as a team--and this happens in 
each building--we work together with the teacher. The 
administrators, of course, are in the classrooms every day. We 
are having spot observations, formal evaluations, and so what 
happens is, is when that teacher is not getting what they need 
we give them opportunity for continued professional 
development. We mentor them up.
    Currently, I work with teachers who have been teaching for 
several years who, in fact, need help on designing good 
objectives for our students, proper assessment for 
understanding what they have learned and are able to do. So it 
starts, actually, in the building level.
    Once our teachers are given what they need at the building 
level the district also provides them with opportunities to 
continue to improve and be able to give the students the 
quality of instruction that they deserve to have. So it is a 
building first and then a district-level decision that is made. 
If the teacher is ineffective then there is a process for 
reevaluation, and eventually the administrators within the 
building can decide to have the teachers replaced or moved.
    Chairman Kline. Okay. Thank you very much.
    Ms. Kazmier. Thank you.
    Chairman Kline. Mr. Schaffer, again, welcome back to these 
halls. In your testimony you discussed the value of choice in 
the education system, your words, a couple of times, and the 
importance of allowing parents to choose other educational 
providers, such as tutoring services and so forth. Can you talk 
about the importance of that and why you think that is 
important?
    Mr. Schaffer. Sure. The example in my hometown is a perfect 
one. I have seen it replicated 200 times across the state.
    Just the introduction of one charter school in my 
community--there is more than that now, but the introduction of 
one charter school in my community changed the entire 
environment. Just the fact that parents had the ability to move 
their kids from one school to another across town not only 
improved the opportunity for parents to move their kids to that 
school, but it transformed all of the other elementary schools 
because there was a waiting list right away. Every principal in 
town realized that they had a certain number of families in 
their schools that actually wanted to leave. And those 
principals immediately became more responsive to the community, 
holding town meetings, and so on, and engaging those parents in 
defining the future of not just the new charter school--the one 
choice--but improving the quality of education in all of the 
schools.
    Just giving parents the opportunity to choose empowers them 
in a way that is helpful.
    Chairman Kline. Thank you.
    I see my time is expired.
    Mr. Miller?
    Mr. Miller. Thank you very much.
    I am really impressed with all of the changes that have 
been made in states and all of the progress that has been 
allowed under this one-size-fits-all law. Seems to me you can't 
quite have it both ways. You can't have all of this change that 
has been developed in the states or all of the reluctance to 
change that has been developed in other states and say that 
this is somehow one-size-fits-all.
    What we asked was whether or not children in the fourth 
grade from all the social strata and economic strata of this 
country--were they reading at fourth grade level, and were they 
reading at eighth grade level? And the resounding answer early 
on was no--horribly so. That was the tough criteria.
    Mr. Schaffer, you would be surprised to find out that you 
are not required to have a teacher's license in Colorado under 
federal law and I have the bruises to show it, because we said 
you could certify teachers a number of different ways, at which 
time the states attacked the federal government for tampering 
with the license law. So do however you would like under the 
law.
    And it is interesting because what as Mr. Luna strikes out 
of what he thinks is necessary in terms of college and career 
ready standards, accountability systems, and school improvement 
system, and goals, and meaningful targets, and the rest of 
that, and Mr. Balfanz, what you point out, your testimonies are 
essentially the same, that we need to move in this direction, 
and we need some incentives, and we need some sideboards, if 
you will, to make sure that the states do it.
    Because, Mr. Balfanz, as you pointed out, 10 states 
increased their graduation rates and 10 states seemed to go in 
the other direction. My own state increased the standards, 
reduced the cut scores. My own state is dumping huge numbers of 
children into the alternative assessments way beyond the 
students who cannot take advantage of the regular assessment 
program, be it with disabilities or other factors, they have 
decided to avoid it to make the test scores go up. These games 
have historically been played.
    The question is now, when we see all of the reform that is 
taking place, before you didn't know where your qualified 
teachers were, you wouldn't say where the distribution was, 
your graduation rate--any improvement made you AYP. We had this 
great example of where the dropout factories were making AYP 
but they were graduating less than 40 percent of their 
students, and that is why we put in the federal regulation to 
start asking these questions.
    So schools and states have had it sort of both ways along 
the way, but we see this remarkable--and I agree with Mr. Luna. 
This is the greatest environment for school reform I have seen 
in my career in here, in 38 years on this committee, and we 
should be taking advantage of it.
    We just went through this process where now 11 states have 
been approved for the waiver program. Those states had to make 
submissions on how they would deal with the common core 
standards, with how they would deal with assessments, how they 
would deal with graduation rates. And apparently another 28 are 
waiting in the wings, or maybe 30 states are waiting in the 
wings of starting to make application again, and New Mexico, of 
course, was approved yesterday.
    Mr. Balfanz, you were on the peer review and I have looked 
at some of the comments of the various peer reviewers as a 
negotiation for going back and forth on the waiver process. 
Could you enlighten us to sort of what you saw there, in terms 
of proposals for accountability, for targets for performance 
for these systems under the waiver system?
    Mr. Balfanz. Right, sure. Yes. I think it is a good example 
of, actually, of good federal check and balance on state 
initiative. So if you read across the public peer review 
comments you can see a very common theme across all 
applications that there was concerns about insufficient 
subgroup accountability, insufficient grad rate accountability, 
and potentially not enough attention to capacity-building to 
actually turn around the lowest-performing schools. And 
essentially all the states were asked to revise and resubmit 
and they all got stronger accountability at the end of the day 
because of that--that sort of check and balance.
    And the grad rate accountability--it was often 
unintentional, and that is why we just need to have these 
checks and balance. People aren't always intending to try to 
game the system; they are complicated things.
    So many states have created performance indexes, they have 
added important college and career readiness measures which are 
really good, but then they almost inadvertently weighted 
graduation rates as only 10 percent of the index, which means 
you could actually--there is an incentive to push out kids 
because you only get a small penalty for that and a very big 
achievement gain by having fewer kids with lower abilities 
taking those tests. And as soon as that was pointed out to the 
states the states were more than willing to sort of up the 
accountability but they needed that check and balance for that 
to happen uniformly.
    Mr. Miller. Thank you.
    Time is running out here, but I just want to say, Ms. 
Kazmier, thank you for your testimony. It would be hard for me 
to believe that a bill would leave this Congress to go to the 
president's desk without an evaluation system. But as you know, 
as you describe your own evaluation system, your ability to 
participate and to have design, to have feedback is critical on 
how those evaluation systems are--are--are dealt. You know, I 
don't--I am one of those who don't believe the federal 
government should impose a single evaluation system on it but 
we ought to have a system to make sure that we are--we are 
sorting through the best talent available for the greatest 
number of students.
    Ms. Kazmier. Absolutely. I----
    Mr. Miller. Thank you.
    Ms. Kazmier [continuing]. Completely agree.
    Chairman Kline. Thank the gentleman.
    Mr. Petri, you are recognized.
    Mr. Petri. Thank you very much, Mr. Chairman.
    Thank the panel for your testimony and prepared statements, 
and particularly my former colleague, Bob Schaffer. I think 
there is an image of Congress out there that everyone comes 
here and then becomes a lobbyist in Washington, and you are 
living proof that that is not true, that an awful lot of people 
engage in public service in a variety of ways throughout their 
lives, whether it is in Congress, or you and Hank Brown have 
both been very active in education in the state of Colorado, 
and as you are here today at the national level, as well. So 
thank you for your service.
    One or two other observations: Wisconsin is number one or 
number two in manufacturing in the country in percentage of 
people working in manufacturing. The president was out there 
yesterday visiting a company.
    In my district there is a lot of unemployment and there are 
a lot of employers seeking employees. Thousands of jobs are 
going unfilled--good, high-paying, middle class jobs--because 
unfortunately there is a mismatch between the preparation that 
students are getting and the changing job market that we now 
live ourselves--live in. And we need to address that or we are 
going to be in a world of trouble down the road.
    There are alliances trying to do that in the business 
community and in the education community--21st Century Skills 
is one example in my state, along with 16 other states 
participating in such an alliance, and there are a variety of 
other efforts out there that are good, well-meaning efforts 
from the public to improve it but are also self-serving in the 
sense that these companies desperately need, in order to grow 
and compete, a skilled workforce. And my question is whether 
this legislation advances this effort that is going on at the 
states and in partnership with others in the community and the 
private sector or whether it will put up barriers to those 
collaborative efforts that are going forward to prepare young 
people for the modern world of work more effectively?
    I don't know if any of you have any comments on that but I 
would be interested if you did.
    Mr. Luna. Mr. Chairman and Congressman, I think the proper 
balance is--and what I mentioned in my comments is the proper 
role of the federal government in determining what is best for 
any state, whether it is Wisconsin, or Idaho, or California. 
And so I think it is incumbent that this law hold states to a 
certain level of accountability, but the flexibility has to be 
there because what you described in Wisconsin is similar to 
what we experience in Idaho but the solutions are not the same.
    And so I think when you look at what we have done with the 
common core, where it doesn't focus just on college ready but 
also career ready, we recognize that many of our students are 
graduating from high school not ready for college or career 
ready, and so the standards we have adopted, the curriculums--
aligned to those assessments that will measure students against 
those standards are not only college but career ready, also. I 
think we recognize that there is an inseparable link between a 
high-quality education system and a growing, robust economy. 
You cannot have one without the other.
    Mr. Petri. I have spent a lot of time visiting with 
principals and teachers in--of the superintendents and 
principals told me they used to be able to educate 20 percent 
of the kids to a fairly high level of literacy and so on, and 
if we could get the rest to show up on time, work as a group, 
and follow instructions they could all get pretty good jobs. 
Now we have got to educate 80 percent to high levels of 
cognitive and the ability to work together with people of 
different skill levels because in the modern world the old 
blue-collar, white-collar, officer, enlisted model that we have 
in the military has broken down and it is a collaborative 
effort at the--in factories all across our country and 
throughout our society. And education needs to adapt to that 
more effectively or we are going to be in a world of trouble. I 
hope this legislation furthers that effort.
    Ms. Pompa. Could I take this opportunity to agree with you 
and to point out the fact that as you--have changed 
tremendously, and what is required to be successful in many 
careers--most careers these days--is a high level of ability in 
both math and English. My concern and the concern of the civil 
rights community is when you look at NAEP scores--and I just 
pulled out from my testimony math scores at grade eight--there 
is a 20-point difference between the achievement of white 
students and Hispanic students, 30 points between white 
students and African American students, and I won't even talk 
about the other gaps.
    I believe that your--the interest that you and many others, 
including NCLR, have in making sure that we have a productive 
workforce in the coming years depends on making sure we educate 
all children. As I look around at how states have fared with 
all students I believe that there is a necessary role for 
building the capacity of states to understand the needs of all 
children, to respond to those needs with appropriate targets, 
and a bit of a push from the community and the federal 
government.
    Chairman Kline. Thank you.
    The gentleman's time is expired.
    Mr. Andrews?
    Mr. Andrews. Thank you, Mr. Chairman. I want to thank you 
for making such a good faith effort to raise an issue we really 
need to raise. I appreciate the effort you are making and I 
hope we can work together and achieve it.
    I want to talk about 9-year-olds and math tests. And, Mr. 
Luna, I want to ask you some questions about 9-year-olds and 
math tests.
    Looking at the NAEP test, the National Achievement test, in 
1973 for African American 9-year-olds scored 35 points lower in 
math than white children. In 1999 African American children 
scored 35 points lower than white children. So 26 years, no 
progress.
    In 2008 9-year-old African American children scored 25 
points lower than white children. The intervening development--
at least one of the intervening developments--was the passage 
and enactment of No Child Left Behind in 2001, implementation 
in 2002.
    Given your premise, which is that states operating without 
a federal accountability system is a preferable option to 
states operating within one, how can you explain the lack of 
progress from 1973 to 1999 and the rather considerable progress 
from 1999 on?
    Mr. Luna. Mr. Chairman, Representative, just to be clear, 
my testimony was that the federal government should have a role 
and I actually stated that No Child Left Behind, the good, the 
bad, and the ugly--the good was that it focused every state to 
be responsible and accountable for----
    Mr. Andrews. Well, let's talk about how it focused every 
state. Do you favor a federal accountability system like 
adequate yearly progress--in other words, should there be a law 
that says if a state doesn't meet certain standards that are 
established at a federal level something happens to the state? 
Do you favor that or not?
    Mr. Luna. As long as the federal government continues to 
spend tax dollars on education there has to be accountability 
for how those dollars are spent, and so I do think that there 
is a proper role.
    Mr. Andrews. Well, under the bill that is in front of us, 
if a state failed to meet whatever accountability standards it 
adopted under this new system what would happen to that state 
under the bill that is in front of us? Do you know?
    Mr. Luna. Mr. Chairman and Congressman, part of the 
testimony that you will have in the record that I didn't have 
time to get to stated that CCSSO and--and myself, we think 
there should be an expectation of focusing on a certain number 
of schools, if you will, or a gap that is not----
    Mr. Andrews. If I may, because my time is limited, when you 
focus on a limited number of schools and some number of them 
fail to meet the standard that is established what should the 
federal law say should happen to those schools?
    Mr. Luna. I think states should have the ability to 
withhold federal funds if schools are not meeting the goals and 
expectations that have been set for them.
    Mr. Andrews. Which they sort of do under No Child Left 
Behind because that would be the provision that lets the state 
school officer go in and reorganize the district, right?
    Mr. Luna. Well, that is the nuclear bomb option. Before 
that there----
    Mr. Andrews. But should that option stay in the law or not?
    Mr. Luna. Yes. I think there should be an expectation and a 
level of accountability for how those dollars are spent.
    Mr. Andrews. Well, that is the same as existing law. What 
other--it is not the same as existing law. How does it differ?
    Mr. Luna. Well, because the law that we currently have is 
putting us on track for 100 percent of our schools to be under 
federal sanctions----
    Mr. Andrews. With all due respect, that is a different 
question. That is a different question. That is what the 
standard should be.
    I understood your testimony as meaning that the 
accountability mechanisms in federal law we have now are 
somehow undesirable. You just testified that the nuclear 
accountability standard is okay with you. Is that what you 
said?
    Mr. Luna. No. Mr. Chairman, and just let me finish a 
sentence and I will give you my answer.
    Mr. Andrews. But what is your answer, because we have had a 
hard time getting it out----
    Mr. Luna. As long as the federal government spends tax 
dollars on education there must be accountability for those 
dollars. That accountability needs to focus on student 
achievement. And how states get schools and students to meet 
those academic goals should be determined at the state level, 
not the federal level.
    Mr. Andrews. How is that standard different than adequate 
yearly progress that is in the present law? How does that 
differ?
    Mr. Luna. Well, adequate yearly progress focuses on 
proficiency, and what states want to focus on is recognizing 
multiple measures of school and student success, meaning 
academic growth.
    Mr. Andrews. I don't disagree with that. I think that is 
not quite what your testimony says.
    Chairman Kline. The gentleman's time has expired.
    Mrs.Biggert, you are recognized.
    Mrs. Biggert. Thank you, Mr. Chairman. And I have several 
questions, which I hope I can get in as many as possible, but--
--
    Ms. Kazmier, one of the--you have described the need for 
student achievement to be significant, which is what this 
legislation also says, but the achievement to be a significant 
part of teacher evaluations. And my problem is I don't think--
what do you mean by significant? And it is not defined in--in 
this bill. Are you concerned that the--the student achievement 
data, such as standardized testing, could compromise a 
disproportionate share of your evaluation?
    Ms. Kazmier. No, I am not. And in actuality--and just to 
state this for the record, obviously, on our school district 
Web site the entire program is laid out. So instead of going 
into a great deal and specifics I would ask that you go to the 
Harrison School District Web site to look at more of that 
information.
    When it comes to teacher evaluations, the state scores that 
our buildings receive are only one part of eight weights for 
our evaluation process. So we all, as a building, own the 
scores that our students have achieved, and that is just one 
part of our evaluation process.
    Mrs. Biggert. Do you think that if this bill is passed then 
that that could be different, because it seems to be that is 
the lead criteria, and then the others, but significant could 
be--is that 50 percent plus one, or is it just all the same?
    Ms. Kazmier. Speaking at what I am currently looking at 
when it comes to my own evaluation, I believe it to remain the 
same. And the biggest reason is because that is just one small 
snapshot of what our students are capable of doing.
    Mrs. Biggert. Thank you.
    Then does anyone else have some concern about the 
significant definition, which is not defined?
    Okay.
    Then, Ms. Kazmier, one of the provisions of H.R. 3990 would 
make the details of individual teacher's evaluations available 
to parents. In one of my former lives, as a school board member 
and president, I can see--and now with the Internet, 
particularly, that if a parent can go in and see the 
evaluations--I have no problems with, you know, what the 
teacher's education was, what--and things like that, but to 
have them see the evaluations, and parents can go in and then 
would really get all of the teachers' evaluations in the 
school. And I think that that is--do you have any problems with 
that?
    Ms. Kazmier. No. Why would I? Thinking about how 
responsible I am for the learning of my students, I owe it to 
their parents in order to have complete transparency into the 
type of quality of teaching that I am providing for their 
students. I would want that as a parent. I would want to know 
that my children had the best possible teacher.
    Mrs. Biggert. And if they don't then they arrive at the 
school board to say that they want the best teacher.
    Ms. Kazmier. Yes. And if they don't then I think it is up 
to the district and the building itself to rectify that 
situation and to create a learning environment that is going to 
be conducive to progress for their students.
    Mrs. Biggert. How do you think giving parents access to the 
evaluations will enhance parental participation?
    Ms. Kazmier. Any time that our parents have an 
opportunity--and I hope that this is the case--our parents are 
invited to our schools. That doesn't happen in every school in 
every state, but I think if parents who are truly concerned 
about what their students are learning have the opportunity 
to--to seek that information it will probably not only increase 
the amount of time that they get into the buildings but it will 
give them a better understanding of what their students are 
learning.
    Mrs. Biggert. And what other ways would you encourage 
parental involvement?
    Ms. Kazmier. I am sorry. Could you repeat the question?
    Mrs. Biggert. What other ways would you encourage parental 
involvement and communication in your classroom and in your----
    Ms. Kazmier. Oh, for my classroom clearly that is going to 
be daily phone calls home. And within my building there are 
team letters that go home from each of the grade level teams. 
There is a newsletter that goes home within our buildings. Our 
district holds meetings as well as our building administrators.
    So there are probably countless ways that I can encourage 
it, but it has to happen on their part.
    Mrs. Biggert. Is anyone else here concerned about the lack 
of privacy?
    Mr. Luna, do you----
    Mr. Luna. Congresswoman, there--we are confident that the 
state and federal laws that protect privacy of students and 
educators are adequate and I agree with the good teacher here 
that----
    Mrs. Biggert. But this bill would say that--that you could 
go in and get those evaluations. This doesn't happen in any 
other area, for firefighters or, you know, public--police or 
anything. I just think it goes too far.
    Ms. Kazmier. Can I ask why you think it goes too far?
    Mr. Luna. Yes. I guess that would be my question, also.
    Mrs. Biggert. Because I think that it is that there won't 
be a really true evaluation if every--if the administration 
knows that it is going to be put out to the public.
    Ms. Kazmier. Okay.
    Mrs. Biggert. And I think that is going to really--and 
rather than having the--being able to make sure that the 
teachers have high quality that they won't be able to give a 
fair and really real evaluation.
    Ms. Kazmier. So would you suggest that maybe we would leave 
it to the teachers to put that information forward? Because as 
a high-achieving teacher I want my parents to know what their 
students are getting and I would be the first to step up and 
say, ``These are the scores. This is what I am providing to 
your students, and this is how well I have done.'' However, 
there are going to be teachers, as you said, who don't want 
that information out there. However, those are the teachers who 
I try to work with in order to improve their scores so that 
that type of transparency can happen for the students and the 
parents.
    Chairman Kline. The gentlelady's time has expired.
    Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman.
    Thank you to this panel. You have got a broad consensus of 
what is going on here.
    Dr. Balfanz, you stress in your testimony, and your major 
emphasis is reducing the dropout rate----
    Mr. Balfanz. Right.
    Ms. Woolsey [continuing]. Which I certainly credit you for. 
And if this country is going to have a workforce that is 
something we have to do immediately.
    And so you also underscore that without a strong federal 
commitment to the--our nation's education system there actually 
will be an achievement disparity----
    Mr. Balfanz. Right.
    Ms. Woolsey [continuing]. With--between states--those that 
have successful programs versus those without. One of the 
things that concerns me greatly about the bill that is put 
forward is that it would not include--in fact, it would 
eliminate essential wraparound services that I believe help 
disadvantaged families bridge the gap----
    Mr. Balfanz. Right.
    Ms. Woolsey [continuing]. And help the teacher who has this 
new student or a student that comes from a disadvantaged family 
that is either not prepared, not well, not nourished. Tell me 
what you think wraparound services bring to the school site.
    Mr. Balfanz. Yes. They are really essential because what 
has happened is we have concentrated our neediest students in a 
subset of schools that weren't really designed for that high 
level of need. So in many schools, just take the simple thing 
of attending school, right? You can have the best teacher in 
the world, the best curriculum; if kids don't come every day it 
is not going to work.
    Ms. Woolsey. Right.
    Mr. Balfanz. At our highest-need schools chronic 
absenteeism is 15 percent of the elementary school, 30 percent 
in the middle school, up to 50 percent in the high school, 
which means--and chronic absenteeism is kids who miss a month 
or more of school. That is a lot of school; it is not a little 
school. And it means teachers have different kids in their 
classroom every day, which slows instruction down for everyone.
    You need other adults to help get those kids to school. 
When it is identified absenteeism is a thing communities can do 
a lot about, but one thing is we don't measure it. So we have 
to start measuring it. And then secondly, we have to have the 
other adults to help make sure that kids can come to school 
ready to learn and then teachers can do their high-quality job 
will have much better results.
    And that is especially important both to have wraparound 
services and have a dedicated funding stream for it because----
    Ms. Woolsey. Well, yes. And tell us, just to amplify, what 
you mean by not ready to learn. What are some of the reasons 
that a young person would walk in the classroom not ready to 
learn?
    Mr. Balfanz. Well, I mean, the thing is that in high-
poverty environments kids face a lot of different stressors. In 
many cases they have to take on care-giving responsibilities 
themselves--get younger siblings to schools, do elder care for 
elderly relatives even when they are just young, teenage girls. 
And other times there are, you know, the neighborhood is 
unsafe, there is a lot of crime and violence, which puts kids 
under enormous stress. You know, there are problems of alcohol 
and substance abuse at home sometimes.
    And without some other adults helping to guide them, 
shepherd them, get them ready for school, it doesn't happen for 
enough kids. And we really need to have that level of supports 
to really be able to have the high levels of achievement we 
need.
    Ms. Woolsey. Thank you very much. So what do you think 
about cutting those services?
    Mr. Balfanz. I think they are essential and I think we need 
to continue to fund and have ways to make sure that we get 
enough skilled adults to help kids come to school ready to 
learn so teachers can teach.
    Ms. Woolsey. And that is quite unfair, I believe, to the 
teacher that we evaluate on that student's achievement----
    Mr. Balfanz. Yes.
    Ms. Woolsey [continuing]. When some kids are ready to learn 
and some aren't and depends on where your zip code makes a 
difference quite often. Thank you.
    Ms. Pompa?
    Ms. Pompa. Yes?
    Ms. Woolsey. In fact, Congressman Petri talked about this, 
about the future of our workforce and how important it is that 
we educate all children, and there is--it is very important 
that--I believe--that we educate all kids in the STEM fields--
science, technology, engineering, and math. The chairman's bill 
would remove the requirement included in No Child Left Behind 
that all schools adopt science standards and assessments.
    I can't imagine what that means to the--our nation, 
nationwide. I mean, I know we--some of you want each school to 
decide how they are going to do, you know, the--make the 
decision, whether they want science or whatever, but how are we 
going to compete in worldwide if our kids aren't technically 
ready--at least have the choice to go into these fields? And 
would you speak to that and include the need for young women 
and underserved students?
    Chairman Kline. The gentlelady's time has expired. If we 
could have the answer for the record, please?
    Dr. Heck, you are recognized.
    Mr. Heck. Thank you, Mr. Chairman.
    I want to thank all the members of the panel for being here 
today and for your commitment to educating our future leaders. 
As someone who spent 23 years in the classroom and as somebody 
with a degree in education who decided after doing his student 
teaching that I wasn't meant to be a teacher, I really 
appreciate all that you do for our kids.
    You know, much of the criticism we have heard on the 
Student Success Act centers around the idea that states can't 
be trusted with education of our students. Yet, the 
administration must trust the states, as evidenced by the 
waivers to ESEA to, and I quote from the Department of 
Education's Web site, ``provide educators and state and local 
leaders the flexibility regarding specific requirements of NCLB 
in exchange for rigorous and comprehensive state-developed 
plans designed to improve incomes for all students, close 
achievement gaps, increase equity, and improve the quality of 
instruction.''
    And we have seen 45 states voluntarily adopt the common 
core standards, which have specific applications for ELL and 
students with disabilities. We see many districts starting to 
adopt and move to a growth model to better measure achievement 
by proficiency.
    So, Mr. Luna and Mr. Schaffer, I would ask you, in your 
opinion, what would be an appropriate federal accountability 
standard or measurement to ensure that states can be trusted to 
move forward with that flexibility to develop their own 
accountability standards?
    Mr. Luna. Mr. Chairman and Congressman, I think requiring 
states to identify a certain number of persistently low-
performing schools, those schools that struggle to eliminate 
achievement gaps, and then requiring states to report 
information on student progress in--down to the individual 
student level as well as subgroups, I think those are minimum 
requirements that should be part of a federal law.
    Mr. Schaffer. I am sorry. Congressman, your question is 
what is an appropriate level of----
    Mr. Heck [continuing]. That we talk about, as Mr. Luna 
stated, as long as tax dollars are going to fund education 
there needs to be some accountability standard at the federal 
level. In your opinion, what would be a federal accountability 
standard or measurement standard that would be appropriate?
    Mr. Schaffer. Well, within the context of whether states 
should be trusted, yes, states ought to be trusted completely. 
That is kind of what the premise of the country is, I had 
always believed. And, I mean, these are our kids that are--we 
operate an education system in our state predicated on the 
notion that as parents, as community leaders of those, in my 
case, who was elected to serve on the state board, that we are 
held accountable to our communities and to our--the parents who 
vote for us. Those are the ones who ought to be holding states 
most accountable in my state, and I think in most states they 
do.
    And my belief is that from our perspective in Colorado--I 
can't speak for all--but that the expectation level of 
accountability and the immediacy of a response is far quicker, 
and greater, and more precise, and more meaningful when we move 
authority actually away from Washington and back to the 
neighborhood. And so in my opinion, the greatest way to achieve 
accountability is in that direction.
    The federal government certainly spends an awful lot of 
money. That is a decision you have made. And when you spend 
that kind of cash, if I were you--and I was--I want to make 
sure those dollars are spent effectively.
    But there are some practical realities. I mean, you are 
2,000 miles away from where it is being spent, in many cases. 
You are not going to get efficiency in those cases. The only 
individuals who can guarantee that these dollars are being 
spent efficiently are the ones who are closest to the children 
who are affected. The further away you get from that the more 
waste you are going to have. It is unavoidable.
    Mr. Heck. Thank you.
    Thank you, Mr. Chair. I yield back.
    Chairman Kline. Thank the gentleman.
    Mr. Grijalva?
    Mr. Grijalva. Thank you, Mr. Chairman, and I--we ought to 
trust the states, but I think our role here today and with this 
legislation is to also verify. I don't believe in blind trust. 
The children that we are talking about in this 
reauthorization--we are here for a reason, and let's not forget 
that history.
    Elementary and Secondary Education Act was built on dealing 
with inequities at the state level, dealing with discrimination 
at the state level, and dealing with the lack of access at the 
state level. So I have to say that, you know, we have this--Mr. 
Luna said, had a renaissance in the last few decades, but the 
fact remains that those children that we are talking about are 
still behind and the accountability portion of it is really 
important.
    Ms. Pompa, the different titles--you know, they get all 
collapsed into one pot and the states will decide how that pot 
gets distributed, but with regard to that I want to ask, it has 
been suggested--let's--Title III--that maybe a school district 
would be--school district would be better off instead of using 
that for acquisition of English it would be better off with 
those--but we just bought computers for the school. Your 
comment on that?
    Ms. Pompa. Certainly. As you point out, there is a history 
of a need for a federal role in education, which is why we have 
the Elementary and Secondary Education Act. English language 
learners are one of the populations that has needed the most 
protection because states and local districts have not 
responded to their needs over the years. To this day we see 
failure at the state and district level to respond to the needs 
of these kids.
    Turning the ability over to states and districts to move 
money around, and in this case move Title III funds around so 
that they can spend the money on purposes other than which were 
designated for Title III just adds to the ability of states to 
put aside the needs of these children. And I have great 
concerns--the civil rights community has great concerns about 
that.
    Mr. Grijalva. Thank you.
    Mr. Balfanz, if I may, Doctor, let me--what do you see the 
effects of removing so many reporting requirements under the 
legislation? Under this bill states will not have to report 
their standards, what their standards are tied to, what 
alternative assessments are being used or what they mean. You 
think states will do that on their own.
    For example, prior to 2008 the great state of Idaho and the 
great state of Arkansas didn't have any accountability for 
subgroups in that state. So, if you don't mind?
    Mr. Balfanz. Yes. No, I think--and again, this is--the 
point I make is that there just needs to be checks and 
balances. So there is always good intention at the state level. 
They all want to have all their kids succeed. But there is 
often limited time, and energy, and focus, and you sort of--you 
pick a way to go and you go that way and you don't always 
recognize the tradeoffs you are making.
    So, for example, a movement now is to sort of lump all low-
performing kids together and say we want to improve the bottom 
25 percent of low-performing students as a group. But the truth 
is, is that you can still have progress in that group but have 
identified subgroups making no progress or going backwards and 
being averaged in----
    Mr. Grijalva. Okay, for example, what does this legislation 
do in terms of the initiatives to deal with--the need to deal 
with dropout factories in this country, the kind of--the 
lingering in the middle school that we are not really 
addressing that?
    Mr. Balfanz. Right.
    Mr. Grijalva. What does this legislation do for that?
    Mr. Balfanz. It sort of takes the foot off the gas, 
basically. It has only been most recently, actually with the 
school improvement grants, which there is a lot of room to 
improve the how, but basically those grants are the ones that 
have set up--if you are a high school with a grad rate below 60 
percent you must reform yourself; you have no choice.
    And the truth is, is there is--in 25 percent of the dropout 
factories are in single high school towns. It is the only high 
school in that town and graduation is not the norm. And it has 
been that way for decades, and everybody knows it. It is well-
known. It is not like it is a--just showing a spotlight will 
make a difference.
    And it is only when there was ultimately federal compulsion 
saying, ``This school has got to be reformed. You can have some 
latitude in how, but we can't have another decade where half 
the kids aren't graduating when there is absolutely no work for 
them.''
    And related to that is also their feeder middle schools, 
because we know from the early warning indicators that it is 
actually in middle schools that kids start on the pathway to 
dropping out. And if we don't have focused attention to those 
schools the problem will continue.
    Mr. Grijalva. Thank you.
    Ms. Kazmier, just a question: On the 2011 Colorado Student 
Assessment Program the 398 kids at Otero School, pre-K-5, the 
mathematics and writing for students with disability, they 
didn't make AYP in that particular exam. My question is 
relative to educators. So the educator responsible for that 
subgroup of kids--or maybe it is shared educators--does their 
evaluation reflect that--the fact they didn't make AYP? And if 
so, what are the consequences there?
    Ms. Kazmier. Well, let me start by saying that I am a non-
core teacher, and as an art teacher my evaluations look 
different than that of a core teacher or a special----
    Mr. Grijalva. Okay, this teacher is responsible for 
disability students. They should--then they are not eligible 
for the merit pay and their evaluation based on the assessment 
would be lower than everybody else----
    Ms. Kazmier. They----
    Chairman Kline. I am sorry. The gentleman's time----
    Mr. Grijalva. Thank you.
    Chairman Kline [continuing]. Has expired.
    Dr. Roe?
    Mr. Roe. I thank the chairman for holding this hearing, and 
I also want to thank this committee for bringing up the--we 
have huge challenges in this country, and obviously there are a 
lot of different opinions about education, and it is tough. And 
having spent 24 years in the public education system, never in 
the private system, I am absolutely committed so that every 
young person in this country gets a quality education and can 
enjoy the fruits of their education, as I have.
    But let me just point out--and, Mr. Schaffer, you brought 
out, when I moved my young family to Johnson City, Tennessee I 
looked for a home near a good school, where my kids could go to 
school. A lot of kids in poorer areas can't do that, and they 
shouldn't be held hostage in poor-performing schools forever 
because they only have one chance to get that education. Doing 
it again when you are in your 20s and 30s is really tough.
    Let me point out a good friend of mine, Jan Lindsay, second 
grade teacher and patient for 30 years, invited me down to her 
second grade class last year, and I read to the class. And as 
she got ready to leave she pointed out one young student and 
said, ``Well, he will be with me again next year.'' And I said, 
``What is the problem, Jan? Has he been ill, or what''--you 
know, like a doctor I am thinking, has he been sick? No. His 
dad is in jail, his mother won't get him up to get him out the 
door; he has missed 60 days of school.
    So I said, ``Well, let me make sure I understand this. This 
child's mother won't get him up to get him out the front door 
to get to the school, so he doesn't make AYP, so you are a bad 
teacher and this is a failing school.'' And that is the system 
that is bad. I think we have to look at that and say to those 
teachers--and it is frustrating our teachers. If you want to 
see a--go talk to a frustrated bunch of people--and I knew this 
hearing was coming up so Monday I went to two schools, a middle 
school and an elementary school, and I can assure you, we are 
putting a burden on our teachers and a standard they cannot 
reach.
    So you are absolutely right--all of you on this panel. By 
2014 every school will be failing and every teacher will be 
failing. It is the same as me, as a physician, if I got any 
patient in any condition, that they came in with cancer, 
whatever it may be, and said, ``You have got to cure them all 
by 2014,'' I will be a failing doctor. So that is, I think, 
some of the frustration I see.
    The other frustration--and I would like to hear you talk 
about this--any of you that would like to--I hear it all the 
time, is, ``I have to teach to the test.'' And is that real, or 
is that perceived by our teachers? And any of you can jump on 
that if you would like.
    Ms. Pompa. Let me jump on it. Teaching to the test is a 
phrase that people have tossed around and--to criticize the 
implementation of high standards and good assessments. 
Teachers----
    Mr. Roe. Just to interrupt you, I have never heard any of 
my teachers that I have talked to at home complain about 
transparency, accountability. They all want to be--and I think 
you make a great point that it is--you want--people want to 
know who a good teacher is, and basically they do understand.
    I knew who the good teachers in high school were. The kids 
knew. But we didn't have an--but we put a system together that 
made them failing teachers because of something totally out of 
their control.
    I think the control needs to be back at the local level. I 
think the arrogance of Washington to be able to go down and 
tell--because I was a mayor of the city that had control of the 
school board, and I trust my school board and I trust the 
teachers in my community. And we will set the--they will reach 
those. But we are frustrating them to death--our teachers.
    Ms. Kazmier. How do we get rid of the misconception of 
teaching to the test? I think the transparency has a lot to do 
with that.
    Mr. Roe. Okay.
    Ms. Kazmier. As a teacher in the classroom every day, if I 
spent all of my energy teaching to a test my students would not 
be able to make art. They make art because they understand 
art----
    Mr. Roe. You wouldn't be any fun.
    Ms. Kazmier [continuing]. Because they have learned about 
it. Well, and it wouldn't be any fun.
    So teaching to the test in my school district is not an 
option. There are going to be tests; there are going to be 
assessments; we are held accountable. However, the transparency 
of this type of system will allow parents--I mean, education 
shouldn't be a mystery. We should know exactly what our kids 
are doing and what they are learning, and when my child comes 
home from school I should be able to have a discussion with her 
and then go to the teacher and have that same discussion.
    Mr. Roe. And the parents would love to do that.
    Before my time expires I want to go out to one local 
private-public partnership. We had a man, Scott Nicewander, who 
lives in the first congressional district of Tennessee, 
recognize that we have a lot of rural schools Mr. Cunningham 
deals with. And what he did was he set up distance learning.
    There were some small, rural schools that had 50 students, 
and they didn't have access to a calculus teacher, or an 
algebra--good algebra teacher, maybe. So he set a distance 
learning through the Internet, and the--and I have been on his 
class and been in classrooms in multiple schools at the same 
time. We have seen low-performing schools without any federal 
dollars doing this now.
    He did get a grant for his foundation to improve this and 
expand it. It has been fantastic. And it hasn't been a top-down 
approach; this was a bottom-up approach, where innovative 
people at the local level figured out how to get to these rural 
areas.
    And I know in Arkansas you are dealing with the same issues 
in rural areas. And rural and urban areas are different.
    And I realize my time is expired.
    Chairman Kline. Thank you.
    The gentleman's time has expired.
    Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman.
    And I wanted to turn for a minute to special education, 
because we haven't really focused on that too much and I know 
that there certainly have been concerns with No Child Left 
Behind in that area. But I think that one of my constituents, 
actually, who is a special education teacher, wrote and said 
that she hopes that these discussions are moving well for 
special ed kids because she feels we have to look 30 or 50 
years, really, ahead, and build for the future where young 
people, of course, can joyfully learn and grow.
    And there are concerns that the Republican bill that is 
before us would allow any number of students with disabilities 
to be tested using alternate achievement standards and that 
perhaps parents wouldn't understand the full consequences of 
these assessments, including a decision that might be made in 
third grade, for example, that would prevent their child from 
achieving a regular diploma as they move down their educational 
path.
    The other concern is that it doesn't require separate 
reporting on alternate assessments, and it would mean that 
schools could report 100 percent of students are proficient but 
without any indication of whether those students were held to 
lower standards and tested using alternative tests. So I wonder 
if you could respond, you know, to at least the information 
that we have about these provisions, whether you think these 
are acceptable or not.
    Ms. Pompa, do you want to respond, or others? What do you 
think we are going to see in 30 or 50 years if these provisions 
were passed into law?
    Ms. Pompa. We are going to see great backsliding on all the 
progress we have made on behalf of students with disabilities. 
Over the last several years the disability community has worked 
very hard to ensure that these children have a free and 
appropriate education and the least restrictive environment, 
and through many reauthorizations of IDEA we have made great 
progress, and now we are able to connect the progress there to 
the progress that was--the targets that were laid out in the No 
Child Left Behind Act.
    I don't see how raising the cap on alternate assessments is 
going to allow us to continue to make that sort of progress. 
Most students in special education do not have cognitive 
disabilities. Most students in special education are able to be 
taught and are able to meet the same standards as all students, 
and taking--and following through on this proposal would set us 
back several years.
    Mrs. Davis. Thank you.
    Because I want to try and use my time well, I have been 
very interested--and I am going to move to evaluations for a 
second--in teacher evaluations and, along with my colleague, 
have put forth a piece of legislation in that regard. And some 
of the issues that you are talking about resonate and certainly 
are incorporated into that.
    But I also was concerned, and particularly with Colorado--
it is my understanding--and certainly correct me if I am 
wrong--that Colorado doesn't report federally required data on 
the distribution of inexperienced, unqualified, or out-of-field 
teachers in high-and low-minority schools in its equity plans 
so that, in fact, you really--the public certainly doesn't have 
an opportunity to look at those issues.
    And so I am wondering--I mean, Ms. Kazmier, does your 
school report that?
    Ms. Kazmier. Does my--repeat the question--my school 
report----
    Mrs. Davis. The number of teachers who are either 
inexperienced, unqualified, or working out of their field.
    Ms. Kazmier. It is my understanding that currently we don't 
report that. I know that the qualifications that get you to, in 
my case, Proficient II or above are, yes, published. Whether 
that is going to change or not, I couldn't speak to that.
    Mrs. Davis. Because I am wondering how, then--I mean, I 
think, actually, there is a level of transparency that is 
important, and I think trying to figure out where exactly that 
is in terms of full disclosure, you know, may be something that 
we need to talk about, but----
    Ms. Kazmier. I agree.
    Mrs. Davis [continuing]. But I am interested in knowing 
that how--it sounded as if the--how teachers fare on 
evaluations has some role to play in whether or not they are 
encouraged to move to a school in which perhaps their talents 
can be better used.
    Ms. Kazmier. Yes.
    Mrs. Davis. And so----
    Ms. Kazmier. If you are a Proficient II teacher or above 
and there is a need at another school for the quality of 
teaching that you can provide the district will place you in a 
position where you can do the most good for the students. That 
is correct.
    Mrs. Davis. Do you think that it should be very, very clear 
on any bill that goes forward that professional development and 
how it is used is going to be part of any evaluation process?
    Ms. Kazmier. I think in the case of a teacher who is in 
need of professional development--and I hope I am explaining 
this well--if a teacher does, in fact, need professional 
development in order to become a better teacher it should be 
very clear, and that is what our system has set up. We weren't 
just thrown into this system. This was 5 years in the making.
    And what our administrators did is explain to us, teach us, 
and show us, and provide feedback how to become the best 
possible teacher you can become. So it is available to those 
teachers who are not performing to get the help through the 
district and through their own buildings to become that 
proficient teacher.
    Chairman Kline. The gentlelady's time has expired.
    Dr. Bucshon?
    Mr. Bucshon. Thank you, Mr. Chairman. I am just going to 
make a few comments. I don't really have any specific 
questions.
    Excellent panel, and thanks for your input.
    For 40 or 50 years we have been doing things in a very 
similar way. We have made some progress. But any time, I think, 
that you see change being made like is being made in the state 
of Indiana, where I am from, with Governor Daniels and Tony 
Bennett, that there is going to be a lot of discussion and a 
lot of disagreement, and ultimately, I think as long as we keep 
the focus on the end product, which is the success of our 
students, we are going to come out in the end and be more 
competitive globally.
    So I thank the chairman for this hearing and I think the 
committee on both sides of the aisle wants to work together to 
improve the product, which is our students. And I have four 
children; that is what I want and I think that is what we all 
want.
    But this type of discussion is very healthy and we know we 
cannot continue to do the same things we have been doing 
literally for decades without definitive success, and in 
addition to that, let the--let the rest of the world continue 
to outpace us, especially in science and engineering and other 
areas, we have to grab the bull by the horns and make some 
changes, and that is what we are trying to do.
    So thank you, Mr. Chairman. I yield back.
    Chairman Kline. Thank the gentleman.
    Mrs. McCarthy?
    Mrs. McCarthy. Thank you, Mr. Chairman. I appreciate--and I 
appreciate all the testimony that we have heard today.
    Two of the areas that I have special interest in: children 
with disabilities--learning disabilities--because my son grew 
up with them, I grew up with them; the second part is the high 
dropout rate. And going through the legislation, you know, and 
there are many things in this particular bill that I, you know, 
I agree with. But I still see a shortchange on dealing with the 
issue of dropouts, which makes me a little upset, and certainly 
with children with disabilities.
    We have fought for a long, long time. I go back to the 
years when a child with--was born with Down syndrome, they 
basically were put into an institution. Today we see them in 
our society working out in the stores being part of society.
    And I think that we have come such a long way, and as you 
had said, Ms. Pompa, that these young people can learn, and 
they can learn, but they do take extra resources, they do take 
extra time, and to be very honest with you, take special 
teachers to have the patience with it.
    What I would like to see is both of you, Ms. Pompa and Dr. 
Balfanz, explain what is in this legislation that is going to 
make lives for those children that are going to drop out--how 
do we reach them? How do we keep them in school?
    And also, I know that you talked about it a little bit, but 
children with special needs that are in our community--many of 
us feel enough is still not being done for them to get them 
into society. And if you could address those issues, both of 
you.
    Ms. Pompa. Thank you. I will begin.
    I think the notion of high expectations is missing from 
this piece of legislation. And when I say that I mean that we 
have not set targets in this legislation that would say, ``All 
kids can reach this standard, and states, we expect you to get 
there.'' And if we do not set these expectations I think we 
have seen a lot of evidence that all children don't get the 
same treatment and aren't held to the same standard. So that is 
one thing that is missing from this for both children with 
disabilities and children who, unfortunately, too often become 
dropouts.
    Setting the targets for these children is something that 
has become very important. We have seen too many years where 
the performance for these groups of children was shoved under 
the rug, and we have got to change that.
    In addition to the high expectations you mentioned that it 
takes a special teacher. It is going to take teachers who have 
the capacity to work not only with children with disabilities 
but with children who have many of the challenges they bring to 
school and then become dropouts.
    Moving the funding around, doing away with some of the 
expectations of what teachers--how teachers--how states would 
hold teachers accountable I believe undermines the capacity we 
would have to serve these children well.
    Mr. Balfanz. And all I would quickly add is that we really 
have to have graduation rate goals, and all children have got 
to be expected to graduate regardless of how they walked into 
the school because there is no work if they don't graduate, and 
we have to say that is an expectation, not something nice that 
happens.
    Chairman Kline. The gentlelady's time has expired.
    Mr. Thompson?
    Mr. Thompson. Thank you, Chairman.
    Thanks to all the panelists for bringing your passion and 
your expertise. Very important topic.
    Mr. Cunningham, I want to greatly appreciate your prepared 
remarks and include the mention of the current inequity in the 
Title I formulas. At the core of this issue is a misallocation 
of funds because of two separate weighting systems, one that 
focuses on percentages or concentrations of poverty, and the 
second which incorporates sheer number of students. You 
referred to that in your testimony.
    While well-intended, number weighting has the perverse 
effect of diverting funding from higher-poverty school 
districts to lower-poverty school districts. As you know, these 
formulas are complicated, yet I believe H.R. 2485, the ACE Act 
and the language of that will be an eloquent correction to 
eliminate the effect that numbering weighting has upon formula 
without sending any one school district off a cliff or costing 
additional funds.
    Now, the bill has received bipartisan support from many of 
the committee's members and we look forward to continuing the 
debate on how best to address this current injustice and move 
forward so that there is fairness in Title I formulas.
    Mr. Cunningham, my question is, could you briefly describe 
how number weighting affects schools in Arkansas? This is a 
somewhat nuisance issue and I believe that members of the 
committee are certainly going to benefit from your state----
    Mr. Cunningham. Yes. Thank you for that question.
    I believe, Congressman Thompson's House Resolution 2485 
corrects that problem because we have a system that benefits 
large numbers of poverty. We don't recognize--I think the 
general intent is to recognize percent of kids in poverty and 
that--I think that bill corrects that situation over a 4-year 
period by reallocating those funds on a consistent basis, which 
was in the intent of the law.
    Mr. Thompson. Thank you.
    Mr. Chairman, I ask unanimous consent--I have a letter from 
the American Farm Bureau Federation on this issue I would like 
to submit for the record.
    [The information follows:]

       Prepared Statement of the American Farm Bureau Federation

    The American Farm Bureau Federation believes strong rural schools 
are vital to enhancing the lives of rural Americans and will lead to 
building strong and prosperous rural communities.
    Farm Bureau represents more than 6 million families who rely on a 
strong school system to provide their children with a world-class 
education. As hearings begin on H.R. 3989, the Student Success Act, 
Farm Bureau asks the committee to change the current Title I funding 
formula used by the federal government to determine the amount of money 
state and local school districts receive, as it puts rural and small 
town school districts at a disadvantage.
    Title I of the Elementary and Secondary Education Act provides 
$14.5 billion in federal funding to school districts to help them meet 
the educational needs of financially disadvantaged students. Title I 
funding was intended to send funds to school districts with high 
concentrations of poverty. Instead, the current formula systematically 
discriminates against the school districts it was intended to benefit: 
rural, small town and moderate-sized urban school districts with a high 
concentration of poverty.
    Farm Bureau supports H.R. 2485, the All Children are Equal (ACE) 
Act. The ACE Act corrects a major flaw related to number weighting in 
the current formula used to allocate Title I funds for the education of 
disadvantaged students under the Elementary and Secondary Education 
Act.
    Number weighting redirects funds from smaller districts, both rural 
and urban, no matter how high the poverty rate, to a handful of the 
largest districts, regardless of poverty rate. The ACE Act corrects the 
Title I formula and secures funding for school districts with the 
highest concentrations of poverty.
    The ACE Act corrects the number weighting problem by gradually 
reducing the weighting factors used in the number weighting system. The 
weighting factors would be reduced by 10 percent each year for four 
years, gradually reducing the influence of number weighting on the 
distribution of funds.
    Title I should function as Congress intended, which the current 
formula fails to accomplish. Including the ACE Act makes the Title I 
formula more effective and the distribution of Title I funding more 
fair by treating all children equally.
    Farm Bureau supports the inclusion of the ACE Act in H.R. 3989, the 
Student Success Act.
                                 ______
                                 
    Chairman Kline. Without objection.
    Mr. Thompson. Thank you.
    Ms. Kazmier, you know, we have had a lot of discussion 
about student-teacher evaluation, different questions going 
back and forth. Now, the Encouraging Innovation and Effective 
Teacher Act requires that evaluation systems be developed in 
consultation with teachers and other stakeholders in the 
process.
    In your testimony you discuss how that happened in your 
district. Could you talk more about the importance of that 
consultation in creating trust among teachers in the new 
evaluation?
    Ms. Kazmier. Absolutely. Let's go back to the idea that 
education shouldn't be a mystery, and to have open discussion 
with everyone who is involved is the only way to open up the 
mystery that we have all been, I guess, hiding behind as 
educators.
    In order to have a full understanding and a full buy-in at 
the district level, at the community level, and at the building 
level it is important, as our district did, to invite all 
stakeholders, all shareholders. Anyone who could be possibly 
involved in the way that the children are going to be educated 
should be there.
    Our conversations started, as I said a few minutes ago, 5 
years ago. What does our district need? In the state of 
Colorado our district, in particular, was on watch, and on 
watch essentially means you are not getting the job done. Our 
district is no longer on watch.
    We have had an administration that has come in and our 
superintendent has stepped up to the challenge. Opening up 
these conversations means that we all understand what we are 
trying to achieve. We have to work for the common goal.
    Clearly, the bottom line is it is about the students. So if 
parents understand what direction we are trying to take their 
students, if teachers understand what their role is in getting 
the students to that goal, if the administrators help us as 
teachers to give those students what they need to get to that 
goal then we have all bought in, and if we all buy in then 
there is no smoke and mirrors, there is no mystery.
    That is why I think the transparency should be there, 
because teachers not only should be accountable, but as a good 
teacher, what have you got to fear? If you are doing your job, 
and you are getting it done, and your students are achieving, 
why wouldn't you be proud of that? Why wouldn't you want that 
for your students?
    So that transparency will be there if everyone who is 
involved has a buy-in and an understanding of what the 
decisions are going to be when they get made.
    Mr. Thompson. Thank you.
    Chairman, I see my time is about to expire so I will yield 
back.
    Chairman Kline. I thank the gentleman.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    Ms. Pompa, let me start with you if I can. You seem to have 
a historical perspective in your written remarks and I want to 
follow up on that.
    Mr. Schaffer, in his remarks, indicated that some--and I am 
assume he is talking about Colorado in that--``strongly object 
to and resent federal efforts to use federal funds or cash 
awards to push any state in a direction it might not be 
inclined to go on its own volition.'' So I want to talk a 
little bit about own volition of states on this. And stop me if 
I am wrong in the--I think it is useful to go back in the 
historical perspective.
    At the outset there was no federal money and no federal law 
regarding elementary and secondary education. Am I right?
    Ms. Pompa. That is right.
    Mr. Tierney. And then all of a sudden the courts had some 
hearings and determined that states were not meeting their 
obligations. In your words, I think you said they were either 
not inclined or not able to provide enough resources to educate 
low-income students. And I think it is clear that it was the 
states that had the obligation and it was a constitutional--a 
judicial mandate that they do so.
    The law still doesn't require states to participate in any 
federal legislation. I think you will agree with me that it 
starts off for any state desiring to receive a grant under this 
part--so states have to affirmatively opt in on this situation.
    So we have gotten to a point where the states, obviously 
left to their own devices and their own volition, were not even 
meeting the basic standards of educating children that were 
low-income, and then, subsequently, children with disabilities. 
So the federal law made an offer to them: Here is the 
Elementary and Secondary Education Act; here is the money. But 
as Mr. Schaffer said, if you were us you would make sure there 
is some accountability attached to it, and that is really, I 
guess, what this long trail of laws over the years has been 
trying to do--find the right balance between accountability and 
flexibility. Is that a fair statement?
    Ms. Pompa. That is fair.
    Mr. Tierney. So first we had the original law, and that 
seemed to sort of give resources to schools for poor students 
and just hoping things got better. And I think you indicated 
you don't think the performance got better; you thought there 
were low expectations and poor results.
    So then we went to the Improving America's Schools Act in 
1994 where we encouraged states to set higher academic 
standards, rather--and they failed to close the achievement gap 
between those poor students and their better-off peers at that 
point, you think because using the term ``substantial 
improvement'' or ``continuing substantial improvement'' wasn't 
definitive enough, was too vague.
    So now we have gone to the next iteration, which is so-
called No Child Left Behind, where there are loopholes on that. 
But this is the struggle we keep going back and forth.
    So with respect to the legislation in front of us today, 
let me ask you, it doesn't set any goals--overall goals for 
achievement. Do you think that is a good idea?
    Ms. Pompa. No, I don't think that is a good idea. And 
before I go on, I want to acknowledge the efforts of Colorado 
and many other states who have made tremendous progress. 
Adoption of high standards, working on new assessments is very, 
very important and it is a step that continues the work that we 
have been doing. However----
    Mr. Tierney [continuing]. Right to do that. I just take 
issue with Mr. Schaffer's indication that they might have done 
it all on their own. I mean, before No Child Left Behind 
Colorado didn't even have goals for subgroups. And after No 
Child Left Behind, of course, they did not even federally 
report the required data for distribution of inexperienced or 
unqualified or out-of-field teachers.
    And I agree with Ms. Kazmier, parents have a right to know, 
you know, who is teaching in their classroom, but Colorado 
didn't do that without having some prompting. They didn't 
initially even set a graduation rate that was 80 percent; they 
had it below 60 percent, and all you had to do to show progress 
was go from 50 percent to 50.1 percent. So they didn't do it on 
their own; they were prompted with some of the accountability 
standards on that. So I am sorry to interrupt.
    Ms. Pompa. No, yes, absolutely. The great standards, the 
great assessments do not work if you don't set goals for 
children and if you don't set goals and targets for all 
subgroups and a timeframe in which this is going to happen. We 
have seen states set goals that show extremely slow growth 
expected, and in that case some children would be in school 12 
years and never reach the high standards, so that is a great 
concern.
    Mr. Tierney. So you would agree that a law that doesn't 
have any overall goal for achievement, that doesn't set 
performance targets, that doesn't set--use graduation rates 
included in those, and doesn't set parameters for students 
achievement really isn't going to be a law that is going to 
move us in the right direction?
    Ms. Pompa. I do agree.
    Mr. Tierney. Thank you.
    I yield back, Mr. Chairman.
    Chairman Kline. I thank the gentleman.
    Mr. Platts?
    Mr. Platts. Thank you, Mr. Chairman. I certainly appreciate 
you and the ranking member and staff on both sides and great 
work getting to this day and this hearing, and as we move 
forward with this legislation.
    I want to thank all of our witnesses.
    Bob, great to see you again. Glad to welcome you back to 
the House.
    And to you and to all the witnesses, we certainly 
appreciate your expertise.
    Ms. Kazmier, as a co-chair of the Republican--co-chair of 
the Congressional Arts Caucus I appreciate your work in the 
classroom, and as a parent of a 15-year-old and 12-year-old 
boys I see the great impact that arts has on them across the 
spectrum of their learning, not just in art class. And their 
art talent they got from their mom because unfortunately I 
don't have any, so----
    Ms. Kazmier. Thank you very much.
    Mr. Platts [continuing]. My office upstairs is a collection 
of their artwork, so----
    Ms. Kazmier. As is my classroom.
    Mr. Platts. I want to try to focus on a couple issues here.
    Mr. Cunningham, certainly your testimony--and I apologize 
coming from another hearing and being late, but in your written 
testimony you talk about Title I, and Mr. Thompson is leading 
the charge on that and I appreciate your insights. But I want 
to address a different issue.
    I am very concerned about--while there are a lot of great 
things in this legislation, I think, in trying to reform No 
Child Left Behind, one of my concerns is flexibility--not that 
we don't want to give more flexibility to state and local, but 
specifically in the bill that flexibility that would allow 
public funds to be used to fund private school vouchers.
    As a product of public education and a parent of public 
school students I think our commitment needs to be to public 
education. I believe in choice within the public school system, 
but we are the land of opportunity because of access to a 
quality education for every child, and while I have got great 
private schools in my district, you know, they are private 
schools and the public dollars should be used for the public 
school system.
    If the bill is adopted as currently written and your state 
would then adopt, in Arkansas, a voucher plan so that federal 
dollars could be used for private school vouchers, what impact 
do you think that would have on schools in your state, and 
especially rural schools such as your--excuse me--such as your 
own?
    Mr. Cunningham. Well, I truly believe the limited funding 
that we have available should be focused on public school 
districts and--and districts that face public accountability.
    Mr. Platts. It is fair to say, I imagine, in Arkansas, 
similar to Pennsylvania, that the private schools in your state 
are free from the mandates and the requirements that you have 
to comply with to----
    Mr. Cunningham. Yes, sir.
    Mr. Platts [continuing]. Receive state or federal funding--
--
    Mr. Cunningham. Absolutely.
    Mr. Platts. And if they are going to accept those public 
dollars they should accept the same requirements that you have 
to accept to receive them.
    Mr. Cunningham. Yes, sir.
    Mr. Platts. Is that a fair statement?
    And I would agree, you know, when we are not used as a 
special ed IDEA funding, you know, we promised 40 percent; we 
are at about 18 percent or so. If we have got additional 
dollars we should keep our commitments that already exist to 
our public schools before we start funding private----
    Mr. Cunningham. Well, federal dollars should not be funded 
for private schools. That is my position and our state's 
position, the National Rural Education----
    Mr. Platts. Yes.
    And I am going to try to run through here quick.
    Dr. Luna, I also am very engaged with parents' involvement 
and the importance of parents to that success of any school is 
having engaged parents. And the Chairman, in the legislation 
put forth, has tried to raise a focus on parent engagement. Can 
you talk about, in your state, what initiatives--or how you are 
approaching ideas to strengthen parental engagement, 
especially, maybe, in low-performing schools where I see is one 
of the challenges is one of the challenges for low-performing 
schools is the socioeconomics of the community maybe drive less 
parental engagement, which then makes it harder to have that 
partnership between everybody to be successful.
    Mr. Luna. I think, Mr. Chairman and Congressman, we 
recognize how critical it is to--for parental involvement in 
education, and I think the things that you will see that we do 
in Idaho to engage more and more parents number one is to offer 
them more choice in public education. By giving parents more 
choice it definitely raises their engagement in their child's 
education.
    One of the laws that we passed last year now requires 
school districts to collect parental input, and that is part of 
a teacher's performance evaluation. The district decides how 
much weight to give it and how to collect it, but allowing 
parents to have some say in teacher performance evaluation, 
again, helps engage parents.
    Through our pay-for-performance plan local districts can 
choose a number of different measures to--that have an impact 
on student achievement. We recognize that parental involvement 
is one of those and so there is actually some local school 
districts that a small portion of the pay-for-performance for 
teachers is based on parental involvement. And so those--you 
asked about things we are doing at the state level?
    Mr. Platts. Yes. And that is not mandated; that is a local 
decision?
    Mr. Luna. It is not mandated, and so back to your earlier 
comment about the flexibility of federal dollars, whether they 
could be used for private schools or what have you, I think 
allowing those decisions to be made at the state level, again, 
would give us the flexibility to tailor all resources, whether 
they are federal, state, or local, to meet the best needs of 
our state, which may be different from your state, or Colorado. 
But the flexibility is necessary if we are going to get maximum 
from those dollars.
    Mr. Platts. If I----
    Chairman Kline. Gentleman's time has----
    Mr. Platts. Okay.
    Chairman Kline [continuing]. Expired.
    Mr. Platts. Thank you.
    Chairman Kline. Mr. Holt?
    Mr. Holt. Thank you.
    I thank the witnesses for good testimony. But it really 
highlights what we are facing here with the legislation in 
front of us and this whole debate this year and last.
    I look to make decisions on the basis of evidence rather 
than ideology. I realize that in education the evidence is 
noisy, but it doesn't mean we should ignore it. And as Mr. 
Miller said, you can't have it both ways and say that the 
successes are the result of the states using their flexibility 
independent of federal standards and federal compulsion but the 
failures are a direct result of federal compulsion, and 
standards, and accountability. You can't have it both ways.
    We should actually look at the evidence. And there has, 
since 1965, as Mr. Tierney points out--there have been 
improvements. Mr. Andrews talked about the NAEP math tests 
that, you know, for--it was static in the educational gap 
between African American 9-year-olds and others for 3 decades, 
until the last decade. So there are data that we should be 
going on and not just falling back on our ideology and saying 
let's not--you know, let's do away with standards and 
accountability.
    Because I like evidence so much I wish that everyone in 
this room had had a better education in science to be able to 
recognize and interpret evidence.
    Now, Mr. Balfanz, you talk about needing a spotlight, 
guardrails, and catalysts. I have looked through the 
legislation in front of us here and in this important subject 
area of science I find no spotlight, I find no guardrails, I 
find no catalysts. There is no agricultural extension service 
that is bringing best practices to light. There is hardly even 
the word ``science.''
    Mr. Balfanz. Right.
    Mr. Holt. Let me ask, first starting with Dr. Balfanz, 
since you used that, and then I will turn to the other 
witnesses, can you tell me what is in this legislation that 
would actually lead, based on our evaluation of past evidence--
that would lead to students' growth and understanding in 
science?
    Mr. Balfanz. I don't see it. I mean, and if we think about 
it right the--what we have come to realize in these most recent 
economic times is that the future of the nation depends on our 
human capital, and the future of our nation depends on 
innovation and knowledge. And that is what science is. It is 
bedrock of innovation and knowledge. We are not going to 
innovate off of, you know, something that is not science, 
right?
    And science is also----
    Mr. Holt. So do you find science standards in here?
    Mr. Balfanz. I do not.
    Mr. Holt. Do you find accountability holding schools, 
teachers, school systems accountable----
    Mr. Balfanz. It is given as an option but not a 
requirement.
    Mr. Holt. And, you know, I am a little concerned that in 
some of these areas where you have--in Title II, the--you know, 
the--I am afraid that although it is an option the money will 
go into certification reform, performance pay, differential and 
bonus pay long before it ever gets to evidence-based, 
effective, research-based teaching.
    Mr. Balfanz. Right.
    Mr. Holt. Ms. Pompa? And then let me turn to Mr. Luna as 
time allows.
    Ms. Pompa. There are no requirements. And unfortunately, we 
have a lot of evidence that states find other ways to spend 
their money.
    There are efforts by the scientific foundation to work with 
schools and we have a lot of excellent programs but they are 
islands of excellence. We do not have a systematic approach to 
teaching science or a systematic expectation that all students 
will reach high levels of achievement in science.
    Mr. Holt. Mr. Luna?
    Mr. Luna. Congressman, I am seeing 30 seconds here. I don't 
think we will be able to give the reason that science is more 
difficult to measure than math or reading because it is not 
sequential like math and reading is. And giving a science test 
at the end of the high school career like we do in math and 
science does not work when you want--if you want that to be a 
test that includes physical science, chemistry, and biology 
because those are taught in--they are not sequential. So it is 
very, very difficult to measure.
    Mr. Holt [continuing]. This bill anything that addresses 
those points that we were----
    Mr. Luna. No. What I think this bill recognizes is that the 
federal government does not have to compel the states to do 
everything. If it is not found in this bill the assumption 
shouldn't be it is not going to happen.
    Mr. Holt. So for all those decades before we were--all 
these states were just doing wonderful things in science----
    Chairman Kline. The gentleman's time has expired.
    Mr. Luna. I never said that, but----
    Mr. Holt. Okay. All right.
    Mr. Luna [continuing]. It is hard----
    Chairman Kline. Mr. Kildee?
    Mr. Kildee. Pardon me, Mr. Chairman.
    While there are many problems with No Child Left Behind, 
and George and I and--worked hard on this many years ago--we 
never have written a perfect bill here on Capitol Hill. This is 
not Mt. Sinai, but we should always--each reauthorization makes 
it better.
    And it did bring attention to the needs of students with 
disabilities who were largely neglected prior to the passage of 
this legislation. Prior to that they were more than neglected; 
they were very often closeted. It was terrible.
    We still, I don't believe, have really reached out to take 
care of the needs of those who are special ed students.
    Dr. Balfanz, do you think that this Student Success Act 
would help, hurt, or do a little more relative to those 
students who we have always had to recognize have special 
needs, and there are, of course, some special ways to reach 
them so they can progress?
    Mr. Balfanz. Right. Yes. I mean, this work is hard, right? 
It is really hard to educate all students to the standards they 
need to achieve, and we are all human, and if we are told that, 
``Yes, you can if you want but you don't really have to,'' in 
our busy lives some kids are going to get left behind. And that 
is why it is really important to say all kids have to succeed 
at high levels and we have to find a way for all kids to 
succeed.
    And there actually is the evidence base growing we can do 
that. That is the hard work we have to do is keep building that 
evidence base and then finding ways to spread it. Because there 
is a lot of good stuff going on at the local level and there is 
no way to spread it.
    And that is an important federal role, too, is to take a 
topic like special education, take all that great local 
innovation and find a means to spread it, but then have some 
accountability to use it.
    Mr. Kildee. Do you think the changes in the way we test 
those students in this new bill--what effect would that have?
    Mr. Balfanz. Yes. Because again, it does give an easier 
out, saying these kids need a special accommodation, a special 
test, a test that is not quite as hard, and therefore we don't 
have to quite do the same work to lift them up to the level 
they need to be.
    Mr. Kildee. And my problem is, is that through the years--I 
mean, I have been in--I started teaching over 50 years, and 
very often we look for an easier out----
    Mr. Balfanz. Right.
    Mr. Kildee [continuing]. For the special ed student.
    Mr. Balfanz. Right.
    Mr. Kildee. And I think it is not--you know, it costs some 
dollars, it takes some special training, very often, of the 
teachers--most often. But to look for another special out, 
which I think you find in this bill, another special out is a 
step backwards in trying to make progress for those students 
who really need some special attentions in order to progress. 
And it can be done. I mean, it is--you know, it is more 
difficult, but we do many difficult things around here and some 
jobs around here are easier than others. Some committees are 
easier to serve on than others.
    But we have to address the needs of those students. We 
have, I think, a legal obligation--the courts have ruled we 
have a legal obligation but I think we also have a moral 
obligation to address properly the needs of special ed 
students. And I would like to see progress there rather than 
regression as we approach this. And you would think that the 
changing number of those who get special measurement would be 
regression.
    Mr. Balfanz. Yes.
    Mr. Kildee. Well, I certainly find that one of the reasons 
that I myself would want it, as this bill is going to move, 
amended in this area, to take care of those needs of the 
special ed----
    And I thank you.
    Chairman Kline. The gentleman yields back.
    Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Balfanz, let me just--let me follow through on that. 
One of the challenges that we have in special ed is to make 
sure that for those that need the flexibility they get it but 
we don't give people an incentive to over-identify----
    Mr. Balfanz. Right.
    Mr. Scott [continuing]. Because you find all your poorly 
performing students you just label them special ed and they 
don't have to produce.
    Mr. Balfanz. Right.
    Mr. Scott. How do you balance the two?
    Mr. Balfanz. Sorry?
    Mr. Scott. How do you balance the two? How do you eliminate 
the incentive to over-identify if you allow too much 
flexibility?
    Mr. Balfanz. Absolutely. And there have actually been a lot 
of advances in things like response intervention, early warning 
systems, that say we can identify kids struggling early, give 
them the help they need rapidly, and therefore, there is no 
need for them to be identified as special ed students. So one 
thing is we have to put more into sort of early intervention to 
keep kids on track so there is no need for the special 
education services.
    And also, oftentimes over-identification for special 
education is done for behavioral issues, not cognitive issues. 
And so I think we have to be very careful to separate kids that 
truly need additional cognitive supports and special assistance 
from kids that we just haven't found a way to help them sort of 
succeed in school and we are trying to actually move them out 
of the classroom because we find them hard to teach.
    So balancing how we identify kids on more of the cognitive, 
not the behavioral----
    Mr. Scott. Now, one way to do this is to put a limited 1 
percent--you can't----
    Mr. Balfanz. Absolutely.
    Mr. Scott. Is that one way to----
    Mr. Balfanz. Yes.
    Mr. Scott [continuing]. Eliminate the incentive to over-
identify?
    Mr. Balfanz. Yes.
    Mr. Scott. You talked about dropouts and the importance of 
dealing with dropouts. One of the problems we tried to deal 
with when this thing started was the incentive--the perverse 
incentive to push kids out because as a dropout they are 
dropping out from the bottom. The more people drop out the 
higher your average goes.
    Mr. Balfanz. Yes.
    Mr. Scott. If the graduation rate is not part of AYP how 
else can we get it?
    Mr. Balfanz. Absolutely. I mean, if we do not--I mean, 
basically, schools, especially high schools, have got to do two 
things: they have to educate kids to high standards and they 
have to graduate them. Neither one by itself works. If you 
graduate kids and they don't know anything you are not being 
successful; if you make sure some of your kids know lots but a 
lot of your kids drop out you are not successful either. So we 
have to have equal accountabilities for those twin goals--high 
success, high learning, and high graduation rates.
    Mr. Scott. And the idea that a--one of these dropout 
factories can actually achieve AYP because those that were left 
in school----
    Mr. Balfanz. Right.
    Mr. Scott [continuing]. Performed----
    Mr. Balfanz. Yes.
    Mr. Scott [continuing]. With a 50 percent dropout rate 
ought to be disallowed. Do you agree with that?
    Mr. Balfanz. Absolutely. And there is actually a danger 
that unintentionally--and this came out in the waivers, is that 
as we push for college readiness, which is very important, and 
we add things--hold schools accountable for things like A.P. 
tests and ACT scores and SAT scores, that further creates the 
implicit push-out effect because if you don't have your lowest-
achieving students you will have a high rate of students 
passing an A.P. exam.
    Mr. Scott. One of the drawbacks that has been mentioned is 
the fact that after you have identified a failing school we 
don't have resources to help them improve. Should we work on 
that?
    Mr. Balfanz. Yes, absolutely. We have to target resources 
to the highest-need school because they just face a much 
greater educational challenge. Schools were designed with the 
premise that 15 percent of kids need extra help, 15 percent 
acceleration; the rest of the kids will show up, you have a 
good teacher you are good. In the highest need schools it is 
60, 70, 80 percent of kids need a good lesson every day in 
something else, and if we can't provide it that school won't 
succeed.
    Mr. Scott. I guess final question, could some of our 
witnesses talk about the need for education in the arts? And 
how do you make sure it gets taught if you are not testing it?
    Ms. Kazmier. We are testing. How do I make sure it gets 
taught if we are not testing? I suppose I would leave that to 
schools that aren't being held accountable. And our district is 
and my school is.
    And in order for students to get an appropriate education 
in the arts clearly we need funding. We need to make sure that 
the funding isn't cut.
    In our district we have made sure that the arts--let me 
back up. Part of the reason that I decided to take on the 
leadership role of helping to design a template to make sure 
that the art teachers and that the specials teachers are 
reaching their goal and being accountable was because I wanted 
the arts to be looked at as just as vitally important as the 
core classes--very important to me. So I expected to be held 
accountable.
    So testing is going to happen, whether it be a curriculum-
based measurement, a state assessment, which we don't have in 
art, or a classroom assessment. It gets taught but we are not 
teaching to the test. Honestly, the test is almost like 
practice because my students are creating every day. So when 
the test comes along it is their opportunity to practice what 
they know. That is how I treat the tests themselves.
    It is getting taught on a daily basis when my students are 
there. When I am a Proficient II teacher and I am creating 
objectives--learning objectives, demonstrations of learning at 
the end of the classroom day, all of those things are in place 
because my district holds me accountable to that standard.
    Chairman Kline. The gentleman's time has expired.
    Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Chairman Kline. And I want to 
thank you and Ranking Member George Miller for having this 
congressional hearing.
    In my view, H.R. 3989 and H.R. 3990 would take us back 
decades and be a great disservice to our nation's most 
disadvantaged students. They are the ones who have the fewest 
people fighting for them here in Congress.
    These last 15 years that I have been in Congress I have 
seen that those minority students that have been mentioned here 
in this discussion today this morning need an army of lobbyists 
to get Congress to increase their funding and do some of the 
things that we have learned from professors and superintendents 
who have come here in the last 10 years telling us about the 
successful roles--the successful schools that they operate.
    Good example of that was just 2 years ago when 
superintendent from Pharr-San Juan-Alamo, Dr. Daniel King, 
came--taken over what was known as a dropout factory with 50 
percent graduation rate. In less than 4 years--I was there last 
week and saw how they have turned that around and they are 
graduating at over 75 percent. That is a school district with 
30,000 students.
    Then you take Dr. Marla Guerra, superintendent from the 
South Texas ISD, magnet schools modeled after Houston's magnet 
schools, that they are graduating 97 percent. Yes, it is a 
smaller school district of only 3,500, but gee, they have been 
in the top 100 best high schools in the whole country now for 
about 12 years--75 percent Hispanic.
    So the myth that children of minority families cannot learn 
is, indeed, a myth. What they need is some of the things that 
they have told us that this--that, in my opinion, these 
documents do not have. What they are doing to turn things 
around, to help these disadvantaged students, are not--is not 
here.
    Ms. Pompa, I am going to thank you for coming to speak to 
us today, and I have followed your distinguished career for 
decades. In a change to current law, H.R. 3989 would cap the 
funding levels at fiscal year 2011 appropriations levels and 
cap annual increases based on the inflation rate. How would 
this funding cap impact English language learners?
    Ms. Pompa. Well, as you know, it takes a lot of resources 
to serve students with special needs. English language 
learners' appropriation has been frozen for many, many years or 
has grown only a little while the number of children who are 
English language learners in this country has grown 
exponentially and continues to grow. We see that happening for 
many years to come.
    Cutting back on funding for English language learners hurts 
these children in two ways: One, most states do not provide 
sufficient, and in some cases any, money for English language 
learners, and that is why the federal role in providing these 
funds is so important.
    Two, it hurts them because states rely on this money for 
capacity-building for their teachers. Unfortunately, there is a 
great reliance on the federal role. We have not had teacher 
training programs. I can think of very few cases where a 
university set up a teacher training program without Title III, 
Title VII dollars.
    Mr. Hinojosa. I agree with you. Time is running out. I want 
to ask you another question. Why are college and career 
standards vitally important to our nation's global 
competitiveness?
    Ms. Pompa. Well, that question is kind of a softball. I 
think all of us have talked today about how the economy is 
changing, how the world is changing, and how jobs are changing. 
And if all our students are not prepared at the highest level 
to compete with students all around the world this country is 
going to lose.
    Mr. Hinojosa. I want to ask the--Dr. Felicia Kazmier, as an 
art teacher you must believe that art education is an essential 
component of a well-rounded education, and I strongly agree 
with you.
    Ms. Kazmier. Thank you.
    Mr. Hinojosa. Do you support the use of federal funds to 
bolster the performing arts and programs like yours?
    Ms. Kazmier. Oh, I don't even know where to begin. Any 
support of the arts in any capacity, I would agree that that is 
quite important, yes. I support that.
    Chairman Kline. The gentleman's time has expired.
    We have gone through all members. I certainly want to thank 
the panel for being here, for great testimony, and for being so 
responsive to our questions. And I will turn to Mr. Miller for 
any closing remarks that he might have.
    Mr. Miller. First, Mr. Chairman, if I might, thank you, 
some housekeeping: I would like to submit for the record the 
testimony of the National PTA president raising serious 
concerns about the legislation and letters in opposition to the 
legislation that have been sent to the committee; also, the 
report, ``Moving Your Numbers,'' a report on how districts are 
using tests and accountability to increase student performance 
for students with disabilities. And I would also like to 
recognize many of the parents who are in the audience today who 
are the parents of students with disabilities who have serious 
concerns about this legislation.
    [The information follows:]

            Prepared Statement of Betsy Landers, President,
                  National Parent Teacher Association

    The National PTA submits this testimony to the United States House 
of Representatives Committee on Education and the Workforce for the 
committee hearing on The Student Success Act of 2012 (H.R. 3989) and 
The Encouraging Innovation and Effective Teachers Act of 2012 (H.R. 
3990). The purpose of this testimony is to outline top areas of support 
and concern for PTA within both acts.
    National PTA comprises millions of families, students, teachers, 
administrators, and business and community leaders devoted to the 
educational success of children. As the nation's oldest and largest 
child advocacy organization, PTA is a powerful voice for all children, 
a relevant resource for families, schools, and communities, and a 
strong advocate for public education.
Promoting Family Engagement in Education
    Research shows that family engagement in education is a leading 
contributor to student academic success and whole school turnaround. 
PTA applauds the Chairman's recognition of the important role parents 
and families play in educational achievement, as evidenced through the 
retention of section 1118 and the inclusion of the Statewide Family 
Engagement Center competitive grant program. Both provisions are 
necessary steps toward ensuring that all State and local educational 
agencies, especially those serving disadvantaged students, are equipped 
with the tools to partner with parents to improve student learning.
    Access to statewide support and technical assistance for local 
implementation of research-based, proven effective policies and 
programs to improve communication between schools and families, improve 
parent understanding of school accountability and data, inform families 
of public school choice options, and enable parents to support learning 
at home and in the community is necessary to maintain momentum and 
ensure sustainability of education reforms.
    Additionally, PTA is pleased with the inclusion of provisions to 
ensure parent and family access to data on state, district, school, 
teacher, and student performance. However, PTA does caution that access 
to performance information is only valuable if the available data is 
high quality, understandable and actionable for parents and families. 
If parents are not equipped with meaningful information, transparency 
achieves limited results.
Ensuring Educational Equity While Allowing Increased Local and State 
        Flexibility
    PTA applauds efforts to return the bulk of responsibility for 
education to state and local educational agencies; however, we 
recognize the need for a well-defined and appropriate federal role in 
holding states and districts accountable for improvements in student 
achievement and expenditure of funds. We are concerned that both acts 
allow federal formula dollars to flow, yet require little to nothing in 
return--which is bad for parents and families, both as our children's 
first educators and as taxpayers. This is important not only to ensure 
effective implementation of scarce federal resources, but also to 
maintain and improve educational equity and opportunity for all 
children, especially historically disadvantaged groups of students: 
minority, low-income, English language learners, and students with 
disabilities.
Performance Targets within State-Developed Accountability Systems
    While the current system of Adequate Yearly Progress is outdated 
and too prescriptive, PTA believes federal education dollars must come 
with the expectation of and demand for higher student achievement and 
graduation rates and marked progress in narrowing achievement gaps. PTA 
feels strongly that any reauthorization of the Elementary and Secondary 
Education Act (ESEA) must include a requirement for states to self-
determine and set ambitious, yet attainable performance targets for all 
students.
    States and districts are leading innovative education reform 
efforts. The federal government should not hinder the progress that is 
underway, yet we must not forget history. In decades when 
accountability for educating all children was the sole responsibility 
of individual states, our children suffered the consequences, even if 
unintended. Accountability provisions enacted in No Child Left Behind 
(NCLB) sought to remedy gross inequities, and while PTA believes the 
law's current accountability provisions are deeply flawed, we are 
confident that there is a happy medium to be met between rigid and 
unattainable federal mandates and the return to an era in which 
disadvantaged students suffer the consequences of low academic 
standards and lack of access to quality education.
Cap on Alternate Assessment on Alternate Achievement Standards
    In addition to the omission of performance targets, PTA fears H.R. 
3989's codification of the elimination of the current cap on alternate 
assessment on alternate achievement standards will further exacerbate 
educational inequity. The current ``1% regulation'' restricts the use 
of scores on less challenging assessments being given to students with 
disabilities. Alternate assessment on alternate achievement standards 
are intended only for a very small portion of the student population 
with the most severe cognitive disabilities. Research consistently 
shows the incidence of such students in the public school system to be 
far less than even one percent.
    Students who are placed in the alternate assessment on alternate 
achievement standards experience limitations on access to general 
curriculum and impediments to on-time matriculation and graduation--it 
is intended only for a very narrow student population. Thus, there is 
inherent risk in broadening the alternate assessment to apply to 
students not truly deserving of the classification. To remove this 
regulatory cap would mean not only the discontinuation of support to 
students with disabilities in achieving on-time graduation, but also 
lower expectations placed on students deemed special need; whether 
deserving of the classification or not.
Removal of State Maintenance of Effort
    PTA strongly opposes H.R. 3839's provision to eliminate Maintenance 
of Effort (MoE). MoE is vital to ensuring the continuity of services 
through state and local funding efforts. Especially in austere budget 
times, removal of the MoE requirement would likely trigger a rapid 
decline in government support for public education at a time when 
public school enrollment is continually rising. The current MoE 
provisions provide the greatest protection to low-wealth/higher poverty 
school districts that suffer from dwindling sources of local revenue 
and receive the majority of their education funding from the state. 
Low-income districts serve low-income and disadvantaged student 
populations. If the state is allowed, through removal of MoE 
provisions, to cut funding, the vulnerable districts and students 
within those districts will suffer disproportionately.
    Additionally, removal of MoE stands to undermine the driving 
principle of Title I, as federal dollars would inevitably be used to 
plug large holes in state and local support for public education, 
leaving less federal dollars available to expend on meaningful academic 
achievement and reform efforts to graduate college- and career-ready 
students.
Ensuring Federal Funds Serve and Improve Public Schools
    America's public schools enroll more than 90 percent of our 
nation's students. Public schools are the only schools bound by law to 
best serve and meet the needs of all students; including those with 
physical and cognitive disabilities, behavioral challenges, and 
students of all socioeconomic backgrounds. PTA feels strongly that all 
stakeholders must foster a supportive environment for our public school 
system while assisting it to adjust and respond to changing 
demographics and needs, and reforming appropriately. Reauthorization of 
ESEA should carry with it no provisions intended to divert public funds 
from public schools. H.R. 3990 expands private school authority over 
the allocation and implementation of public education funds.
Federal Funds Used for Private Scholarships
    Part B of this act includes explicit reference to the ability of 
states and districts to use federal dollars for non-public use, 
including scholarships, or vouchers, for private school tuition. PTA is 
opposed to the allowable expenditure of federal funds on private school 
vouchers. Voucher programs fail to promulgate the statutory intent of 
ESEA--to provide equal access to quality education for all students. 
Instead, voucher programs place a select few students into qualifying 
private schools, leaving students who are most challenging to educate 
behind in the public schools, and creating a barrier to success for 
those students not enrolled in the program.
    Additionally, research of ongoing voucher programs in cities across 
the country consistently shows a lack of effectiveness in improving 
student academic achievement, especially for low-income students. For 
example, a recent five-year longitudinal study released by the 
Wisconsin Legislative Audit Bureau concluded that Milwaukee students 
receiving vouchers to attend private and religious schools perform no 
better on summative assessments than do their peers enrolled in the 
Milwaukee public school system.
    PTA believes federal funds should go toward research-based, 
effective programs, instruction, and curriculum support to improve 
academic achievement and close achievement gaps. The need for 
efficiently utilized federal education resources is profound, as our 
schools and districts struggle to keep pace with demand in a stalled 
economy. The committee should amend H.R. 3989 to explicitly deny the 
use of federal education funds for private school supports and voucher 
programs.
Expansion of Equitable Services
    Provisions in H.R. 3990 regarding provision of services to eligible 
students not enrolled in public schools will result in a higher cost 
burden shouldered by public school districts, and will likely decrease 
the availability and quality of base services without at all improving 
student outcomes. The proposed requirement that services be provided to 
private school students on an equitable and individual basis represents 
a significant expansion from current statute. Again, PTA strongly 
supports public funds in support of public schools and the students 
they serve.
    PTA is thankful to Chairman Kline for his efforts to reauthorize 
and improve ESEA this Congress. PTA remains committed to a true 
bipartisan reauthorization and is hopeful that both majority and 
minority committee members and leadership will be afforded the 
opportunity to meaningfully contribute to the reauthorization process, 
and that the resulting legislative vehicle(s), either the acts under 
consideration in today's proceedings or acts yet-to-be introduced, move 
forward from the Committee with strong consensus among all 
stakeholders. ESEA is in desperate need of serious revisions. PTA 
recognizes that sound policy solutions for improvements to our nation's 
education delivery system are not held exclusively by either side of 
the aisle.
    National PTA looks forward to close collaboration with majority and 
minority leadership and committee members on improvements to H.R. 3989 
and H.R. 3990 and completion of ESEA reauthorization. Parents, 
students, teachers, and administrators need and deserve a fully-
functioning federal education law that encourages and rewards 
innovation while safeguarding access to quality education for all 
children.
                                 ______
                                 

      Prepared Statement of James H. Wendorf, Executive Director,
               National Center for Learning Disabilities

    The draft Elementary and Secondary Education Act bills released by 
Chairman Kline represent a full retreat from accountability for 
students with disabilities and other disadvantaged children. While NCLD 
commends the Committee for signaling its interest in bringing much 
needed change to No Child Left Behind, these bills jeopardize the 
academic progress made by students with disabilities over the past 
decade. Due to these shortcomings, NCLD strongly opposes passage of 
this legislation in Committee and the U.S. House of Representatives.
    Chief among NCLD's concerns is that the bills fail to focus on 
closing the destructive achievement gaps that impact students with 
disabilities and other disadvantaged students. Even with its 
imperfections, NCLB has compelled schools to focus on whether students 
with disabilities were learning and achieving. Rather than require 
schools to address these issues, the bills retreat from setting 
performance goals for students and do not require any meaningful 
instructional interventions and supports for struggling students. The 
Student Success Act would turn all accountability over to the States, 
turning back the clock to a time when students with disabilities were 
not expected to graduate high school or attend college.
    The Student Success Act would radically reduce high expectations 
for students with disabilities. The bill would eliminate the current 
cap (often referred to as the 1% regulation) which restricts, for 
accountability purposes, the use of the scores on less challenging 
assessments being given to students with disabilities. Such assessments 
take students off track for a regular diploma. Rather than continuing 
to support students with disabilities in achieving a high school 
diploma and pursuing employment and postsecondary education, the bill 
virtually encourages schools to expect less from students with 
disabilities. This will jeopardize their true potential to learn and 
achieve.
    Both bills also consolidate numerous critical Federal education 
initiatives, extinguishing literacy and other key focuses designed to 
help struggling students. Worse yet, the Encouraging Innovation and 
Effective Teachers Act, through a block grant authority, would allow 
Federal education funds to be used for an unproven and risky private 
school voucher scheme. Vouchers would squander scarce Federal resources 
while terminating the right of students with disabilities to a free 
appropriate public education.
    Lastly, while the Encouraging Innovation and Effective Teachers Act 
has a much needed focus on evaluation of teachers, it fails to include 
principals. Principals are key to the success of the students in their 
school. In order to improve instruction in our schools and increase 
learning, both teachers and principals need to be evaluated using 
multiple measures and evidence of student achievement. Unfortunately, 
like other aspects of this legislation, the bill falls short in this 
area.
    As the process continues, NCLD urges the Committee to rethink the 
major components of this legislation. Just as school accountability has 
begun to make the difference for students with disabilities, now is not 
the time to turn back the clock on our children.
    NCLD's mission is to ensure success for all individuals with 
learning disabilities in school, at work and in life. We:
    <bullet> Connect parents and others with resources, guidance and 
support so they can advocate effectively for their children.
    <bullet> Deliver evidence-based tools, resources and professional 
development to educators to improve student outcomes.
    <bullet> Develop policies and engage advocates to strengthen 
educational rights and opportunities.
                                 ______
                                 
                                                  January 17, 2012.
Hon. John Kline, Chairman; Hon. George Miller, Ranking Member,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
RE: The Student Success and Encouraging Innovation and Effective 
        Teachers Acts

    Dear Chairman Kline and Ranking Member Miller: On behalf of the 
National Association of School Psychologists (NASP) we would like to 
thank you for your hard work and efforts in reauthorizing the 
Elementary and Secondary Education Act of 1965 (ESEA). NASP represents 
more than 26,000 school psychologists who work with students, 
educators, and families to support the academic achievement, positive 
behavior, and mental wellness of all students, especially those who 
struggle with barriers to learning. School psychologists work with 
parents and educators to help shape individual and system wide supports 
that provide the necessary prevention and intervention services to 
ensure that students all have access to the mental health, social-
emotional, behavioral, and academic supports they need to be successful 
at school. We recognize your hard work and dedication to alleviate some 
of the unintended consequences of No Child Left Behind, while 
continuing to ensure that all students receive a high quality public 
education. We believe there are many valuable and important components 
included in these bills that will help us reach that goal. We 
appreciate the inclusion of legislative language regarding the 
following:
    <bullet> Inclusion of the term ``specialized instructional support 
personnel.''
    <bullet> Encouragement of the use of growth models and formative 
assessments in determining student achievement.
    <bullet> Encouragement for increased parental involvement at the 
state, district, local, and school building level.
    Despite these positive steps, we have concerns regarding the 
guidance this bill gives in regard to the availability of behavioral, 
emotional, social, and academic supports to all students in regard to 
the following areas.
    Availability of social and mental health services for students as 
part of school improvement plans
    NASP believes that the coordination of services to address 
students' social, emotional, and health needs is necessary at every 
school. These are necessary prevention and intervention services that 
will ensure that all students achieve to their highest potential. Given 
the research that supports the positive academic outcomes associated 
with schools that provide access to mental health services, we ask that 
you provide further guidance to State and Local Education Agencies 
about the importance of these services in school improvement plans. In 
the current draft legislation, there is little to no mention of 
prevention services that are imperative to student success. The absence 
of language surrounding school based mental health services sends the 
unsupported message that effective teachers, high quality curriculum, 
and effective school leaders are the only necessary components to 
ensure student success. Comprehensive and coordinated learning supports 
directly contribute to increased student outcomes and increased 
achievement. Services provided by specialized instructional support 
personnel, who can provide the learning and mental health services, 
supports, and leadership to ensure that student needs are identified 
and met, must be explicitly referenced.
    We understand that the intent of these two bills is to reduce 
federal mandates and regulation as to allow for maximum state and local 
flexibility; however, the absence of statutory language regarding these 
supports could lead to the unintended consequence of reduced or 
eliminated social, emotional, behavioral, and health supports for 
students, which would be detrimental to student success. We believe 
that the statutory language is the most appropriate place to reference 
these supports; however, we ask that at a minimum, further guidance for 
ways in which schools can most effectively address the social, 
emotional, behavioral, and health needs of all students be provided in 
report language.
    The continued explicit authorization of the Elementary and 
Secondary School Counseling Program (ESSCP) priorities and continued 
funding for this program including increases in appropriations
    NASP appreciates the Department of Education's and the Committee's 
intention to improve administrative efficiency and foster innovation 
through changes in funding structures; however, we are very concerned 
about the proposed consolidation or elimination of funding for small to 
medium size programs such as ESSCP. ESSCP is the only federal grant 
program that allows states to implement or expand counseling services, 
including the hiring of specialized instructional support personnel 
(e.g., school counselors, school social workers, and school 
psychologists). We were pleased that funding for the ESSCP was restored 
in the FY 12 appropriations bill; however, the current proposed 
legislation removed the language that focuses on the importance of 
social, emotional, and mental health for students.
    Counseling services are provided to all children when their social, 
emotional, or mental health difficulties interfere with their ability 
to learn and reach their academic potential. Research highlights the 
importance of educating the whole child that includes meeting their 
physical, emotional, social, behavioral, and academic needs. There is 
empirical evidence that interventions to enhance students' social, 
emotional, and decision making skills positively impact academic 
achievement. School psychologists, school counselors, and school social 
workers are specifically trained to deliver these types of 
interventions. NASP urges the Congress to maintain the absolute 
priorities of this program and to maintain or increase the level of 
funding for this program. As indicated in current law, Title IV, Part D 
Subpart 2, Section 5421(c)(2) Each program funded under this section 
shall
    ``(A) be comprehensive in addressing the counseling and educational 
needs of all students;
    ``(B) use a developmental, preventive approach to counseling;
    ``(C) increase the range, availability, quantity, and quality of 
counseling services in the elementary schools and secondary schools of 
the local educational agency;
    ``(D) expand counseling services through qualified school 
counselors, school social workers, school psychologists, other 
qualified psychologists, or child and adolescent psychiatrists;
    ``(E) use innovative approaches to increase children's 
understanding of peer and family relationships, work and self, decision 
making, or academic and career planning, or to improve peer 
interaction;
    ``(F) provide counseling services in settings that meet the range 
of student needs;
    ``(G) include in-service training appropriate to the activities 
funded under this Act for teachers, instructional staff, and 
appropriate identification and early intervention techniques by school 
counselors, school social workers, school psychologists, other 
qualified psychologists, and child and adolescent psychiatrists;
    ``(H) involve parents of participating students in the design, 
implementation, and evaluation of the counseling program;
    ``(I) involve community groups, social service agencies or other 
public or private entities in collaborative efforts to enhance the 
program and promote school-linked integration of services;
    ``(J) evaluate annually the effectiveness and outcomes of the 
counseling services and activities assisted under this section;
    ``(K) ensure a team approach to school counseling in the schools 
served by the local education agency by working toward rations 
recommended by the American School Health Association of one school 
counselor to 250 students, one school social worker to 800 students, 
and one school psychologist to 100 students; and
    ``(L) ensure that school counselors, school psychologists, other 
qualified psychologists, school social workers, or child and adolescent 
psychiatrists paid from funds made available under this section spend a 
majority of their time counseling students or in other activities 
directly related to the counseling process.
    This program helps improve school safety and increase student 
academic achievement. It is imperative that this program continue to be 
explicitly recognized and that the programs goals are prioritized for 
schools. At a minimum it is our expectation that the priorities of 
ESSCP be outlined in legislative language.
    In the current draft, a definition of ``specialized instructional 
support personnel'' is included. We believe that all of the 
professionals included in that definition should be defined and we 
encourage the definition of ``school psychologist.''
    The term ``school psychologist'' means an individual who is 
licensed or certified to provide school psychological services by the 
State in which the individual is employed.
    It is imperative to acknowledge that we have a specific set of 
skills needed to work in a school setting. Our training is consistent 
with the mission of education, and techniques we use in the school 
setting are designed to enhance and support student learning. School 
psychologists and school counselors possess a unique set of skills that 
set us apart from community psychologists and community counselors and 
it is important that schools and parents understand that distinction. 
NASP recently (March 6, 2010) adopted a ``Model for Comprehensive 
Integrate School Psychological Services'' that outlines how we 
collaborate with school staff to support student learning and student 
success. A copy of this model is attached to this letter.
    Incorporation of Multi-Tier Systems of Support and Universal Design 
for Learning (UDL) principles
    We urge you to include the use of Multi-Tier Systems of Support 
(MTSS), including positive behavioral interventions and supports and 
response to intervention, as an allowable use of funds in the proposed 
legislation. This will encourage the systemic use of best practices 
that include early identification and intervention of both behavioral 
and academic difficulties that will help students achieve their best at 
school. The specific permission for use of funds to assist schools in 
implementing MTSS, as well as providing professional development for 
educators, will ensure that resources are targeted to serve struggling 
learners as soon as possible and equip teachers with the skills needed 
to identify and intervene with students as early as possible. We 
understand the intent of removing prescriptive programmatic mandates 
from the statute; however, MTSS can encompass a wide range of 
curriculum and programs that are tailored to meet the specific needs of 
individual schools. We would like to urge the Committee to include a 
definition of MTSS. According to the federally funded National Center 
on Response to Intervention, there are four essential components to 
multi-tiered systems of supports. We suggest the following definition:
    MULTI-TIERED SYSTEMS OF SUPPORTS. The term `multi-tiered system of 
supports' means a comprehensive system of differentiated supports that 
includes these four essential components:
    A. a school-wide, multi-level instructional and behavioral system 
for preventing school failure;
    B. screening;
    C. progress monitoring; and
    D. data-based decision making for instruction, movement within the 
multi-level system, and disability identification (in accordance with 
state law).
    The most effective MTSS efforts involve this comprehensive and 
inclusive approach to helping students who are struggling in meeting 
academic standards. A specific definition would ensure that schools are 
using their funds most effectively, using their resources to maximize 
the impact MTSS can have on student success. Additionally, we recommend 
that these components be defined so that there is clear alignment 
between statute and the Department of Education's federally funded 
national technical assistance center guiding this evidence-based work.
    We also urge the Committee to include language on Universal Design 
for Learning (UDL) as it relates to school wide improvement strategies, 
design of assessments, and professional development instruction. 
Assessments that incorporate these principles can provide educators 
with more accurate reflections of student achievement. In addition, we 
ask that you include specific language regarding high quality 
professional development in the use of UDL strategies and practices for 
all teachers. This will ensure that all teachers will be able to gain 
skills to incorporate these strategies into their teaching methods.
Challenging Academic Standards for All Students
    NASP acknowledges and appreciates the desire to remove some of the 
prescriptive Federal mandates to allow States flexibility in designing 
a curriculum that meets the needs of their population. However, we urge 
the Committee to re-instate the word `challenging' when referencing 
state standards. In addition, we urge the Committee to reinstate 
language that requires States to set meaningful performance targets for 
students. Research demonstrates that high expectations correlate with 
high academic achievement. Academic standards should be challenging for 
all students, while at the same time meeting their individual academic 
needs. In addition, NASP believes that challenging curriculum combined 
with high expectations must extend beyond reading and math, as is 
currently indicated in the proposed legislation. NASP understands the 
hesitancy in prescribing which subjects States must include in the 
curriculum; however, we ask that at a minimum, report language provide 
guidance regarding the expansion of curriculum beyond reading and math 
to include the sciences, social sciences, foreign language, fine arts, 
physical and mental health, and work readiness skills.
Appropriate Instruction and Assessment of Students with Disabilities
    The proposed legislation lifts the cap on the percentage of 
students that can be assessed using alternate or modified achievement 
standard. This would inappropriately take many students off the track 
to receive a regular high school diploma. This bill does not require 
States to set any meaningful performance goals and does not require any 
meaningful instructional interventions or supports for struggling 
students. This combination of low expectations and reduced 
accountability essentially encourages schools to expect less from 
students who have disabilities. It is a significant retreat from 
current law, which was instrumental in ensuring that students with 
disabilities were learning and achieving based on the same academic 
standards as their non-disabled peers. We urge the Committee to re-
think the statutory language regarding accountability and assessment of 
all students, particularly those with disabilities.
    We appreciate your dedication to students and your hard work on the 
reauthorization of the Elementary and Secondary Education Act and we 
thank you for your consideration of these recommendations. NASP 
welcomes the opportunity to work with you and other Committee members 
in assisting with revision of this most important piece of legislation. 
For further information, please contact Kelly Vaillancourt, Director of 
Government Relations, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="177c61767e7b7b7679747862656357797664676072753978657039">[email&#160;protected]</a>
            Sincerely,
                                          Susan Gorin, CAE,
                                                Executive Director.

                  School-Based Mental Health Services:
                 Essential to Learning and Achievement

    The National Association of School Psychologists (NASP) believes 
that achieving excellence in education requires that every student is 
ready to learn and every teacher is empowered to teach. To reach this 
goal, educators, stakeholders, and policy makers must make providing 
comprehensive school-based mental health services and supports for all 
students a priority. These services and supports include prevention and 
early intervention programs to promote school safety, prevent negative 
behaviors (e.g., bullying, violence, gang involvement, substance abuse, 
dropout, and truancy), foster increased student engagement, and support 
students' social--emotional wellness, mental health, and positive 
behavior, all of which directly affect teaching, learning, and student 
achievement.
History of School Based Mental Health Services
    The potential consideration of reducing or eliminating access to 
school-based mental health services in the reauthorization of ESEA 
marks a retreat from the long-standing, bipartisan recognition of the 
importance of providing these vital comprehensive services to help 
ensure that all children meet their full potential.
    The passage of Public Law 94-142, the Education for All Handicapped 
Children Act of 1975 (now known as the Individuals with Disabilities 
Education Act) began the era of formally providing comprehensive 
support services in schools. The following three and a half decades 
marked considerable improvements and gains in the level, breadth, and 
quality of these services provided to students through the 1997 and 
2004 reauthorizations of IDEA and the passage of the No Child Left 
Behind Act in 2002. These landmark bipartisan pieces of legislation 
addressed the emotional well-being of all students and outlined a 
number of initiatives designed to ensure that schools were meeting the 
needs of the whole child as well promoting school safety and violence 
prevention (e.g., Safe and Drug Free Schools, Elementary and Secondary 
School Counseling Program [ESSCP]). The delivery model promoted by 
these recent legislative efforts has become more aligned with what we 
know works related to improving student learning and achievement, 
moving from a reactionary perspective to one that involves prevention 
and early intervention, and intensive interventions for those students 
who need it most.
    Alarmingly, recent decisions have begun the unraveling of these 
important programs and the progress made over the last four decades. In 
the last year, many of the programs managed by the Office of Safe and 
Drug Free Schools were eliminated, the office itself was closed, and 
the ESSCP was proposed for elimination or consolidation. Current 
legislation in the House seeks to further consolidate programs (many 
targeted at behavioral, social, and emotional health), and the Student 
Success Act and the Encouraging Innovation and Effective Teachers Act, 
designed to address the reauthorization of ESEA, fails to mention 
school-based mental health services at all. The loss of clear 
articulation in federal law regarding the importance of these services 
to children's school and life outcomes will severely diminish or 
eliminate the priorities of these programs and negatively affect the 
delivery of these much needed services to students. At a time when 
devoting resources to proven practices is paramount, failure to 
recognize the wealth of research that documents the need for and 
outcomes associated with school-based mental health services would 
constitute a giant leap away from ensuring that all children will 
succeed in school.
The Critical Need for School-Based Mental Health Services
    A student's mental health, social, emotional, familial, or academic 
problems (e.g., anxiety, depression, bullying, alcohol and substance 
abuse, stress), can create barriers to learning. Such barriers exist 
for an increasingly large number of students, a trend which shows no 
sign of abating. An estimated one in five school-age students will 
experience a significant mental health problem during their school 
years (Kutash, Duchnowski, & Freidman, 2005; U.S. Department of Health 
and Human Services, 1999). Negative, antisocial, or violent behaviors 
such as bullying, gang involvement, substance abuse, and truancy 
undermine physical and psychological safety for students and staff and 
can affect a student's ability to be fully engaged and available for 
learning. Students who frequently deal with internalized (e.g., 
anxiety, depression) and externalized (e.g., anger, fear, frustration) 
feelings of distress demonstrated diminished academic functioning and 
declining test scores (e.g., Roeser, Ecles, & Strobel, 1998; Hanson, 
Austin, & Lee-Bayha, 2004). Further, some research suggests that up to 
71% of youth experience at least one victimization event each year 
(e.g., assault, theft, criminal victimization, child maltreatment), 
with many exposed to multiple victimizations (Finkelhor, Ormrod, 
Turner, & Hamby, 2005).
    Despite these figures, many children and youth do not receive the 
help they need. For example, among the 2.2 million adolescents ages 12 
to 17 who reported a major depressive episode in the past year, nearly 
60% did not receive any treatment (Foster et al., 2005). Failure to 
adequately address students' mental health needs in school increases 
the risk of disengagement, academic failure, and school dropout 
(Reschly & Christenson, 2006). Student achievement and learning are 
clearly linked to mental health--ignoring this connection is not a risk 
that our schools, or the country, can afford.
School-Based Mental Health Services Improve Outcomes
    The research clearly documents the positive outcomes associated 
with having access to school-based mental health services. Research 
conducted by Jennings, Pearson, and Harris (2000) concluded that school 
mental health programs improve educational outcomes by decreasing 
absences and discipline referrals and improving test scores. 
Comprehensive, school-based mental health services can prevent and 
address a number of problems that have become quite common in our 
schools and that impede students' ability to learn. Having access to 
these services results in improved behavior, improved academics, and 
ultimately prepares our students to be productive citizens. Students 
who have access to and receive social, emotional, and behavioral health 
support achieve better academically in school in terms of both grades 
and standardized test scores (e.g., Fleming et al., 2005; Greenberg et 
al., 2003; Welsh, Parke, Widaman, & O'Neil, 2001; Zins, Bloodworth, 
Weissberg, & Walberg, 2004). These services are needed across the 
educational life span, as children of all ages can experience 
difficulties. Wood (2006) found that among children 6--13 years old, 
interventions to reduce anxiety improved not only school performance 
but also social functioning, which has been shown to predict students' 
grades both concurrently and over time (Wentzel & Caldwell, 1997). 
Indeed, well planned and well implemented social and emotional 
programming results in positive academic gains for all students pre-K--
12, from diverse backgrounds and in rural, suburban, and urban settings 
(e.g., Greenberg et al., 2003).
Promoting Wellness
    It is important to recognize that mental health is not simply the 
absence of mental illness; it also means having the skills necessary to 
cope with life's challenges. Students, families, schools, and society 
at large benefit when schools meet the needs of the whole child by 
fostering social--emotional skills and identifying and preventing 
mental health problems early. Schools are also ideally positioned to 
promote mental and behavioral wellness, both by teaching new skills and 
by reinforcing the efforts of families and communities. Initiatives 
such as positive behavioral interventions and supports, and other 
multi-tiered service delivery systems, benefit the entire school 
population and serve as the foundation for more intensive interventions 
and supports for students with greater needs. In an era of education 
reform focused on evidence-based practices, it is imperative (and cost 
effective) to include services designed to support the behavioral, 
social, emotional, and mental health needs of students in ESEA. 
Preventing and addressing student difficulties reduces the need for 
more intensive, and more expensive, interventions for students.
Impact on Teachers
    Access to school based mental health services benefits not only 
students, but also the teachers tasked with instructing them. Teachers 
frequently cite student behavior, lack of student motivation, and lack 
of adequate support as among the top reasons for leaving the 
profession. School-based mental health providers (e.g., school 
psychologists) are able to coordinate prevention and intervention 
services, both within the school and in the community, that address 
barriers to learning before they escalate. These professionals have the 
expertise needed to provide effective consultation to teachers and 
administrators to ensure that the school environment is meeting the 
needs of students and staff, and is ultimately conducive to learning. 
When students enter the classroom feeling supported and available for 
learning, it allows the teacher to focus attention on curriculum and 
delivering high quality instruction geared to meet the needs of every 
student in the classroom. Value-added assessments are becoming more 
common, and student test scores are increasingly tied to salary and 
personnel decisions. It is unreasonable and inappropriate to assume 
poor student test scores are the result of an ineffective teacher if 
the students in the classroom are not receiving the supports they need 
to be available for instruction and learning.
A Policy Framework
    Current federal policy is focused on two important components of 
education reform: instruction and curriculum, and school organization. 
However, recent research out of the National Center for Mental Health 
in Schools at UCLA helps articulate a third essential component: 
learning supports that address barriers to learning, which broadly 
encompass school-based mental health services. Having effective 
teachers and principals who attend to the instructional, curricular, 
and organizational needs of a school are essential but alone are not 
sufficient for maximizing student success. Effective instruction is the 
linchpin of successful schooling, but it is counterproductive to expect 
teachers to lower all barriers to learning themselves. Schools must 
also prioritize implementing comprehensive learning supports that 
include: identifying and responding to the social, emotional, 
behavioral, and mental health needs of students and providing access to 
qualified school mental health professionals like school psychologists, 
school social workers, and school counselors. These school-employed 
mental health professionals help teachers and support students in 
school and connect them and their families to additional community 
resources as needed. An overview of the model can be downloaded from 
http://www.nasponline.org/advocacy/UCLA--NASP--Brief--FINAL.pdf
A Cost-Effective Investment in Our Nation's Children and Future
    In a time of lean budgets, schools have very limited monetary 
resources. Every dollar must be invested efficiently to ensure that 
quality of education is not compromised and that all students graduate 
high school ready for college and career. Failure to support students' 
mental health has serious negative consequences, including increased 
risk for school failure, social isolation, unsafe sexual behavior, drug 
and alcohol abuse, and suicide, while exacerbating long-term social 
problems such as incarceration, unemployment, and poor health. All are 
costly societal problems both in terms of personal and economic 
consequences. For example, the Seattle Social Development Project 
(focused on Grades 1 through 6) has been estimated to save $9,837 per 
student in averted long-term social problems (Aos et al., 2004). 
Additionally, it is estimated that the United States loses $192 billion 
(1.6% of the Gross Domestic Product) in combined income and tax-revenue 
losses with each cohort of 18-year-olds that never completes high 
school. Increasing the educational attainment of that cohort by one 
year would recoup nearly half of those losses (Teachers College, 
Columbia University, 2005).
    Failure to address mental health needs of students in schools will 
ultimately result in fewer high school graduates, fewer college 
graduates, increased social costs, and the declining ability for the 
United States to remain competitive in an increasingly global economy. 
Preserving programs such as the Elementary and Secondary School 
Counseling Program, School Improvement Grants, Safe and Drug Free 
Schools and Communities National Programs will further ensure that 
schools are able to provide these needed services in schools. We know 
the positive contribution of school-based mental health services to 
effective schooling and must continue to ensure that the necessary 
supports to address the social, emotional, behavioral, and mental 
health needs of the child are available.
                               references
Aos, S., Lieb, R., Mayfield, J., Miller. M., & Pennucci, A. (2004). 
        Benefits and costs of prevention and early intervention 
        programs for youth. Olympia, WA: Washington State Institute for 
        Public Policy.
Finkelhor, D., Ormrod, R. K., Turner, H. A., & Hamby, S. L. (2005). The 
        victimization of children and youth: A comprehensive, national 
        survey. Child Maltreatment, 10, 5--25.
Fleming, C. B., Haggerty, K. P., Brown, E. C., Catalano, R. R., 
        Harachi, T. W., Mazza, J. J., & Grumman, D. H. (2005). Do 
        social and behavioral characteristics targeted by preventive 
        interventions predict standardized test scores and grades? 
        Journal of School Health, 75, 342-349.
Greenberg, M. T., Weissberg, R. P., O'Brien, M. U., Zins, J. E., 
        Fredericks, L., Resnick, H., & Elias, M. J. (2003). Enhancing 
        school-based prevention and youth development though 
        coordinated social, emotional, and academic learning. American 
        Psychologist, 58, 466--474.
Foster, S., Rollefson, M., Doksum, T., Noonan, D., Robinson, G., Teich, 
        J. (2005) School mental health services in the United States, 
        2002-2003. Center for Mental Health Services, Substance Abuse 
        and Mental Health Services Administration. Rockville, MD.
Hanson, T.L., Austin, G. & Lee-Bayha, J. (2004). Ensuring that no child 
        is left behind: How are student health risks and resilience 
        related to the academic progress of schools? San Francisco: 
        WestEd.
Jennings, J., Pearson, G., & Harris, M. (2000). Children's social 
        behaviors as predictors of academic achievement: A longitudinal 
        analysis. School Psychology Quarterly, 17, 1-23.
Kutash, K., Duchnowski, A. J., & Freidman, R. M. (2005). The system of 
        care twenty years later. In M. H. Epstein, K. Kutash, & A. J. 
        Duchnowski (Eds.), Outcomes for children with emotional and 
        behavioral disorders and their families: Program and evaluation 
        for best practices (2nd ed., pp. 3--22). Austin, TX: Pro-Ed.
Reschly, A. & Christenson, S. L. (2006). School completion. In G. G. 
        Bear & K. M. Minke (Eds.), Children's needs III: Development, 
        prevention, and intervention (pp. 103--113). Bethesda, MD: 
        National Association of School Psychologists.
Roeser, R.W., Eccles, J.S., & Strobel, K.R. (1998). Linking the study 
        of schooling and mental health: Selected issues and empirical 
        illustrations at the level of the individual. Educational 
        Psychologist, 33, 153-176.
U.S Department of Health and Human Services. (1999). Mental Health: A 
        Report of the Surgeon General. Rockville, MD.
Welsh, M., Parke, R. D., Widaman, K., & O'Neil, R. (2001). Linkages 
        between children's social and academic competence: A 
        longitudinal analysis. Journal of School Psychology, 39, 463--
        482.
Wentzel, K.R., & Caldwell, K. (1997). Friendships, peer acceptance, and 
        group membership: Relations to academic achievement in middle 
        school. Child Development, 68, 1198-1209.
Wood, J.J. (2006). Effect of anxiety reduction on children's school 
        performance and adjustment. Developmental Psychology, 42, 345-
        349.
Zins, J. E., Bloodworth, M. R., Weissberg, R. P., & Walberg, H. J. 
        (2004). The scientific base linking social and emotional 
        learning to school success. In J. E. Zins, R. P. Weissberg, M. 
        C. Wang, & H. J. Walberg (Eds.), Building academic success on 
        social and emotional learning: What does the research say? 
        (pp.3--22). New York, NY: Teachers College Press.
                                 ______
                                 
                                                  January 19, 2012.
Hon. John Kline, Chairman; Hon. George Miller, Ranking Member,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
RE: Reauthorization of the Elementary and Secondary Education Act 
        (ESEA)

    Dear Chairman Kline and Ranking Member Miller: The National School 
Boards Association (NSBA), representing over 14, 500 local school 
boards across the nation would like to thank you for your continuing 
leadership and support to public education and to reaffirm the urgency 
in reauthorizing the Elementary and Secondary Education Act (ESEA) 
during the Second Session of the 112th Congress.
    Since the time NCLB was enacted ten years ago, both Congress and 
the Administration have acknowledged that law's accountability 
framework has proven to be seriously flawed and the mandated sanctions 
on schools and school districts have been costly with very limited 
impact in improving student or school performance. Further, the 
operational challenges facing States and local school districts in 
implementing the current law have re-affirmed the need for greater 
authority and flexibility to be delegated to States and local school 
districts to address the unique circumstances and conditions in 
improving student achievement and in closing the achievement gap 
between various segments within the school population.
    NSBA developed comprehensive recommendations and priorities for the 
ESEA reauthorization that would:
    <bullet> Ensure states and local school districts have greater 
overall flexibility to make educationally sound decisions, and be free 
of mandates that unnecessarily or counterproductively hinder school 
districts from achieving their goals.
    <bullet> Ensure high quality, valid and reliable assessments for 
all students, including English language learners and student with 
disabilities.
    <bullet> Support the use of multiple measures of academic 
achievement that would more accurately determine students' knowledge 
and performance that reflect the kind of well-rounded education 
necessary to be successful in the 21st Century economy, as opposed to 
judging success on their performance on a single assessment.
    <bullet> Permit the use of growth models and other measures of 
student achievement that more accurately reflect student and school 
performance.
    <bullet> Facilitate strategic interventions that are designed at 
the local or state level and are targeted to students and schools most 
in need, rather than impose ineffective and costly sanctions.
    <bullet> Provide states and school districts support and ensure 
flexibility to establish programs to enhance teacher/principal quality 
focusing on preparation, recruitment, retention and evaluation.
    <bullet> Support efforts by school districts through a separate 
funding stream to develop, expand, coordinate and enhance the quality 
and availability of voluntary preschool programs for all 3- and 4-year 
old children.
    <bullet> Fully fund the law, along with other federal assistance 
programs that are critical to successfully achieving the goals of the 
new law, and limit expansion of competitive grants where such expansion 
would result in level funding or formula-based grants so critical to 
students in poverty.
    In reviewing the House discussion drafts released on January 6, 
2012, the general approach of the legislation is closely aligned with 
the priorities and recommendations of local school boards that would:
    <bullet> Establish a new accountability system that delegates 
authority and flexibility to the States and locals school districts and 
provides for adequate time to design, develop and implement strategies 
over a 6-year time frame.
    <bullet> Increase the focus on academic achievement to be addressed 
by individual student progress and the elimination of achievement gaps 
between subgroups.
    <bullet> Increase the State role in standards and assessments to 
support local school districts in improving academic achievement.
    <bullet> Eliminate the unworkable provisions related to Highly 
Qualified Teacher requirements and increases the emphasis on teacher 
and school leader effectiveness, including support for effective 
performance evaluation systems.
    <bullet> Increase focus on assessment measures to address higher-
order thinking skills in addition to mathematics and reading/language 
arts (and the State discretion to add additional subjects)
    <bullet> Continue the use of disaggregated data collection and 
reporting.
    <bullet> Strengthen the focus on valid and reliable assessments for 
all students, including English language learners and students with 
disabilities.
    <bullet> Support the use of multiple measures of student 
achievement and growth models.
    <bullet> Increase the focus on States to modify or eliminate State 
fiscal and accountings barriers so funds from the federal, state and 
local levels could be consolidated.
    <bullet> Provide authority to local school districts to transfer 
funds from federal programs (except Title I)
    However, the bill also contains several key provisions that would 
adversely impact local school district operations and would require 
substantial modifications:
    1. Authorizations of Appropriations and CPI. The House bill 
includes language that would restrict future federal funding to the 
FY2012 base and a percentage of the CPI. Such an approach could 
ultimately eliminate any future increased priority for public education 
funding, fail to give any recognition for enrollment growth in general 
as well as with respect to subgroups that may require additional 
support. With significant increases in enrollment, the actual result in 
this approach could reduce per pupil expenses since the cost of living 
increases in school systems rises faster than the CPI considerations. 
Overtime the maximum levels that could be provided would be reduced. 
Rather than using the CPI, the cost of living (COL) index would be much 
fairer.
    NSBA recommends that future K-12 education authorizations of 
appropriations should not be tied to a percentage of the CPI.
    2. Maintenance of Effort Provisions. The House bill includes 
language to eliminate maintenance of effort (MOE) requirements. While 
local school boards recognize the severe economic challenges facing 
their communities in adjusting budgets to reduced revenue streams, we 
believe the elimination of MOE requirements would over time 
significantly lower the incentive for other government investments in 
education at a time when the nation's public schools must become even 
more rigorous and aggressive in the design, development and 
implementation of educational services if we are to successfully 
compete in the global market. NSBA recommends that MOE requirements not 
be completely eliminated. Rather, NSBA recommends that a waiver 
application process based on fiscal need be utilized that would at 
least require the same percentage be allocated to K-12 programs in a 
given year compared to previous budget percentages.
    3. Local School District Capacity Building. The House bill fails to 
adequately address how States would support local school districts in 
building their capacity to assume expanded responsibilities. As a 
result of this legislation, local school districts could expect 
additional challenges in implementing new standards, new assessments, 
new curricula, requirements for additional instructional materials and 
a restructured accountability system. A review of the operational 
impediments and barriers to local school districts would suggest that 
States must assist local school districts to build or strengthen their 
own capacity to ensure their success. Therefore, NSBA recommends that 
state plans specify how state will support local school districts to 
build local school district capacity to successfully carry out their 
accountability responsibilities.
    4. Charter Schools. The House bill continues strong support for 
charter schools, including a focus on funding for planning, facilities 
construction and renovation. Local school boards generally support the 
concept of charter schools provided the local school board is the 
chartering authority. In fact roughly 52% of all charters are 
authorized by local school boards.
    However, what concerns local school boards is the increased 
emphasis to significantly expand both the number of charter schools as 
well as the entities that could authorize new charter schools when 
there is no evidence that charter schools are significantly better than 
traditional schools. In fact, the CREDO study reports that only 17% of 
the charter schools performed better than traditional public schools. 
Further, research has shown that students with disabilities and English 
language learners are under-represented in charter schools, while 
traditional public schools are increasingly serving students who 
require special services. NSBA recommends that in using these federal 
funds the local school district should be designated as the sole 
authorizing entity; and if restricted by State law, local school 
districts should have, as a minimum, the first right of refusal. This 
would ensure that the charter schools develop and sustain supportive 
relationship with the local school district regarding funding, other 
operational requirements that could be shared such as food services or 
transportation, and accountability for student performance and teacher 
and school personnel performance. Federal policy should not create a 
situation that pits one segment in the community against the other.
    Local school boards remain strongly committed to our priorities and 
recommendations and urge that they will be fully addressed in the final 
House bill. We believe that our recommendations will ensure a much more 
effective framework to ensure progress in both improving student 
achievement and in closing the achievement gap.
    Additionally, as you prepare to draft final legislative language, 
we urge you to continue to communicate with and fully engage local 
school board members in your congressional district. Such interactions 
will ensure that the provisions within the final House bill will have 
the greatest likelihood of significantly improving student, school and 
school district success.
    NSBA appreciates the opportunity to re-affirm our commitment to our 
ESEA priorities as well as to the urgency to complete the 
reauthorization before the Second Session for the 112th Congress 
adjourns. We look forward to working with you and the members of your 
staff in finalizing key policies affecting our public schools and to 
discuss additional issues that we believe require clarification or 
modification to the legislative language. Questions regarding our 
concerns may be directed to Reginald M. Felton, assistant executive 
director for Congressional Relations at 703-838-6782, or by e-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8aabebdb4acb7b698b6abbab9f6b7aabff6">[email&#160;protected]</a>
            Sincerely,
                                        Michael A. Resnick,
                                      Associate Executive Director.
                                 ______
                                 
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
    Dear Chairman Kline: AASA's Executive Committee met on January 12, 
13 and 14 to develop its 2012 legislative agenda. During that process 
they met with House and Senate staff, as well as the administration, to 
talk about the progress on ESEA reauthorization and other federal 
education policy issues. AASA's Executive Committee applauds your 
efforts and the efforts of the House Education and the Workforce 
Committee to reauthorize ESEA and strongly believes that 
reauthorization is crucial to providing the nation's schools with 
relief from current law, which is both broken and lacking in the 
flexibility states and local school districts need to support student 
learning and achievement. We also applaud your openness to the views of 
education leaders and stakeholders--including administrators--which has 
resulted in an excellent first step in the reauthorization process.
    AASA believes that The Student Success Act and Encouraging 
Innovation and Effective Teachers Act represent a step in the right 
direction in large part because they balance the proper role of the 
federal government in education. We welcome the opportunity to work 
with you, the Committee, the administration and stakeholders to address 
our concerns and finally conclude the ESEA reauthorization process.
    The Student Success Act and the Encouraging Innovation and 
Effective Teachers Act make significant improvements in the federal 
role in accountability, standards and assessments that AASA supports. 
For example, AASA supports much of the Student Success Act and Teacher 
Encouragement Acts that:
    <bullet> Maintain student disaggregation by subgroup
    <bullet> Eliminate the utopian 100 percent proficiency
    <bullet> Eliminate SES/Choice
    <bullet> Return ownership of the accountability system to the 
state/local level
    <bullet> Maintain school improvement for low performing schools, 
under state direction
    <bullet> Maintain the requirement for annual assessment under state 
direction
    <bullet> Require that assessments measure proficiency and growth 
models
    <bullet> Remove caps on alternate assessments, allowing the IEP 
team to ensure that children are assessed in a meaningful, fair and 
accurate manner
    <bullet> Maintain current law related to comparability calculations
    <bullet> Maintain supplement/supplant language
    <bullet> Reduce federal overreach into school improvement/
turnaround strategies
    <bullet> Put states in charge of designing a teacher evaluation 
system
    <bullet> Include student performance in teacher evaluation
    <bullet> Require multiple measures for teacher evaluation
    <bullet> Provide for funding flexibility between certain programs 
within Title I
    <bullet> Eliminate requirements related to Highly Qualified Teacher 
provisions
    <bullet> Provide that 21st Century funds to school districts to be 
used for expanded learning time.
    For all that is good within both the Student Success Act and the 
Encouraging Innovation and Effective Teachers Act, both contain 
provisions that greatly concern AASA. We strongly urge the Committee to 
make improvements as both bills move to mark up and the floor. Further, 
we emphasize the importance of ensuring that the reauthorization 
process remains both transparent and open, allowing stakeholders ample 
opportunity to weigh in and participate.
    <bullet> Maintenance of Effort: AASA supports current maintenance 
of effort language to ensure continuity of state and local efforts. We 
support maintaining a lever to maintain state and local spending. The 
current MOE provisions provide the greatest protection to those low-
wealth districts that generally educate more low-income children. Low-
wealth districts generally get the greatest share of their funding from 
the state and if states are allowed to cut funding the most vulnerable 
districts and the most vulnerable children will be hurt 
disproportionately.
    <bullet> Eliminating maintenance of effort language completely 
could compound fiscal pressures at the local level as LEAs would have 
to cover state reductions with local dollars. MOE provisions do need to 
be modified, however, because under current MOE local school districts 
are held responsible for state reductions in spending and forced to 
make up state reductions. MOE should not force local school districts, 
particularly low-wealth districts, to compensate for reductions in 
state effort.
    <bullet> Rural Education: AASA supports a REAP reauthorization that 
maintains the current program, which has proven effective in its goal 
of driving formula, flexible dollars to the nation's rural schools to 
support improved student achievement. AASA prefers the Senate REAP 
language, which more closely mirrors our legislative priorities. We 
strongly urge the poverty indicator for the REAP program be changed in 
both bills to free and reduced lunch from census poverty.
    <bullet> Funding: The Senate bill codifies Race to the Top and 
Investing in Innovation. AASA prefers the House language that 
eliminates the programs and allows a focus on formula, flexible 
programs such as Title I and IDEA. AASA is opposed to the House 
proposal to cap Title I increases to inflation.
    <bullet> Charter Schools: AASA supports public school choice and 
charter schools that operate under the governance of local public 
school boards. Both bills include charter school language that lacks 
accountability by allowing independent charter sponsorship and poses a 
fiscal burden in the current fiscal environment. Further, we believe 
charter and traditional public schools should face the same 
environmental, labor, due process and fiscal laws, which is neither 
clear nor directed in the current ESEA proposals.
    <bullet> Vouchers: AASA believes public dollars are for public 
schools and opposes a House measure that would allow education spending 
for non-public use, including scholarships for private-school tuition. 
Some provisions of the Encouraging Teachers Act clearly allow federal 
funds to flow to private religious schools, which encourages rationing 
of education to schools not open to all children and employees. While 
private schools can discriminate on the basis of religion when it comes 
to accepting students and hiring staff, such discrimination should not 
be supported or facilitated by public taxpayer dollars.
    <bullet> Equitable Participation: The House provisions regarding 
services to eligible students in private schools have been made more 
costly, cumbersome and bureaucratic, which will cut into services.
    The AASA Executive Committee's greatest concerns with the Student 
Success Act and Encouraging Innovation and Effective Teachers Act in 
order of importance are:
    <bullet> Education Technology: AASA is concerned by the disconnect 
between a federal focus on requiring schools to prepare students to be 
college-and career-ready in the 21st century but then failing to 
recognize the importance of continued support for education technology 
and the related professional development. AASA supports the Senate 
education technology amendment (ATTAIN Act) and urges the House to 
provide similar language or similar flexibility within its proposal.
    AASA looks forward to working with you and the other members of the 
Education and Work Force Committee to move ESEA through Committee mark 
up and the House floor. If you have questions or need further 
information, please contact Bruce Hunter (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="204248554e54455260414153410e4f5247">[email&#160;protected]</a>), the head 
of our advocacy and communications team, or Noelle Ellerson 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="117f747d7d7463627e7f51707062703f7e6376">[email&#160;protected]</a>) from our Advocacy and Policy team.

                       Daniel Domenech, Executive Director,
                     American Association of School Administrators.
                                 ______
                                 
                                                  January 24, 2012.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
    Dear Chairman Kline: The 38 undersigned organizations--representing 
a broad cross section of civil rights, disability, business and 
education organizations--write to firmly oppose the recently released 
draft of the Student Success Act, which would amend and reauthorize 
Title I and other parts of the Elementary and Secondary Education Act 
(ESEA). Together we represent parents, educators, employers, and 
millions of students with disabilities, low-income students, students 
of color, English language learners (ELLs), and the children of migrant 
workers--all boys and girls who, through education, are working to 
build bright futures.
    All agree that ESEA must be updated. However, the draft bill is not 
an update; it is a rollback. It undermines the core American value of 
equal opportunity in education embodied in Brown v. Board of Education. 
Specifically, it abandons accountability for the achievement and 
learning gains of subgroups of disadvantaged students who for 
generations have been harmed by low academic expectations. The draft 
also eliminates performance targets, removes parameters regarding the 
use of federal funds to help improve struggling schools, does not 
address key disparities in opportunity such as access to high-quality 
college preparatory curricula, restricts the federal government from 
protecting underprivileged students, and fails to advance the current 
movement toward college-and career-ready standards. As a result, the 
draft would thrust us back to an earlier time when states could choose 
to ignore disparities for children of color, low-income students, ELLs, 
and students with disabilities. The results, for these groups of 
students and for our nation as a whole, were devastating.
    The last time the federal government left accountability completely 
to the states, two-thirds decided to do nothing; only two states 
included the performance of individual groups of students in their 
systems. The rest took action in name only, setting targets too low or 
too vague to meaningfully drive student improvement. The students we 
represent cannot withstand the risk of Congress allowing states to 
return to old habits--aiming low and abandoning children deemed too 
difficult or inconsequential to educate. The draft, as written, would 
invite such a result.
    This draft bill also would allow federal dollars to flow but 
require virtually nothing in return. This is bad for students and bad 
for taxpayers. Federal funding must be attached to firm, ambitious, and 
unequivocal demands for higher achievement, improved high school 
graduation rates, and progress in closing both achievement and 
opportunity gaps. Any reauthorization of ESEA must, at minimum, require 
states to set clear goals and provide instructional support so that all 
students receive an education that prepares them for success in college 
and careers.
    We also believe ESEA should respect the important contributions and 
roles of all those responsible for providing public education: states, 
districts, schools, and teachers. This includes holding all responsible 
parties accountable, something the draft does not accomplish. And while 
the ESEA must continue to balance federal oversight and decisionmaking 
at the state level, it must ensure that the federal government retains 
its long-standing and crucial role in safeguarding equal educational 
opportunity.
    We hope to work with you and the committee to address our concerns 
if this proposed legislation is introduced and moves forward. For 
additional information please contact Dianne Piche at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ddde4eee5e8cdeee4fbe4e1ffe4eae5f9fea3e2ffea">[email&#160;protected]</a> or Kate Tromble at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="18534c6a77757a747d587d7c6c6a6d6b6c36776a7f36">[email&#160;protected]</a>
            Sincerely,
          50CAN: The 50-State Campaign for Achievement Now;
                                    The Advocacy Institute;
          American Association of People with Disabilities;
              The American Association of University Women;
                            American Civil Liberties Union;
                           American Federation of Teachers;
                                                   The Arc;
                                 Autism National Committee;
                      Bazelon Center for Mental Health Law;
                Business Coalition for Student Achievement;
              The Center for American Progress Action Fund;
                          The Center for Law and Education;
                                   Children's Defense Fund;
           Council of Parent Attorneys and Advocates, Inc.;
                            Democrats for Education Reform;
              Disability Rights Education and Defense Fund;
                                       The Education Trust;
             Lawyers' Committee for Civil Rights Under Law;
       The Leadership Conference on Civil and Human Rights;
                  League of United Latin American Citizens;
 MALDEF (the Mexican American League Defense and Education 
                                                     Fund);
                                     Mental Health America;
                                                     NAACP;
            NAACP Legal Defense and Educational Fund, Inc.;
                 National Center for Learning Disabilities;
                    National Council on Independent Living;
                               National Council of La Raza;
                        National Disability Rights Network;
                           National Down Syndrome Congress;
                            National Down Syndrome Society;
                                     National Urban League;
                               National Women's Law Center;
                                   The New Teacher Project;
                    Poverty & Race Research Action Council;
                                          Public Advocates;
                     Southeast Asia Research Action Center;
                                        Stand for Children;
                                  U.S. Chamber of Commerce.
                                 ______
                                 
                                                 February 13, 2012.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
    Dear Chairman Kline: The U.S. Chamber of Commerce, the world's 
largest business federation representing the interests of more than 
three million businesses and organizations of every size, sector, and 
region, is pleased to have the opportunity to respond to your recently 
released draft legislation to reauthorize key aspects of the Elementary 
and Secondary Education Act (ESEA).
    The Chamber applauds your commitment to reauthorize ESEA. There is 
broad consensus that the last reauthorization, which brought about the 
No Child Left Behind Act (NCLB), needs to be updated to reflect what we 
have learned over the past decade. The comments below align with the 
Chamber's ESEA reauthorization statement that was released on May 4, 
2011.
    There are many provisions of the draft legislation that improve 
upon the current law. In particular, the Chamber supports the focus on 
``effective'' teachers based significantly upon how well they improve 
the academic achievement of their students, the consolidation of 
education programs, expanding competition for education funds, and 
allowing for greater private sector innovation. Should you move forward 
in introducing legislation, we urge you to include these provisions.
    However, the Chamber is deeply concerned with several other key 
provisions of the draft legislation.
    Accountability: NCLB set an ambitious goal of having all students 
in America reach grade level proficiency in reading and math in twelve 
years. While that goal is far from being accomplished, having both the 
overall target of proficiency, as well as assistance and interventions 
attached to annual targets has driven improvements in student academic 
achievement. In this program, millions of additional students have 
received the attention needed to be successful in school. This includes 
the option for students to leave a low-performing school and choose to 
attend a higher performing school. This has also resulted in millions 
of parents having the option to direct a portion of federal funds to 
choose a tutor based upon the needs of their child.
    Unfortunately, the draft legislation lacks a clear goal for student 
achievement. Additionally, states would not be required to set annual 
goals and hold all schools accountable for reaching those goals. 
Without annual goals, states and school districts could effectively 
identify no or few schools for school improvement, and schools that 
have continually failed year after year would not be subject to 
rigorous, targeted interventions. By repealing Section 1116 of current 
law, the draft legislation would eliminate any options for students 
stuck in low-performing schools to receive immediate assistance through 
public school choice and free tutoring.
    Some have suggested that because the current accountability system 
has identified so many schools as ``failing''--nearly half of Title I 
schools--the problem is with the accountability system. While there may 
be faults with the current accountability system, the real problem is 
too few schools are preparing too few students to succeed in today's 
economy. The easy and expedient route may be to sweep this issue under 
the rug along with millions of students in underperforming schools, but 
the Chamber believes the long-term consequences of such action would be 
devastating.
    While recognizing that federal law should move away from the pass/
fail accountability approach, the Chamber urges you to retain the 
concept of state accountability systems with clear academic goals and 
targets that require states, districts, and schools to be held 
accountable for meeting such goals for all students and subgroups of 
students. Furthermore, states must design accountability systems that 
hold all schools accountable for progress with assistance and 
interventions for schools not meeting their annual targets. Finally, 
there needs to be more, not less, involvement and choice for parents 
who have a child stuck in a school that simply does not work.
    Academic Standards and Assessments: The draft legislation would 
continue to require states to adopt academic content standards, and 
assessments aligned to those standards in mathematics and reading or 
language arts. While the Chamber has supported the recent efforts of 
states to join together in the development of Common Core Standards, we 
have not advocated any requirement that states adopt such standards. 
However, the Chamber has supported the concept of requiring states to 
be serious about their standards and ensure they truly represent what 
it means for all students to be ``college and career ready'' when they 
graduate from high school.
    The Chamber urges you to support college and career ready standards 
and assessments as well as reinforce the need for all states to develop 
a partnership with the business and higher education communities in the 
development of such standards.
    Science Standards and Assessments: NCLB currently requires states 
to adopt science standards and assessments, but the draft legislation 
leaves out these important provisions. While many states would 
presumably continue to update and refine their current science 
standards--and continue assessing students in this subject--removing 
these provisions from current law sends a message that this country no 
longer needs to focus on the critical area of science. There is no 
shortage of examples of how important science and technology is to the 
future competitiveness of this nation. At the same time the U.S. 
continues to lose ground in this area relative to the rest of the 
world. As such, America must make science education a national priority 
and commitment. The Chamber urges you to retain the current law 
requiring states to adopt science standards and continue to assess 
students in this area, as well as use the results for accountability 
purposes.
    While there are other aspects of the draft which merit more 
detailed comments, the issues raised above are critically important. 
The Chamber hopes to have the opportunity to meet with you and your 
staff in the coming days and weeks to discuss your draft in more 
detail.
    Again, thank you for this opportunity to respond to the draft 
legislation.
                                 ______
                                 
                                 
             <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                

                                                  February 2, 2012.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
    Dear Chairman Kline: I am writing on behalf of the nation's chief 
state school officers to provide input on the Student Success Act and 
the Encouraging Innovation and Effective Teachers Act, your draft 
legislation to fix and reauthorize the Elementary and Secondary 
Education Act (ESEA). At a time when states are seeking interim relief 
from dated ESEA requirements, we applaud your effort to advance the 
congressional reauthorization process in the interest of sustainable 
and viable federal policies that reconfigure the federal-state-local 
partnership in American education. The Council of Chief State School 
Officers (CCSSO) looks forward to working with you to secure ESEA 
reauthorization as soon as possible, ideally before the beginning of 
the next school year.
    I applaud your legislation's recognition of the primacy of state 
and local leadership in education. CCSSO has long called for 
transforming ESEA into a law that reinforces state leadership and 
promotes deference to state and local judgment; we strongly believe 
that state and local leaders are best situated to make improvements 
that benefit students in our states. Our commitment to meaningful 
accountability on behalf of students is resolute. To an extent 
unprecedented in our recent history, state and local governments are 
answering the national call for education reform. We remain staunchly 
committed to raising the bar by developing college and career ready 
standards for all students and ensuring that federal policy supports 
the ultimate goal of ensuring that all students graduate ready for 
higher learning or entering the workforce. States are also working 
together to develop aligned high-quality assessments and corresponding 
data systems and educator evaluation systems. We are eager to build 
upon these foundational reforms and tackle the challenge of turning 
around low-performing schools, improving student achievement for all 
students, and closing achievement gaps.
    In order for the federal-state-local partnership in education to 
succeed, state and local leaders must be provided greater authority to 
develop and implement education reforms that are designed primarily at 
the state and local levels and targeted to students' needs. We believe 
that federal law must promote greater state and local leadership in a 
manner consistent with CCSSO's Next Generation Accountability 
Principles, which states are currently using as a framework to govern 
the development of stronger accountability systems. CCSSO believes your 
bill reflects a shared vision of education reform driven by state and 
local leaders with limited federal supports:
    <bullet> We applaud your bill's continued focus on accountability 
for all schools and recognizing the need to accurately measure student 
growth in addition to proficiency. We support eliminating the 
federally-defined 100% proficiency target (AYP), but requiring states 
to define, report, and act using authentic student growth.
    <bullet> We strongly support your bill's continued call for annual 
determinations, disaggregation, and reporting on the performance of all 
schools by overall student performance and subgroup population 
performance.
    <bullet> We commend your legislation for ensuring that states have 
a school improvement intervention strategy in place while granting 
states flexibility from the prescriptive federal turnaround models set 
forth in the School Improvement Grant program.
    <bullet> We support your inclusion of policies that advance teacher 
and leader evaluation reforms, which are a top ESEA priority for CCSSO 
and our members.
    While we support the overall direction of the bill and believe that 
it will allow states to continue to lead on behalf of their students, a 
few modifications could strengthen the ability of states to deliver on 
their commitments to stronger accountability systems rooted in the 
ultimate goal of college and career readiness for all students. These 
include:
    <bullet> In the absence of a set requirement for the designation of 
low-performing schools, we are concerned that school districts will not 
identify and intervene in enough schools and that States will lack 
leverage to require such interventions where they are most needed.
    <bullet> We believe that federal education law should ask states to 
establish an ambitious yet achievable goal for our students. We do not 
support a universal academic performance target set at the federal 
level, as AYP was in NCLB, but we do embrace state-established 
performance targets. The Secretary should defer to state judgments on 
these targets, not second-guess state determinations.
    <bullet> Like you, we believe ESEA should empower states to drive 
meaningful interventions in the lowest-performing schools to ensure 
significant improvement. In order for this to be realized, states 
should have the authority to withhold funding from districts that fail 
to implement their school improvement plans or strategies adequately or 
if those strategies fail to improve student achievement. We believe in 
a state and local partnership and trust our local school districts, but 
just as ESEA puts in place protections against inaction, we too ask for 
such protections.
    As stated above, we applaud your call for a return to state 
leadership in K-12 education and to task us with additional 
responsibilities on behalf of our schools and students. In order for us 
to take on the addition of certain new state responsibilities, 
corresponding support is warranted. Otherwise it may lead to unfunded 
mandates that limit state and local flexibility:
    <bullet> Your bill properly continues a call for annual testing in 
grades 3-8 and once in high school, but it simultaneously eliminates 
the authorization that states have depended on to fund such a 
requirement. We strongly urge you to restore the dedicated allocation 
of funds authorized in Sections 6111 and 6112 of current law and urge 
you to permit states to use these funds to acquire the necessary 
technologies to implement next generation assessments. In addition, 
your bill as currently written would seem to prohibit direct federal 
funding of the two existing state assessment consortia working to 
develop next-generation assessments capable of more accurately 
measuring student performance. Nearly every state is a member of one of 
these consortia and has a strong interest in maintaining a limited 
federal role in the support of these consortia. In the interest of 
voluntary state collaboration, efficiency in the use of federal funds, 
and quality assessment practices, we urge you to be silent on common 
standards and assessments in your legislation. In the alternative, 
please clarify that your bill intends only to restrict that the 
Secretary mandate participation in common standards or assessments 
consortia through the use of absolute or competitive requirements in 
formula or competitive grants.
    <bullet> In keeping with your legislation's reliance upon increased 
state and local leadership in education, we urge you to ensure that it 
authorizes sufficient funding to support the capacity-building 
necessary to advance education reform at the state and local levels and 
avoid unfunded federal mandates.
    In sum, I applaud your leadership in moving forward on ESEA 
reauthorization and appreciate and support the direction that your bill 
moves the ESEA debate in Congress. As you know, I've been out of the 
office for several weeks, but will be back in D.C. the week of Feb. 
13th and would greatly appreciate the opportunity to discuss these 
matters with you in more detail. My staff will also connect with yours 
next week to follow up on this letter. We look forward to working 
collaboratively with you and your colleagues to pass a bill this year 
that supports state and local educators.
            Sincerely,
                          Gene Wilhoit, Executive Director,
                    Council of Chief State School Officers (CCSSO).
                                 ______
                                 
                                                 February 13, 2012.
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
    Thank you for the opportunity to submit comments on the upcoming 
reauthorization of the Elementary and Secondary Education Act (ESEA). I 
am writing on behalf of the First Focus Campaign for Children, a 
501(c)(4) nonprofit organization affiliated with First Focus, a 
bipartisan children's advocacy organization dedicated to making 
children and families a priority in federal policy and budget 
decisions. In all of our work, we seek to raise awareness regarding 
public policies impacting children and families and to ensure that 
related programs have the resources necessary to help children grow up 
in a nurturing environment.
    As you know, the future strength of this nation's democracy, as 
well as its economy, depends on the investments made in children and 
youth today. The reauthorization of the Elementary and Secondary 
Education Act (ESEA) presents a valuable opportunity to positively 
impact the lives of millions of children and families. We write to 
express severe concerns regarding the released drafts of the following 
reauthorization bills: The Student Success Act, which would amend and 
reauthorize Title I and other parts of the Elementary and Secondary 
Education Act (ESEA) and the Encouraging Innovation and Effective 
Teachers Act which engages parents in the education of their children.
    Chief among our organization's priorities for K-12 education policy 
is reauthorization of the Elementary and Secondary Education Act 
(ESEA). However, we respectfully draw your attention to the following 
segments of the bill that we believe would hurt our most deserving 
students and families if the draft language remained in its current 
form:
    Transferability & Flexibility in Using Funds: While it is argued 
that this is needed to create greater local control over education 
decisions and encourage local innovation, funding flexibility could 
lead to some vital programs going unfunded at the expense of 
disadvantaged students. This would perpetrate inequity in funding for 
special populations. Rather, we need to sustain an appropriate federal 
role in public education by protecting the funding for federal programs 
that were created to level the playing field for populations vulnerable 
to the effect of educational disparities. Though they remain 
underfunded, Title I, Title III and Title VII, which address the needs 
of low income, ELL and Native American students respectively, have 
helped close achievement gaps for our most deserving students. Instead 
of pursuing flexibility in this sense, we should allow states and 
school districts the flexibility to target 75 percent of their non-
Title I, III, or VII federal resources for flexibility to best serve 
the needs of their students. States should also be allowed to apply for 
waivers by the Department of Education to exempt them from certain 
statutory or regulatory requirements under law, consolidate federal 
education programs while being accountable for results, and use an 
alternative method for making allocations to school districts instead 
of the current formula if their new proposal targets funds more 
effectively to those areas with high concentrations of low-income 
families.
    Accountability Systems: While we do believe there are benefits to 
be gained from letting go of the punitive restrictions of Adequate 
Yearly Progress (AYP), we oppose any policies that potentially abandon 
accountability for the achievement and learning gains of subgroups of 
disadvantaged students. The draft also eliminates performance targets 
(Annual Measurable Objectives), and removes parameters regarding the 
use of federal funds to help improve struggling schools. As the bills 
do not permit the Secretary of Education to establish any criteria that 
specifies or prescribes any aspect of a state's accountability system, 
nor does it provide a definition for low-performing schools, it 
restricts the federal government from protecting underserved students.
    Highly Qualified Teachers: We are opposed to eliminating any 
requirements related to the definition of highly qualified teachers. 
The draft bill eliminates all baseline preparation standards for 
teachers, instead focusing solely on measuring teacher effectiveness 
once teachers are already in the classroom. We believe it is a grave 
mistake to eliminate NCLB's ``highly qualified teacher'' provisions, 
which required all teachers to be fully certified by their state and to 
demonstrate competency in their subject matter. A wealth of research 
shows that high need students are most likely to be taught by teachers 
who have not completed their training, have not demonstrated competency 
in their subject matter, and are inexperienced. These bills will do 
nothing to change this reality. While your proposals' focus on 
measuring teacher effectiveness is important, these bills fail to 
recognize that teacher effectiveness cannot be measured until a teacher 
has actually taught. All students--especially low-income students, 
students of color, students with disabilities, English language 
learners, and students from high-need rural communities--deserve 
teachers who are fully-prepared on their first day in the classroom and 
who prove themselves effective once there. Related to the issue of 
highly qualified teachers, we are also concerned with the lowering of 
Title II (Teacher Quality) funds for students who are in poverty, 
especially during a time when we should be enhancing our highly 
qualified teacher workforce.
    Comparability: Your proposal does not address the issue of 
comparability of per pupil funding between schools within the same 
district. We have a key opportunity to amend part A of title I of ESEA 
to remedy the inequitable distribution of State and local funds within 
the areas served by local educational agencies by: (1) Reinforcing the 
supplementary intent of funds made available under Title I of ESEA, to 
ensure these funds serve their original purpose of subsidizing the 
increased costs associated with educating students in concentrated 
poverty; (2) Addressing the statutory, regulatory, and enforcement 
weaknesses that undermine the role of the comparability requirement in 
ensuring comparability within school districts; (3) Requiring the 
inclusion of real teacher salaries in calculations of per-pupil 
expenditures; and (4) Providing sufficient transparency, 
accountability, and disclosure to allow parents, communities, 
educators, and district officials to ensure students have access to the 
resources they need to achieve at high levels.
    English Learners: We applaud the fact that the legislation 
continues support for primary language assessments for English Learners 
where appropriate, and supports programs and instruction based on 
evidence-based research and standards for English language proficiency. 
We are deeply concerned with folding Title III (language instruction 
for English Learners) into Title I and the loss of a national focus on 
English Learners.
    Class Size Reduction: The proposed legislation limits class size 
reduction efforts to 10 percent of Title II (current use is about 38 
percent). Research indicates that students benefiting the most from 
class size reduction efforts are disadvantaged students in the early 
grades. By capping this funding, we are concerned that school districts 
will not be able to find funding to continue paying the teacher 
salaries that were previously funded through federal class size 
reduction funds. This would lead to a direct decrease in services for 
our most deserving students. Rather, we recommend awarding formula 
grants to states for allocation to their local school districts to: (1) 
Reduce class size, particularly in the early elementary grades, by 
using highly qualified teachers; and (2) Create a continuum of small 
classes from kindergarten to third grade.
    Early Education: The draft proposals currently lack a focus on 
early education or the creation of school improvement and professional 
development activities with early childhood development and education 
programs. We have a key opportunity to amend the school improvement 
program under part A of Title I of ESEA to require states to create or 
revise early learning guidelines for preschool age children and early 
learning standards for children in kindergarten through grade three. 
Improving the early years of the education continuum--beginning with 
pre-kindergarten and continuing through third grade--is essential to 
ensuring that every child is college and career ready. Research shows 
that high-quality classroom experiences throughout this period of a 
child's life can lead to significant gains in achievement. Research 
also shows that a child who is still struggling to read by the third 
grade may never catch up. Current policies in the draft language are 
simply not enough to address this problem.
    As you work to finalize these ESEA reauthorization bills, we urge 
you to consider the following four priorities:
    <bullet> Making Schools the Centers of Our Communities
    <bullet> Increasing High School Graduation Rates and Reconnecting 
High School Dropouts
    <bullet> Strengthening Educational Opportunities for Children and 
Youth in Unstable Housing
    <bullet> Expanding High Quality Early Learning Opportunities
    We appreciate your leadership and initiative to help improve the 
current situation of public schools in America. We look forward in 
working with you to ensure that our most disadvantaged students and 
communities are given the resources and support needed to provide an 
equitable education.
            Sincerely,
                                   Bruce Lesley, President,
                                 First Focus Campaign for Children.
                                 ______
                                 
                                                  February 3, 2012.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
    Dear Chairman Kline: On behalf of over 65,000 of our nation's 
elementary, middle level and high school principals, the National 
Association of Elementary Schools (NAESP) and the National Association 
of Secondary School Principals (NASSP) are writing to comment on the 
provisions contained in the proposed Student Success Act and the 
Encouraging Innovation and Effective Teachers Act. We appreciate any 
steps taken by the committee to reauthorize the Elementary and 
Secondary Education Act (ESEA) as the law is long overdue for renewal, 
and many of the ill-fated provisions of No Child Left Behind (NCLB) 
continue to pose unnecessary barriers to student success.
    Collectively, principals applaud many of the provisions contained 
in the draft legislation, specifically the elimination of Adequate 
Yearly Progress (AYP); removal of the arbitrary 100% proficiency 
requirements; requiring disaggregation of subgroup data; and allowing 
states ample time (six years) to adopt and implement new standards, 
assessments, and accountability systems.
    NAESP and NASSP also applaud the removal of the overly prescriptive 
federal models of school improvement that all require the principal's 
removal without an evaluation of the principal's performance. Recent 
studies find that the effects of implementation substantiate the 
ineffectiveness that continue to be the basis of the ill-informed 
policies of the School Improvement Grant program, which are perpetuated 
by misguided regulation. The program and the illogical policy upon 
which it is based does nothing short of creating chaos and disruption 
in school communities, and perpetuates the hallmark of underperforming 
schools--high teacher and principal turnover rates.
    While the proposals make several notable and positive changes that 
are critically important to improving our nation's education system, 
the proposals will continue to encourage the NCLB-era overreliance on 
standardized tests for accountability and teacher evaluation purposes. 
Principals believe it is imperative to move to accountability systems 
that rely on multiple measures to better gauge student academic 
performance and higher-order thinking skills.
    The appropriate federal role in education is to promote equity and 
target resources to assist states and local districts. Federal policies 
must provide support for principals and their role in fostering high-
quality instruction and learning. The emphasis on school-level outcomes 
and student achievement places the school leader at the center of all 
school reform efforts. Today's principals and assistant principals are 
expected to be visionary leaders, instructional experts, building 
managers, assessment specialists, disciplinarians, community builders, 
and more. The impact of principals is second only to that of effective 
teachers in classrooms.
    The proposals inadvertently diminish the role of the principal as 
an instructional leader, and provide no direction for states and local 
districts to build their capacity to improve student learning and 
support teachers. Foremost, NAESP and NASSP believes that the term 
``school leader'' must be defined to include principals and assistant 
principals so as not to confuse the complexity of the roles and 
responsibilities various educators have in the school building.
    To clarify and strengthen the draft proposals, NAESP and NASSP 
recommend the following:
    1. Reinstate and clarify the term school leader by including a 
definition (language suggested below);
    2. Increase capacity-building measures for principals in both 
proposals, and include the ``core competencies of effective school 
leadership'' (language suggested below).
    Excellent teachers can and do create high-performing classrooms, 
but only an excellent principal can create and sustain a high-
performing school. Given the role of principals in our nation's 
schools, federal policy must support greater emphasis on and 
recognition of their responsibilities, and set the guidance for states 
and local districts to provide professional development that will build 
capacity as instructional leaders. Professional development for 
principals and assistant principals has been largely overlooked by 
states and local districts, and the proposal blatantly excludes these 
school leaders as a key ingredient in our nation's schools.
    NAESP and NASSP represent instructional leaders from grade levels 
spanning Pre-K to 12. As such, collectively we support strengthening 
and coordinating services from early childhood to the early elementary 
grades (P3 alignment), and joint professional development between early 
childhood educators and early elementary educators. The bill also calls 
for greater support for secondary schools and their role in the 
education continuum.
    Again, NAESP and NASSP thank you for your efforts to reauthorize 
ESEA and work to better support principals to lead learning 
communities. We share your commitment to providing every student with a 
high quality education and the opportunity to succeed. As the committee 
moves forward with consideration of the bills, we look forward to 
continuing to work with you to better support principals.
            Sincerely,
                                             Gail Connelly,
                                         Executive Director, NAESP.
                                          JoAnn Bartoletti,
                                         Executive Director, NASSP.
      attachment: suggested language submitted by naesp and nassp
Student Success Act and Encouraging Innovation and Effective Teachers 
        Act
    To clarify and strengthen the draft proposals, NAESP and NASSP 
recommend the following:
    1. Reinstate and clarify the term school leader by including a 
definition.
    SEC. 1221. Definitions
    Insert:
    (11) SCHOOL LEADER--The term `school leader' means a principal, 
assistant principal or individual who----
    (A) is an employee or officer of a school; and
    (B) is responsible for----
    (i) the daily instructional leadership and managerial operations of 
the school; and
    (ii) creating the optimum conditions for student learning.
    2. Increase capacity-building measures for principals in both 
proposals, and include the ``core competencies of effective school 
leadership''.
    In the Student Success Act:
    <bullet> SEC. 1112. Local Educational Agency Plans.
    Insert:
    ``(b)(8) how the local educational agency will align professional 
development programs for school leaders as described in section 1221 
(11) ``
    In the Innovation for Effective Teachers Act:
    <bullet> SEC. 2122. Local Applications.
    (pg. 17, Line 15)
    (1)(B) insert after school leader effectiveness ``based on the core 
competencies of effective school leadership described in section 2123 
(2)(B)(v) * * *''
    <bullet> SEC. 2123. Local Use of Funds.
    (pg. 19, Line 14)
    Strike ``may'', insert ``shall''
    <bullet> SEC. 2123. Local Use of Funds.
    (pg. 20, Line 12)
    (2)(B)(v) insert after mentorship programs for such leaders 
``aligned to the core competencies of effective school leadership that 
include----
    (i) understanding how to use student data to make instructional 
decisions;
    (ii) creating a learning culture within the school that provides a 
climate conducive to the development of all members of the school 
community;
    (iii) engaging in continuous professional development by utilizing 
a combination of academic study, developmental simulation exercises, 
self-reflection, mentorship and internship;
    (iv) understanding youth development appropriate to the age level 
served by the school, including the state standards for the academic, 
social, emotional and physical development of all students; and
    (v) engaging the community to create shared responsibility for 
student academic performance and successful development.
                                 ______
                                 
                                                  February 6, 2012.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
    Dear Chairman Kline: We write on behalf of the Education Task Force 
of the Consortium for Citizens with Disabilities (CCD) to oppose both 
draft Elementary and Secondary Education Act (ESEA) bills you released. 
While we have many concerns with the draft bills, we are writing today 
with regard to three fundamental issues that seriously undermine the 
progress and academic achievement of students with disabilities. They 
are:
    <bullet> The lack of subgroup accountability
    <bullet> The lifting of the cap on the Alternate Assessment on 
Alternate Achievement Standards (AA-AAS)
    <bullet> The rollback on teacher quality
Subgroup Accountability
    As you know, students with disabilities have made considerable 
gains thanks to the current focus of the ESEA on all schools and all 
subgroups. These improvements have come in participation rates, 
academic achievement on grade level reading and math assessments and 
more generally in having increased access to the general curriculum and 
higher expectations for student achievement. We believe these gains are 
due largely to the requirement that the participation and proficiency 
of all subgroups be measured, reported, and used for the planning of 
interventions needed for improvement.
    Students with disabilities may be most at risk if revisions to the 
law do not ensure all schools are accountable for student achievement 
at the subgroup level and receive extra resources and attention when 
they fail to produce progress. While the reauthorization of ESEA should 
explore ways to grant appropriate flexibility to ensure schools can 
best meet local needs and design instructional needs and interventions 
at the local level, this flexibility should not eliminate the current 
focus of ESEA's accountability framework on all schools and all 
subgroups or eliminate targeted help to schools that need it. To do so 
ignores the real challenge facing our education systems--that too many 
schools are not providing an educational experience that enables all 
students with disabilities to make academic gains.
    Furthermore, we still believe that states and school districts must 
intervene in all schools in which subgroups of students, including 
students with disabilities, are not meeting state standards.
Elimination of the Cap on Alternate Assessment on Alternate Achievement 
        Standards
    The Student Success Act would radically reduce high expectations 
for all students with disabilities. The bill would eliminate the 
current cap (often referred to as the 1% regulation) which restricts, 
for accountability purposes, the use of the scores on less challenging 
assessments being given to students with disabilities. Such 
assessments--known as the alternate assessment on alternate achievement 
standards--are intended for only a small number of students with the 
most significant cognitive disabilities. The incidence of students with 
the most significant cognitive disabilities is known to be far less 
than 1%. To ignore this data by raising or eliminating the cap would 
violate the legal rights of students who do not have the most 
significant cognitive disabilities and who should not be assessed on 
alternate academic achievement standards.
    As data and student/family experience show, the decision to place a 
student in the alternate assessment on alternate achievement standards 
can limit or impede access to the general curriculum and take students 
off track for a regular diploma as early as elementary school. These 
limitations raise concerns for many students who are currently placed 
in these assessments. The problem would grow if the cap were 
eliminated. The alternate assessments were not designed or intended to 
be applied to a broader population of students. Rather than continuing 
to support students with disabilities in achieving a high school 
diploma and pursuing employment and postsecondary education, the lack 
of a cap on the use of the assessment virtually encourages schools to 
expect less from students with disabilities. This will jeopardize their 
true potential to learn and achieve.
Teacher Quality
    Your bills eliminate all baseline preparation standards for 
teachers, instead focusing solely on measuring teacher effectiveness 
once teachers are already in the classroom. We believe it is a grave 
mistake to eliminate requirements that all teachers should be fully 
certified by their state and have demonstrated competency in their 
subject matter. All students deserve teachers who are fully-prepared on 
their first day in the classroom and who prove themselves effective 
once there.
    Additionally, your bills lack any significant equity protections, 
particularly with respect to ensuring equal access to fully-prepared 
and effective teachers for our nation's most vulnerable students. The 
proposals eliminate the current requirement that low-income and 
minority students not be disproportionately taught by teachers who are 
unqualified, inexperienced, or teaching out of field. More generally, 
by failing to address comparability requirements, the proposals fail to 
ensure that resources--including fully-prepared and effective 
teachers--are equitably distributed within school districts.
    Finally, these bills represent a significant step backwards in the 
area of transparency, particularly with respect to providing parents 
with information about their child's teachers. Where current law 
requires districts to inform parents when their child was taught for 
four or more weeks by a teacher who lacked full certification and/or 
subject matter competency, your proposal eliminates this required 
disclosure. In so doing, it eliminates parents' access to information 
that is critical to allowing them to hold their schools accountable for 
providing students with the resources they need to learn.
    We urge you to revise your bill to unequivocally support high 
achievement for all students, especially students with disabilities. We 
would be happy to discuss this further as you prepare to introduce your 
bills and the process moves forward.
            Sincerely,
          American Association of People with Disabilities;
                        American Dance Therapy Association;
                         American Foundation for the Blind;
          Association of Assistive Technology Act Programs;
         Association of University Centers on Disabilities;
                                 Autism National Committee;
                      Bazelon Center for Mental Health Law;
                 Council of Parent Attorneys and Advocates;
                          Council for Exceptional Children;
                         Council for Learning Disabilities;
              Disability Rights Education and Defense Fund;
                                              Easter Seals;
         Higher Education Consortium for Special Education;
              Learning Disabilities Association of America;
                                     Mental Health America;
         National Association of Councils on Developmental 
                                              Disabilities;
              National Association of School Psychologists;
        National Association of State Directors of Special 
                                                 Education;
                 National Center for Learning Disabilities;
                    National Council on Independent Living;
                        National Disability Rights Network;
                           National Down Syndrome Congress;
                            National Down Syndrome Society;
                 School Social Work Association of America;
 Teacher Education Division of the Council for Exceptional 
                                                  Children;
                                    The Advocacy Institute;
                              The Arc of the United States;
                   The National Alliance on Mental Illness.
                                 ______
                                 
                                                 February 13, 2012.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
RE: Student Success Act and Encouraging Innovation and Effective 
        Teachers Act

    Dear Chairman Kline: On behalf of the nation's 50 million 
elementary and secondary students, the Coalition for Teaching Quality 
would like to voice our concerns with provisions regarding teacher 
quality and equitable distribution of teachers in the `Student Success 
Act' and the `Encouraging Innovation and Effective Teachers Act.' As a 
coalition of 86 organizations concerned with promoting educational 
quality and equity, particularly for students who have traditionally 
been least well served by our public education system, we are deeply 
committed to the development of well-prepared and effective teachers 
for all communities, and to the equitable distribution of these 
teachers to all students. Unfortunately, the Student Success Act and 
the Encouraging Innovation and Effective Teachers Act represent a 
significant step backward from these goals.
    First, these bills eliminate all baseline preparation standards for 
teachers, instead focusing solely on measuring teacher effectiveness 
once teachers are already in the classroom. We believe policy must 
enhance and improve current ``highly qualified teacher'' provisions 
requiring all teachers to be fully certified by their state and have 
demonstrated competency in their subject matter, not eliminate this 
requirement altogether. A wealth of research shows that high need 
students are most likely to be taught by teachers who have not 
completed their training, have not demonstrated competency in their 
subject matter, and are inexperienced. These bills will do nothing to 
change this reality. Even if well-proven strategies to evaluate teacher 
effectiveness were widely available, which is not now the case, these 
bills fail to recognize that teacher effectiveness cannot be measured 
until a teacher has actually taught. All students--especially low-
income students, students of color, students with disabilities, English 
language learners, and students from high-need rural communities--
deserve teachers who are fully-prepared on their first day in the 
classroom and who prove themselves effective once there.
    Second, these bills lack any significant equity protections, 
particularly with respect to ensuring equal access to fully-prepared 
and effective teachers for our nation's most vulnerable students. The 
proposals eliminate existing requirements that low-income and minority 
students not be disproportionately taught by teachers who are 
unqualified, inexperienced, or teaching out of field. More generally, 
by failing to address comparability requirements, the proposals fail to 
ensure that resources--including fully-prepared and effective 
teachers--are equitably distributed within school districts.
    Finally, these bills move away from a focus on transparency, 
particularly with respect to providing parents with information about 
the background qualifications and training of their child's teachers. 
Whereas current law requires districts to inform parents when their 
child is taught for four or more weeks by a teacher who is not ``highly 
qualified,'' your proposal eliminates this required disclosure. In so 
doing, it eliminates parents' access to one piece of information that 
is critical to allowing them to hold their schools accountable for 
providing students with the resources they need to learn.
    Like you, we continue to support the ESEA reauthorization process 
and hope that ESEA will be reauthorized before the end of this year. In 
our ongoing meetings regarding reauthorization with Congressional 
offices, we continue to advocate for the inclusion of the attached 
principles on fully-prepared, well-supported, and effective teachers 
for all students in any reauthorization bill.
    We also continue to support other legislation that reflects our 
coalition's principles, such as H.R. 2902 by Representative Judy Chu 
(D-CA), which strengthens high-quality pathways into teaching, 
increases the supply of fully-prepared teachers who have made a long-
term commitment to serving in high-need communities, and supports 
induction and retention programs in order to promote a stable learning 
environment for educators and students. As another mechanism to improve 
teacher quality and increase access to effective teachers, we also 
support S. 1716 by Senator Bernard Sanders (I-VT). S. 1716 not only 
defines a ``highly qualified teacher'' as someone who has fully 
completed a State-approved traditional or alternative teacher 
preparation program, but also changes state plans to include a strategy 
for recruitment, support, retention, and equitable distribution of 
highly qualified and effective teachers.
    The nation's growth and the strength of our democracy are dependent 
on the educational success of our students. The Coalition for Teaching 
Quality remains committed to working in partnership with the House 
Committee on Education and the Workforce to ensure students in all 
communities have access to fully-prepared, well-supported, and 
effective teachers.
            Sincerely,

       Members of the Coalition for Teaching Quality (list 
                                                 attached):

Coalition for Teaching Quality (86 members)
National Organizations
Alliance for Multilingual Multicultural Education
American Council on Education
American Association of Colleges for Teacher Education
American Association of People with Disabilities
American Association of State Colleges and Universities
American Council for School Social Work
Association of University Centers on Disabilities
ASPIRA Association
Autistic Self Advocacy Network
Autism National Committee
Center for Teaching Quality
Citizens for Effective Schools
Communities for Excellent Public Schools
Council for Exceptional Children
Council of Parent Attorneys and Advocates
Disability Policy Collaboration, A Partnership of The Arc and UCP
Disability Rights Education and Defense Fund Inc
Easter Seals
Education Law Center
FairTest, The National Center for Fair & Open Testing
First Focus Campaign for Children
Gamaliel Foundation
Helen Keller National Center
Higher Education Consortium for Special Education
Knowledge Alliance
Latino Elected and Appointed Officials National Taskforce on Education
Lawyers' Committee for Civil Rights Under Law
League of United Latin American Citizens
Learning Disabilities Association of America
Movement Strategy Center
NAACP
NAACP Legal Defense and Educational Fund, Inc.
National Alliance of Black School Educators
National Association of School Psychologists
National Association of State Directors of Special Education
National Center for Learning Disabilities
National Consortium on Deaf-Blindness
National Council for Educating Black Children
National Council of Teachers of English
National Council of Teachers of Mathematics
National Disability Rights Network
National Down Syndrome Congress
National Down Syndrome Society
National Education Association
National Indian Education Association
National Latino Education Research & Policy Project
National PTA
National Urban League
League of United Latin American Citizens
Parents Across America
Partnership for 21st Century Skills
Public Advocates Inc.
Public Education Network
Rural School and Community Trust
School Social Work Association of America
South East Asia Resource Action Center
TASH--Equity, Opportunity, and Inclusion for People with Disabilities
Teacher Education Division of the Council for Exceptional Children
Teachers of English to Speakers of Other Languages International, Inc.
United Church of Christ Justice & Witness Ministries
State and Local Organizations
Action Now--Illinois
Action Now--North Carolina
ACTION United
Alliance of Californians for Community Empowerment (ACCE)
Arkansas Community Organizations
Bay Area Parent Leadership Action Network
Brighton Park Neighborhood Council--Chicago
California Association for Bilingual Education
Californians for Justice
Californians Together
California Latino School Boards Association
Campaign for Quality Education
Center for the Future of Teaching and Learning Coalition for 
        Educational Justice
Delawareans for Social and Economic Justice
Grow Your Own Illinois
Inner City Struggle
Justice Matters
Legal Advocates for Children and Youth
Parent-U-Turn
Parents for Unity
RYSE Center
San Francisco Teacher Residency
Texas Association of Chicanos in Higher Education
Youth On Board--Somerville, MA
Youth Together
                                 ______
                                 
                                                  February 9, 2012.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
    Dear Chairman Kline: The Business Coalition for Student Achievement 
(BCSA), a coalition of leading chief executive officers, is pleased to 
see the U.S. House of Representatives moving forward with the long 
overdue reauthorization of the Elementary and Secondary Education Act 
(ESEA). BCSA appreciates the transparent nature of the process that you 
have used to solicit input on the Student Success Act and the 
Encouraging Innovation and Effective Teachers Act, and looks forward to 
working with the committee as it finalizes these bills through the 
legislative process.
    The nation must strengthen the education provided to its students. 
The U.S. Department of Labor reports that millions of jobs are going 
unfilled despite an historically high unemployment rate, and business 
leaders know why: too few American's are prepared for the jobs of 
today. What is worse, too little is being done to prepare students for 
the jobs of tomorrow.
    Federal education policy must support the success of all students 
by advancing key education principles, including:
    <bullet> college- and career-ready standards;
    <bullet> accountability for all students;
    <bullet> required action for all low-performing schools;
    <bullet> effective teachers and leaders;
    <bullet> choices for students attending low-performing schools; and
    <bullet> clear and transparent data for parents, businesses, and 
the community.
    The proposed bills represent progress in the area of teacher 
evaluation. However, overall, the legislation proposes a striking 
retreat from the principles of education reform that will position 
students to maintain America's competitive edge in the global economy. 
The Student Success Act, for example, virtually eliminates federal 
requirements for the improvement of low performing schools, takes away 
the ability currently given to students attending low performing 
schools to choose higher performing schools and access free tutoring, 
and asks virtually nothing in return for the billions of taxpayer 
dollars invested in the nation's schools.
    The nation's education system is failing to adequately prepare 
students for the workforce. This is demonstrated by data from the U.S. 
Department of Labor stating that 3.2 million jobs were unfilled in 
November 2011 despite an historically high unemployment rate. 
Similarly, McKinsey & Company reports that 40 percent of the 2,000 
businesses they surveyed had at least one position vacant for six 
months. The fact that positions go unfilled because applicants lack the 
skills necessary to fill them is an indictment on the education 
currently being provided to children, and a clear call for reform.
    BCSA calls specific attention to the failure of the Student Success 
Act to support the state-led effort that is currently underway to 
provide all students with a college- and career-ready education. While 
this legislation includes a requirement for standards--an important and 
appropriate provision to be included in federal law--the bill does not 
call for college- and career-ready standards. Further, it removes the 
requirement within current law for assessments in science. The nation 
needs more--not fewer--engineers, scientists, and experts in 
technology. At a time when other countries are growing their capacity 
for innovation by deepening their focus on education, the United States 
cannot afford to stifle its own potential by allowing anything less 
than college- and career-ready standards to drive K--12 education.
    The business community believes that there is a vital Federal role 
in ensuring accountability for academic performance and for 
safeguarding parents' and students' interests, which are too often lost 
in a maze of education bureaucracies. As the reauthorization process 
for ESEA continues, these proposals must be strengthened to ensure that 
all students have the opportunity to succeed. Additionally, it is 
critical that this reauthorization move forward in a bipartisan 
fashion. Education has historically been a bipartisan issue, and the 
best way to move forward is through substantive negotiations including 
both democrats and republicans. BCSA hopes that such bipartisan 
deliberations will produce a bill that can earn the support of the 
business community.
    Mr. Chairman, as you well know, education is at the core of the 
nation's economy. BCSA is eager to assist in any way possible to ensure 
the education system adequately prepares today's students for 
tomorrow's workforce.
            Sincerely,
                                             Craig Barrett,
         Retired Chairman and CEO Intel Corporation; Cochair, BCSA.
                                          William D. Green,
                                Chairman, Accenture; Cochair, BCSA.
                                        Edward B. Rust Jr.,
 Chairman and Chief Executive Officer, State Farm Mutual; Cochair, 
                                                              BCSA.
                                 ______
                                 
                                                 February 10, 2012.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
    Dear Chairman Kline: On behalf of the 33,000 special education 
teachers, special education administrators, higher education faculty, 
related service personnel and other professionals who are members of 
the Council for Exceptional Children (CEC), we are writing to express 
our concerns with the final two bills the Student Success Act and the 
Encouraging Innovation and Effective Teachers Act that you introduced 
on the Elementary and Secondary Education Act reauthorization.
    We appreciate your efforts and those of your staff, in addressing 
the pressing issue of the reauthorization of the Elementary and 
Secondary Education Act. States and local school districts need 
additional resources and flexibility to provide a quality education to 
all students, including students with disabilities. We are pleased that 
your legislation will eliminate the arbitrary deadline of 2014 and 
along with it Annual Yearly Progress. We are also pleased that your 
legislation will maintain the requirement to disaggregate data by 
subgroup and publically report on that data. But, we are troubled by 
the overall lack of accountability and great weakening of the federal 
role this legislation would represent. In particular we oppose the 
following:
    <bullet> Elimination of Highly Qualified Teacher Provisions: All 
requirements that entering teachers meet any minimum qualifications are 
eliminated. This lifts a protection for our most vulnerable students, 
including many students with disabilities, who are often placed in 
classrooms with new entering teachers. Under your bill, these students 
fall into an unprotected loophole and simply not guaranteed a qualified 
teacher.
    <bullet> Lack of Focus on Professional Development: Nothing in this 
legislation requires ongoing professional development, despite evidence 
that this is needed by the field and leads to gains in student 
achievement and student growth. Although Title II funds may be used to 
support professional development, this bill backs away from the federal 
government's long-standing commitment to support education 
professionals. This support is needed now, more than ever.
    <bullet> Increased Privatization: CEC opposes language in the Local 
Academic Flexible Grant section that would allow public dollars to be 
invested in private schools. CEC opposes vouchers for children and 
youth and those with disabilities because they contradict and undermine 
the central purposes of civil rights laws including these measures. 
Vouchers deprive students of rights and protections they have while in 
public schools. This is especially critical for students with 
disabilities who lose all protections under the Individuals with 
Disabilities Education Act when they leave public schools and attend a 
private school.
    <bullet> Reduced, Capped and Eliminated Funding: This legislation 
would mean less resources for students and schools. CEC opposes setting 
caps on Title I funding and eliminating Maintenance of Effort 
Provisions. Eliminating safeguards will not ensure accountability and 
achievement. States and districts need more resources in this 
environment and are working under ever decreasing budget measures. 
Ignoring the real need will not help us address the real concerns about 
achievement.
    <bullet> Elimination of the 1% Cap: This legislation eliminates the 
current 1% cap on the use of scores for accountability purposes for 
students with significant cognitive disabilities. It is important to 
point out that placing a student on an alternate assessment removes 
them from the general accountability system. It also takes away their 
ability to receive a regular diploma. Experts across the field 
recognize that the 1% amount is important, widely accepted and well 
addresses the proportion of students who may need to take an alternate 
assessment. Yet, removing this cap might create an incentive to exclude 
students from the general assessment and place them on an alternate 
simply to increase the statistical view of achievement in a district. 
It is not a needed change and as such, we cannot support it.
    <bullet> Reduction of Accountability for Students with 
Disabilities: NCLB brought students with disabilities and the educators 
who serve them to the table in new and important ways. Due to this 
increased focus and inclusion in the accountability system, students 
with disabilities increased participation rates, academic achievement 
on grade level reading and math assessments and more generally in 
having increased access to the general curriculum and higher 
expectations for student achievement. We believe these gains are due 
largely to the requirement that the participation and proficiency of 
all subgroups be measured, reported, and used for the planning of 
interventions needed for improvement. We are concerned with the lack of 
focus on this area in your bill and, if enacted, what impact it may 
have students.
    CEC looks forward to continuing to work with you to ensure that our 
education system raises expectations for students with disabilities and 
ensures that all educators are prepared to meet their needs.
            Sincerely,
                                 Deborah A. Ziegler, Ed.D.,
        Associate Executive Director, Policy and Advocacy Services.
                                 ______
                                 
                                                 February 10, 2012.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
    Dear Chairman Kline: As members of the Science, Technology, 
Engineering, and Mathematics (STEM) Education Coalition, we are writing 
in response to the two bills you recently introduced that would 
reauthorize major portions of the Elementary and Secondary Education 
Act (ESEA), otherwise known as the No Child Left Behind Act. We 
appreciate this opportunity to offer our feedback in response to the 
Student Success Act and the Encouraging Innovation and Effective 
Teachers Act.
    An extensive array of economic data has continued to point to the 
close connections between a strong STEM education and a student's 
future success in competing for the best jobs of today and the future. 
The Georgetown University's Center on Education and the Workforce 
recently concluded that:
    The STEM workforce will remain central to our economic vitality 
well into the future, contributing to innovation, technological growth, 
and economic development. Capable STEM students, from K-12 all the way 
through the postgraduate level, will be needed in the pipeline for 
careers that utilize STEM competencies and increase our innovative 
capacities. We cannot win the future without recognizing the growing 
need for STEM competencies across the economy.
    In short, education reforms that are strongly focused on the STEM 
subjects are reforms that are strongly focused on jobs and economic 
recovery. Our specific recommendations:
Retain Science Testing, Alongside Math and Reading
    We respectfully disagree with the Student Success Act's removal of 
the requirement for states to test students in science. Removing the 
existing requirement for testing in science while maintaining testing 
in math and reading sends a powerful, negative, and unambiguous signal 
to U.S. schools and the public that science--along with all of its 
related subdiscliplines--is no longer a national priority. If the 
requirement for science testing is eliminated, schools will shift their 
limited resources away from science classes, less time will be devoted 
to science, and professional development for science educators will 
suffer.
    While we appreciate your interest in providing more flexibility to 
states, if a future version of the ESEA will continue to establish 
national priorities--as the Student Success Act clearly does for 
reading and math--it is critical that science testing be retained.
A Strong Federal Focus on STEM Education is Essential to a Strong U.S. 
        Workforce, Economy
    The Encouraging Innovation and Effective Teachers Act would 
eliminate the U.S. Department of Education's only existing dedicated 
STEM education-focused program--the Math and Science Partnerships 
program (Title II, Part B). While we recognize the bill's goal of 
streamlining a myriad of education programs, we disagree with the 
absence of any strong STEM education focus for Title II grants or any 
significant linkage between Title II activities and workforce needs.
    We support a provision in the bipartisan Harkin-Enzi Senate ESEA 
draft bill that addresses STEM-specific education needs through a 
single competitive grant program (Sec. 4103) that would require state 
applicants to demonstrate that their proposals had robust input from 
the business community and other workforce stakeholders. Our Coalition 
also strongly supports the underlying stand-alone bill (S. 1675) 
introduced by Sen. Merkley upon which Sec. 4013 is based as a balanced 
approach of competitive and formula-based funding dedicated to meet the 
STEM-specific needs of U.S. schools.
    The STEM Education Coalition also aggressively supports 
comprehensive efforts to coordinate, evaluate, and review all federal 
STEM programs on a regular basis to ensure that effective programs are 
scaled up and that underperforming programs are improved or eliminated.
STEM and the Definition of Core Academic Subjects
    While we appreciate that math and science are included in the 
Student Success Act's definition of ``core academic subjects,'' we feel 
that this definition is overly narrow and static, excluding many areas 
of study that are essential to the needs of the economy and workforce. 
Instead, the broader ``STEM subjects'' should be listed as a core 
subject area, with a provision for defining STEM education in a broad 
and inclusive manner that embraces each STEM discipline and its unique 
needs.
    Given the strong connections between STEM skills and the job 
success of American workers, a strong focus on the STEM-specific needs 
of students, schools, and educators is essential to the practical 
success of education reforms.
    In conclusion, while we agree with you that ``we can't wait'' for 
education reform, we also cannot ``win the future'' without maintaining 
STEM education as a national priority. We look forward to working 
closely with you and your colleagues in both parties on the Committee 
as you reauthorize this critical law. If we may offer any additional 
assistance, please contact us through James Brown, our Coalition's 
Executive Director at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4beb2b6a6bba3ba94a7a0b1b9b1b0b7bbb5b8bda0bdbbbafabba6b3">[email&#160;protected]</a> or (202) 223-1187. 
Thank you.
            Sincerely,
                                 American Chemical Society;
   American Society for Biochemistry and Molecular Biology;
                              American Society of Agronomy;
                       American Society of Civil Engineers;
                American Society for Engineering Education;
                                                      ASME;
                       Association for Computing Machinery;
    ASTRA, Alliance for Science and Technology Research in 
                                                   America;
                       Campaign for Environmental Literacy;
                           Crop Science Society of America;
                        Education Development Center, Inc.;
                              Hands on Science Partnership;
                                                  IEEE-USA;
                     National Science Teachers Association;
                           Soil Science Society of America;
                                American Geophysical Union;
                                 American Physical Society;
                          American Statistical Association;
                              Arc Capital Development, LLC;
                  Association of Science Materials Centers;
                                                      BSCS;
                          California STEM Learning Network;
               Chicago Educational Publishing Company, LLC;
                                Chicago Science Group, LLC;
                     Computer Science Teachers Association;
                                           EAST Initiative;
                                  Ecocad Design Group, LLP;
                             Ecological Society of America;
                             Engineers Without Borders-USA;
                                   Funutation Tekademy LLC;
                                         LearnOnLine, Inc.;
                                     Lyra Enterprises, LLC;
        Maine Center for Research in STEM Education (RiSE);
      National Council for Advanced Manufacturing (NACFAM);
     National Council of Structural Engineers Associations;
                National Society of Professional Engineers;
                   National Institute of Building Sciences;
                                                       PBS;
                                Pico Turbine International;
    Six-to-Six Interdistrict Magnet School, Bridgeport, CT;
                                Society of Women Engineers;
      South Carolina's Coalition for Mathematics & Science;
                                      SparkFun Electronics;
            STEM Education Center, University of Minnesota;
                            Technology Student Association;
                             Vernier Software & Technology.
                                 ______
                                 
                                                 February 13, 2012.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
    Dear Chairman Kline: We, the undersigned providers and advocates 
for high quality after school, summer, and expanded learning programs 
in California, write to thank you for introducing the Encouraging 
Innovation and Effective Teachers Act as part of your continuing effort 
to reauthorize the Elementary and Secondary Education Act (ESEA). 
However, we have serious concerns about your legislation and must 
express our strong opposition to provisions in the Encouraging 
Innovation and Effective Teachers Act that would consolidate the 21st 
Century Community Learning Centers (CCLC) program as part of the 
proposed Local Academic Flexible Grant. In addition, we are 
disappointed that provisions to require community-based partners were 
not maintained from your previously released discussion draft.
    The 21st CCLC program supports the creation of community learning 
centers that provide critical academic enrichment opportunities during 
non-school hours for children, particularly students who attend high-
poverty and low-performing schools. The program helps students meet 
state and local student standards in core academic subjects, such as 
reading and math; offers students a broad array of enrichment 
activities that can complement their regular academic programs; and 
offers literacy and other educational services to the families of 
participating children. For example, a 2011 UCLA study found that 
students who participated in LA's BEST after school programs in their 
elementary school years demonstrated gains in both math GPA and 
standardized test scores in 8th grade. Additionally, higher levels of 
participation in LA's BEST led to higher science and history GPA in 8th 
grade.
    In light of the demonstrated impact of our programs on student 
engagement and achievement, we are concerned that the Local Academic 
Flexible Grant (Part B, of Title III of the Encouraging Innovation and 
Effective Teachers Act) consolidates this successful program that 
currently serves over a million students and is the only federal 
education funding stream that is solely dedicated to supporting before 
school, after school, and summer learning programs.
    Therefore, we strongly recommend that the Encouraging Innovation 
and Effective Teachers Act maintain a separate funding stream for the 
21st CCLC program under the same structure as current law of ESEA.
    In addition to maintaining a separate 21st CCLC program under the 
Encouraging Innovation and Effective Teachers Act, we believe that 
efforts to broaden the scope of the program through expanded learning 
during the school day can have a positive impact if such activities are 
done in close collaboration with community partners and with local 
investment.
    Accordingly, we recommend that the 21st CCLC program be 
reauthorized so that it better supports the highest-quality learning 
and enrichment programs to promote full day or year learning 
strategies. In order to achieve that goal, we believe the program 
should be updated to:
    <bullet> Ensure that local communities have full authority without 
state or federal preference or direction to make their own decisions 
about whether to use 21st CCLC funds for (1) after-school, (2) summer 
learning programs, (3) before school, and/or (4) expanded learning 
programs;
    <bullet> Require partnerships between school districts and 
community-based partners, in which either the community-based partner 
or the school district can be the lead fiscal agent;
    <bullet> Ensure providers integrate academics, enrichment, and 
skill development through hands-on experiences that make learning 
relevant and engaging;
    <bullet> Allow programs to serve all students or focus on groups of 
students to best meet the needs of the school and community;
    <bullet> Fund programs that offer a range of activities that 
capture student interest and strengthen student engagement in learning, 
which promotes higher class attendance, reduces risk for retention or 
drop out, and increases chance for graduation; and
    <bullet> Support programs that actively address the specific 
learning needs and interests of all types of students, especially those 
who may benefit from approaches and experiences not offered in the 
traditional classroom setting.
    Unfortunately, too many children across the country do not have 
access to high quality expanded learning opportunities. That is why 
dedicated, federal funding for the 21st CCLC program is necessary if we 
truly want to improve academic achievement, reduce the dropout crisis, 
and turn around our nation's low-achieving schools.
    Thank you for your consideration of our recommendations. Please 
contact Jennifer Peck at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fc5eae1e1e6e9eafdcfffeefdfbe1eafde9e0fdece7e6e3ebfdeae1a1e0fde8">[email&#160;protected]</a> or call (510) 
830-4200 x1601, if you would like further information or have any 
questions regarding our recommendations.
            Sincerely,
                                  Ben Paul, President &CEO,
                                            After-School All-Stars;
                            Ana Campos, Executive Director,
                               After-School All-Stars, Los Angeles;
                          Mario Vargas, Executive Director,
                                   Bay Area After-School All-Stars;
                               K.J. Lavoie, State Director,
                       California Alliance of Boys and Girls Clubs;
                   Ruth Obel-Jorgensen, Executive Director,
                                  California School-Age Consortium;
                              Catherine Barankin, Director,
                                California State Alliance of YMCAs;
                                            Chris Roe, CEO,
                                  California STEM Learning Network;
                             Kim Boyer, Executive Director,
                             Central Valley Afterschool Foundation;
                                    Ted Lempert, President,
                                          Children Now, California;
                           Carla Sanger, President and CEO,
                                                       L.A.'s BEST;
                         Jennifer Peck, Executive Director,
                                Partnership for Children and Youth;
                                         Vernon Brown, CEO,
                                 Sunset Neighborhood Beacon Center;
                                   Sarah Mostofi, Director,
                                         The Children's Initiative;
                              Randy Barth, Founder and CEO,
                  THINK Together, L.A., Orange, Riverside Counties;
                                Chris Johnson, Interim CEO,
                                    Woodcraft Rangers, Los Angeles.
                                 ______
                                 
                                                 February 13, 2012.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
RE: NCAI and USET Comments on the Student Success Act (H.R. 3989) and 
        the Encouraging Innovation and Effective Teachers Act (H.R. 
        3990)

    Dear Chairman Kline: On behalf of the National Congress of American 
Indians (NCAI) and the United South and Eastern Tribes (USET), we would 
like to congratulate the US House of Representatives Committee on 
Education and the Workforce for taking an important step in 
reauthorizing the Elementary and Secondary Education Act (ESEA) with 
the recent release of its two new bills, the Student Success Act (H.R. 
3989) and the Encouraging Innovation and Effective Teachers Act (H.R. 
3990). While Indian Country is excited about certain aspects of the 
bills, we have serious concerns about the legislation as it is 
currently written.
    NCAI and USET represent tribal governments and education systems 
serving the children of more than five million Native people throughout 
the country. Tribes have an enormous stake in the education of our 
Native children, and we agree with the Committee that the No Child Left 
Behind Act (NCLB) is in need of dramatic reform. The NCLB has done 
little to address the longstanding challenges facing American Indian 
and Alaska Native education, as is clearly demonstrated by the fact 
that over the past ten years, our Native students have been the only 
population to have not improved in reading or math (grades four and 
eight).\i\ Nationwide, our students face some of the lowest high school 
graduation rates, and even fewer enroll in and graduate from 
college.\ii\ Indian education is in nothing less than a state of 
emergency, and tribes have long awaited the opportunity to partner with 
Congress to take bold action that will significantly improve our 
education systems.
---------------------------------------------------------------------------
    \i\ U.S. Department of Education, Institute of Education Sciences, 
National Center for Education Statistics, National Assessment of 
Educational Progress (NAEP), 2005, 2007, and 2009 National Indian 
Education Studies.
    \ii\ US Census Bureau, American Community Survey 2005-2009 
estimates.
---------------------------------------------------------------------------
    Indian Country applauds the Committee's focus on promoting 
flexibility, streamlining programs, and reducing regulatory burdens. In 
fact, I highlighted these very topics as critical tribal priorities in 
my 2012 State of Indian Nations Address at the end of January. I called 
upon Congress and the Administration to empower tribes with the 
resource flexibility to concentrate on program development and 
outcomes, rather than on the administrative burdens often inherent in 
utilizing federal programs. This flexibility can be accomplished by 
streamlining tribal programs and, in many cases, by making tribes 
eligible for existing funding streams. The Student Success Act takes an 
important step forward in this regard by making the Bureau of Indian 
Education eligible for competitive grant programs--a top priority for 
tribes in the ESEA reauthorization. Ensuring governmental flexibility 
for tribes will yield more efficient programs and spending because 
decisions will be made by those in the best position to respond to 
community needs.
    In the same vein, we welcome the Committee's emphasis on local 
control over education. Strengthening local, tribal control over the 
education of our Native students has been a tribal priority for decades 
and is currently one of our top priorities for the ESEA 
reauthorization. Tribal governments are in the best position to address 
the educational needs of our Native students for a simple but intuitive 
reason: we know our children and communities the best. We know where 
the needs are, and we know what works for our students. In this area in 
particular, we appreciate that the Student Success Act contains new 
provisions directing local educational agencies to collaborate with 
tribes in the development of comprehensive Indian education programs 
and to share data about Native students' academic progress with tribes.
    Despite these important strides forward, Indian Country has serious 
concerns about the Student Success and Encouraging Innovation and 
Effective Teachers Acts. The two bills, as they are currently written, 
could potentially abrogate the federal trust responsibility to American 
Indians and Alaska Natives, decrease crucial funding and programs for 
our Native students, and eliminate the accountability measures that 
help ensure our children have equitable educational opportunities.
    The legislation potentially abrogates the federal trust 
responsibility: While we appreciate the Committee's intention to 
advance local control and flexibility in education, the Committee's new 
bills propose to accomplish these goals in a manner that potentially 
abrogates the federal trust responsibility. The federal government's 
trust responsibility to tribes--a sacred obligation codified in 
treaties, the U.S. Constitution, U.S. Supreme Court and federal cases, 
and statutes--includes a duty to educate our Native children. However, 
in striking Title VII--the Indian, Native Hawaiian and Alaska Native 
Education title--and merging the ESEA's Indian education programs into 
Title I, the Student Success Act would severely undercut this trust 
responsibility by enabling states to divert funds intended for Native 
students for other purposes.
    Native nations have fought for decades to teach and learn in ways 
that respect our cultures, languages, values, histories, and 
traditions. Current data and research demonstrates that targeted 
funding for Indian education improves academic achievement, revitalizes 
our languages, and strengthens Native self-respect and identity. 
Federal funds dedicated to Indian education--largely through Title 
VII--are the primary source of support that specifically addresses the 
academic, cultural, social, and linguistic needs of Native students. 
Furthermore, programs like Title VII were established expressly because 
states and districts were not providing such services to Native 
students. Providing these services is not an option--it is part of the 
trust responsibility to give Native students the highest quality 
education possible. States cannot be allowed to break this obligation 
and re-direct funds away from Native children at their discretion.
    The legislation potentially decreases crucial funding and programs 
for our Native students: As stated above, the bills potentially 
decrease the amount of resources flowing to our Native students by 
removing the guarantee that states spend the federal dollars 
specifically allocated for Indian education on Indian children. But the 
legislation also explicitly eliminates many other critical Indian 
education programs, including:
    The Alaska Native Education and Native Hawaiian Education Equity 
Programs: These two programs support supplemental educational programs 
and services for Alaska Natives and Native Hawaiians by awarding 
competitive grants for a variety of vital activities, including 
curriculum development and implementation, teacher training, special 
education, gifted and talented education, family literacy services, and 
community-based learning centers. Because the need is so great in 
Alaska Native and Native Hawaiian communities, these two programs are 
not duplicative of other Title I services and are essential to closing 
the achievement gap for these Native groups. As such, the Alaska Native 
Education and Native Hawaiian Education Equity programs cannot be 
eliminated in the ESEA reauthorization.
    National Indian Education Study: Administered as part of the 
National Assessment of Educational Progress, the National Indian 
Education Study examines the academic achievement and educational 
experiences of Native students in grades four and eight. As one of the 
only national studies that even includes data on Native students, the 
National Indian Education Study is imperative to assisting Native 
nations, states, and schools in making data driven decisions about the 
education of our Native children. It must be maintained in the ESEA 
reauthorization.
    Other ``National Activities'': The Student Success Act eliminates 
every Indian program listed under ``National Activities'' in current 
law. The fact that these programs have not been recently funded is not 
an acceptable justification for eliminating their authority entirely 
within the ESEA reauthorization. Tribes fought for the authorization of 
these programs years ago and continue to argue that they should be 
funded as a part of the fulfillment of the trust responsibility.
    The legislation potentially eliminates the accountability measures 
that help ensure our Native children have equitable educational 
opportunities: While the bills continue to require states to 
disaggregate subgroup data and assess all students, the legislation 
eliminates performance targets and leaves it up to states' discretion 
whether to hold schools accountable for the performance of low-income 
students, students of color, and other subgroups. Such provisions have 
a troublesome history that Native students cannot afford to repeat. The 
last time the federal government left accountability completely to the 
states, only two states included the performance of individual groups 
of students in their systems; two-thirds decided to do nothing. The 
rest took action in name only, setting targets too low or too vague to 
meaningfully drive improved student achievement.
    Native children cannot withstand the risk of having states set low 
academic expectations and then allowing schools to do little or nothing 
to address their overwhelming academic disparities. Federal funding 
must be attached to firm, ambitious, and unequivocal demands for higher 
achievement, improved high school graduation rates, and progress in 
closing both achievement and opportunity gaps. The ESEA reauthorization 
must, at minimum, require states to set clear goals and provide 
adequate instructional support so that all students receive an 
education that prepares them for success in college and careers.
    We are confident that with your support and by working together, 
our concerns can be remedied. Tribal governments stand ready to partner 
with you in moving ESEA reauthorization forward to improve the 
education of all of our nation's children.
            Sincerely,
                                 Jefferson Keel, President,
                             National Congress of American Indians.
                                Brian Patterson, President,
                                   United South and Eastern Tribes.

    Reauthorization of the ESEA: Indian Country Key Recommendations

    Indian nations have the largest stake in improving the education of 
their citizens. We must prepare them for active and equal participation 
in the global market. We must prepare them to be citizens in the 21st 
century. We must prepare them to be positive, involved members of our 
communities. And, most importantly, we must prepare them to be the 
future leaders of our governments. There is no more vital resource to 
the continued existence and integrity of Indian tribes than their 
children.
    Education policies over the last few decades have supported tribes 
exercising sovereignty over education programs serving American Indian 
and Alaska Native children. We are looking forward to this trend 
continuing during this reauthorization and strongly support the current 
efforts of Congress and the Administration in ensuring that the needs 
of Indian students are considered from the beginning of the drafting 
process. To that end, we offer the following key recommendations.
Key recommendations
            1. Strengthen Tribal Control of Education
    <bullet> Require States to enter into collaborative agreements with 
tribes.
    In order for tribes and their tribal education agencies (TEA) to 
build capacity and better serve their citizens, States must recognize 
tribal authority over the education of their students. Upon request, 
States should negotiate with tribal governments to transfer education 
programs, funding, services, and administrative responsibilities to the 
tribes. The Department of Education would both facilitate and foster 
the cooperation of the State and the tribes in these agreements through 
financial penalties of Title 1 funding. For example, TEAs should be 
empowered to implement their own school improvement plan via the 
accreditation process. Additionally, tribes should be given funds to 
build capacity for their education departments in the same ways as 
States and districts.
    <bullet> Statutory collaboration between local education agencies 
and tribes.
    92% of Indian students attend public schools, making collaboration 
between the local education agency (LEAs) and the tribe essential in 
developing a comprehensive plan for Indian student achievement. LEAs 
should develop, in consultation with the local tribe, a plan to improve 
the coordination of activities, specifically relating to Title I.
    <bullet> Improve data collection and sharing of data with tribes.
    Data for Indian students is often incomplete. There are a number of 
reasons for this--including our incredible diversity which necessitates 
oversampling to achieve generalizability, our remote locations, and 
language barriers. A first step should be to build upon the already 
existing Migrant Student Information Exchange (MSIX) system. This 
system will allow for proper enrollment and placement of Indian 
students, while providing an opportunity for the development of a 
complete data collection system to track complete Indian student 
records.
    <bullet> Restore Director of Indian Education to Assistant 
Secretary for Indian Education.
    The current position for the Director is underutilized and 
functions almost exclusively as a grant manager. This position and 
office must be elevated so that there is authority to engage in all 
titles of the ESEA that impact Indian student education. The Assistant 
Secretary of Indian Education should also be authorized to facilitate 
interagency collaboration and to implement the role of the TEAs in 
various titles.
            2. Invest in Cultural and Language Revitalization
    <bullet> Use of culturally-based education as a promising practice 
in public schools.
    Culturally-Based Education (CBE) is a teaching model that 
encourages quality instructional practices rooted in cultural and 
linguistically relevant context. We recognize, however, that there is 
little quantitative data to point to, so tribes are calling for CBE to 
be identified as a promising practice in Indian education and for 
programs to be funded longitudinally so we can effectively build an 
evidence base that conclusively distinguishes what works for which 
populations and under what circumstances.
    <bullet> Formula grant program for immersion schools, culturally 
based charter schools, and early childhood centers. It is largely 
recognized that the best way to learn a language is to fully immerse 
oneself. While we have limited statistical data showing that Native 
language instruction directly improves academic success, there is a 
large body of qualitative data that shows correlation of Native 
language instruction to factors that do improve academic success. 
Therefore it is critically important to have sustainable funding for 
research that will demonstrate this statistical correlation.
            3. Focus on Native Teachers, Administrators, and Leaders
    <bullet> Pay programs for teachers in Indian Country.
    Indian Country faces some of the highest teacher turnover rates in 
the Nation--tough working conditions, few amenities, and a lack of job 
opportunities for spouses are but some of the challenges our teachers 
face. A pay program for teachers is needed to provide higher salaries 
for those that work in Indian Country. This should include a scaled 
program to incentivize long term employment in Indian schools.
    <bullet> Strengthen and Expand Native Teachers and Administrators 
Preparation Program.
    Reauthorize and increase annual funding for the Department of 
Education's Professional Development for Teachers and Administrators 
program [20 U.S.C. 7442] and the In-service Training for Teachers of 
Indian Children program [20 U.S.C. 7452], which provide vitally needed 
support for programs that prepare, train, and provide ongoing 
professional training for teachers and administrators currently working 
in or planning to working at tribal schools or schools with a high 
concentration of Indian students. Tribal colleges and universities, 
which are chartered by sovereign Indian nations, and consortia led by 
or including tribal colleges, should be recognized as the primary 
awardees. Specific authority and funding should be provided for special 
education teacher preparation and training; and the existing 
authorities should be amended to include specific credentialing program 
for classroom aids and a requirement for fieldwork in Indian schools.
            4. Promote Intra-Agency Coordination and Collaboration
    <bullet> Statutory collaboration between the Department of the 
Interior and the Department of Education.
    Increased collaboration should include training and technical 
assistance for Bureau of Indian Education (BIE) staff, use of 
alternative assessments for tribal schools, assistance in curriculum 
selection, and instructional practices.
    <bullet> Include express statutory language to make funding 
available for the BIE schools (either overarching the Act or within 
each ESEA program).
    Without express statutory language, our BIE school system will be 
unable to participate or receive much-needed funding. The most recent 
example of this lies in the ineligibility of BIE for ``Race to the 
Top'' grants.
            5. Consultation
    <bullet> Establish a tribal advisory committee to advise the 
Secretary of the Interior on policy issues and budget development for 
the BIE school system.
    There has never been a formal, established mechanism for tribally-
operated schools to raise issues and provide substantive advice to the 
Secretary on an on-going basis--especially on development of the budget 
request for programs serving BIE schools. Since the schools in the BIE 
system are the sole responsibility of the Federal Government, the 
Secretary of the Interior should be consulting closely and regularly 
with representatives selected by the tribes and the tribal school 
boards who operate those schools to learn directly from them about 
their needs and hear ideas about how to fill those needs.
    <bullet> Increase on-the-ground resources and provisions from the 
BIE for the schools.
    Schools in the BIE system struggle on a daily basis to provide a 
quality education to Indian students with insufficient funding to 
accomplish their mission. Specific direction should be given to the 
Secretary of the Interior to fund BIE schools on the amount of need, as 
regulated at 25 CFR Part 39, Subpart H.
    For additional information, please contact: Ahniwake Rose, Policy 
Director, NCAI at 202.466.7767 or Colin Kippen, Executive Director, 
NIEA at 202.544.7290.
                                 ______
                                 

                 Equity in Education for All Students:
                     How the House Bills Fall Short

    The National Education Association, representing more than three 
million educators across the nation, has a long and proud history of 
fighting for educational equity--to ensure every student, regardless of 
poverty, disability, or other challenges, access to a quality 
education. NEA believes that all students have the human and civil 
right to a quality public education and a great public school that 
develops their potential, independence, and character. But, more than 
50 years after the historic Brown v. Board of Education ruling, too 
many students are still banished to unequal schools and a lifetime of 
lost opportunities. The federal government must be engaged in these 
issues, to hold states accountable for remedying these untenable 
inequities.
    We must remember the days before ESEA when generations of children 
were denied the basic educational opportunities they deserved. We must 
judge proposals on whether they will strengthen our educational system, 
or whether they will move us backward. We must find an appropriate 
balance of federal and state roles by refocusing on strong state 
accountability systems while continuing to maintain a sharp federal 
focus on equity across state and district lines.
    The House draft bills fail to address equity issues adequately. The 
House proposals do not push states enough to narrow achievement gaps; 
provide equal access to quality education; and ensure that state 
standards and assessment and accountability systems work for students. 
The proposals also lack a comprehensive plan to address existing 
inequities in public education that harm students and communities, 
particularly students and communities of color. In particular, NEA is 
very concerned about gaps affecting equity, access, and opportunity in 
the following areas:
    <bullet> Vouchers and privatization. The proposals inappropriately 
and dramatically expand private school authority over allocation and 
use of public funds. There is a push to privatize education by shifting 
control to private schools, private for-profit entities, and business.
    <bullet> Maintenance of effort. The proposals would eliminate 
Maintenance of Effort. This will trigger a race to the bottom in state 
and local support for public education, often under the guise of fiscal 
distress. The driving principle behind Title I would be upended, as 
federal dollars would be reduced to backfilling holes in state and 
local support for economically disadvantaged children and those 
academically behind rather than augmenting those dollars to ameliorate 
the effects of poverty and other factors.
    <bullet> Funding. The proposals provide significant new flexibility 
for districts and states to transfer money aimed at special 
populations--such as English Language Learners, American Indians/Alaska 
Natives, or neglected students--for other uses. This could undermine 
the historical federal role of ensuring equal opportunity for all 
children in these special populations. In addition, the bills offer 
states and local districts a trade-off--fewer programs and greater 
flexibility in exchange for less money. Simply put, there would not be 
enough funding for the supports and resources necessary to close 
achievement and opportunity gaps and ensure equity for all. Programs 
proven to help close these gaps would remain significantly underfunded 
and not able to provide full services to all students who need them.
    <bullet> Annual tests. The language continues NCLB's focus on 
measuring schools and students through annual standardized testing in 
grades 3-8, rather than focusing on the broad supports schools and 
students need to improve the achievement of the disadvantaged. Grade 
span testing would provide more time for learning, more flexibility, 
and more useful data to help students achieve.
    <bullet> Teacher quality. The proposals eliminate all focus on 
quality of teachers coming into the profession. In addition, they 
diminish targeting of Title II (teacher quality) funds to students who 
are in poverty, despite the fact that teacher quality should be 
enhanced and supported even more vigorously in schools in low-income 
communities. A focus on teacher quality is particularly important in 
high poverty communities, as too often these schools are filled with 
the most inexperienced and least skilled teachers.
    <bullet> School improvement. While the proposals wisely increase 
the school improvement set-aside at the state level to 10 percent and 
eliminate the four turnaround models; they go too far in re-balancing 
the federal role. The language includes no federal program specifically 
designed to support and help improve low-performing schools, and lacks 
enforcement provisions to ensure that school improvement plans are 
strong, robust, comprehensive, and are implemented with fidelity.
    <bullet> English Language Learners. The proposals merge Title III 
(English Language Learners) into Title I, which could lead to a loss of 
national focus on English Language Learners.
    <bullet> Charter schools. The proposals reflect a weak and 
inadequate approach to transparency and accountability in charter 
school operations. Charter schools must be held to the same 
accountability standards as other public schools, and should have to 
answer to parents and taxpayers for all of their funding sources.
    <bullet> Class size. The proposals limit class size reduction 
efforts to 10 percent of Title II (current use is about 38 percent). 
Research indicates that those students benefiting the most from class 
size reduction efforts are disadvantaged students in the early grades. 
If this funding is capped, local districts may not continue paying 
educators previously funded through federal class size reduction funds, 
leading to a direct decrease in services provided to students most in 
need.
    <bullet> Early education. The proposals lack a focus on early 
education, a proven component of closing achievement gaps and ensuring 
a quality education for children.
    <bullet> Comprehensive quality education. The proposals continue 
the current curricular focus on English and mathematics, and do not 
address concerns regarding the narrowing of the curriculum.
                                 ______
                                 

                         New America Foundation

        House ESEA Bill Would Lift Title I Spending Requirements

           Jennifer Cohen <bullet> Published January 24, 2012

Issues: Title I, Low-Income Students, Education
    The recently-released House ESEA draft reauthorization bill makes 
substantial changes to the federal role in public education. Among 
other changes, the proposal significantly loosens requirements on how 
states and local school districts can spend education dollars. While 
more state and local control is a popular mantra, we would like to 
offer a few words of caution on a few provisions in the House bill. 
Mainly, these changes to existing law would essentially allow states 
and school districts to use federal funds previously intended to 
benefit specific, high-need populations however they see fit without 
requiring consistent state and local support.
    1. First, the bill would move several existing programs to Title I, 
Part A of the law. These programs, which provide specific funding 
streams to local school districts for services for migrant students, 
neglected and delinquent students, English language learners, rural 
students, and Indian education, would be moved to the same section that 
funds grants for low-income students. Currently, these programs are 
authorized and funded under various titles and subparts of NCLB 
separate from Title I, Part A. This change would enable Congress to 
provide a single appropriation for all Title I, Part A programs, 
blurring the lines between funding for the programs. Under the bill 
these five programs would total 9.0 percent of the annual Title I Part 
A allocation, which would be set at $16.7 billion for 2013.
    At the same time, the bill includes a ``flexibility'' provision 
that would allow states and school districts to merge funds from these 
five programs, as well as set-asides for state administration and 
school improvement, and use them for any purposes covered by those 
programs or Title I, Part A Education for the disadvantaged. Under 
current law, states and districts are only allowed to transfer up to 50 
percent of funds allocated under the Education Technology program 
(which is not funded in current law), the Safe and Drug-Free Schools 
program, and the school choice program into their Title I, Part A 
accounts. The five programs listed in the proposed flexibility 
provision are not included in any current flexibility provisions. Under 
the House proposal, states would have to notify the U.S. Department of 
Education and school districts would have to notify their state 
agencies if they intend to use any of the funding streams for 
alternative purposes. However, the proposal does not explicitly require 
states or districts to report how they repurposed the funds, what they 
were used for, or what programs or services were eliminated due to the 
flexibility.
    By allowing states and districts to merge funds from several 
funding streams targeted for specific high-need populations, the House 
bill would give them license to overlook the needs of some students in 
exchange for others. While giving state and district leaders more 
autonomy and control over federal funds to tailor services to their 
students' needs is important, these specialized federal programs exist 
to serve students that are typically ignored.
    2. Next, the House bill would allow any school that receives Title 
I, Part A funds to provide school-wide services, regardless of the 
percentage of students living below the poverty line, at that school. 
Currently, the No Child Left Behind Act only allows schools with 
poverty rates over 40 percent to use their Title I funds to provide 
school-wide services. This program is based on the assumption that all 
students at schools with such high poverty rates would benefit from 
additional services. In contrast, schools with poverty rates below 40 
percent can use their Title I funds to implement interventions and 
services targeted just to eligible low-income students. Although the 
proposal would maintain the separate Targeted program, it seems 
unlikely that schools would opt to continue targeted programs when they 
could spread the funds among their whole population.
    By eliminating the poverty threshold for school-wide programs, the 
bill would allow schools with relatively small low-income populations 
to use their Title I, Part A funds to provide services to their entire 
student population, the majority of which would not otherwise be 
eligible for interventions or additional services. Those schools would 
no longer have to provide targeted services to just their high-need 
students, meaning these students could get lost or overlooked in the 
shift.
    3. Finally, as we've written before, the House bill would eliminate 
the maintenance of effort provision of Title I, allowing state and 
local governments to cut per pupil or overall funding for education for 
districts but remain eligible for Title I funding. Current law allows a 
local school district to receive Title I Part A funds in an upcoming 
year only if state and local governments provided the district with at 
least 90 percent of the funding (per pupil or overall) that they 
provided in the preceding year. In other words, a district that 
received $8,000 per pupil in 2010 in state and local funds, must have 
received at least $7,200 per pupil (90 percent of $8,000) in 2011 to 
receive Title I funds in 2012.
    Assuming that states and local governments would take advantage of 
this change and cut their education funding, federal funds could begin 
to account for a much higher percentage of per pupil education funding 
(currently around 10 percent). It is somewhat ironic that lawmakers 
that typically support limiting the federal role in education would 
support a bill that has the potential to increase the percentage of 
education spending the federal government supplies while allowing state 
and local governments to cut their own spending.
    Each of these changes would have a great impact on how states and 
school districts are held accountable for the use of federal Title I 
funds. But all together they would allow states and school districts to 
dramatically change how they use federal funds for education, 
practically turning Title I into an all-purpose block grant. These 
changes, in the name of local control, could make the nation's highest-
need students more vulnerable than ever.
                                 ______
                                 
Back to this item

              Denying Poor Children an Equitable Education
   Conservatives' Student Success Act Guarantees Anything but Success

                  By Raegen Miller, February 15, 2012

    Conservatives in the House of Representatives are at it again, 
trying to gut spending for those children in our nation who need extra 
help getting the education they need to succeed in the 21st century. 
Rep. John Kline (R-MN), chairman of the House Committee on Education 
and the Workforce, introduced the thoroughly misnamed Student Success 
Act earlier this month--the latest partisan attempt to repurpose the 
Elementary and Secondary Education Act that has done so much to ensure 
federal education funds go to the high-poverty schools that need the 
most help.
    Rep. Kline's bill would go a long way toward turning the law's 
largest program, Title I--which provides federal funding for high-
poverty elementary and secondary schools--into a block-grant program by 
dispensing with Title I's ``maintenance-of-effort'' provision. Title I 
maintenance of effort requires that in a given year states and 
districts receiving Title I funds spend 90 percent of what they spent 
from nonfederal sources in the previous year. This ensures that states 
and school districts do not shortchange high-poverty schools by 
shifting federal funds toward other purposes.
    Rep. Kline's Student Success Act has other shortcomings, too, but 
the idea of dropping the maintenance-of-effort provision is 
particularly ill advised. It would be one more step advocated by House 
Republicans toward dismantling longstanding federal provisions that 
ensure equitable education for all of our children. House Republicans 
claim they are taking this action to help states cope with budget 
shortfalls and to restore states' rights over education spending. But 
the results would harm our poorest children and squander federal 
taxpayer dollars to boot.
Tough times
    The first argument put forth by proponents of dropping maintenance 
of effort puts this danger in full relief. Conservatives inaccurately 
contend that states and districts need this kind of assistance in 
``struggling with budget shortfalls.'' This argument would be stronger 
if maintenance of effort was not already fully equipped to offer 
temporary relief to states and districts receiving Title I funds. The 
requirement can be waived in the event that states and districts suffer 
sudden and severe drops in revenue, and this safety valve rides on top 
of an existing and extraordinary 10 percent cushion for agencies facing 
tough times.
    Take Minnesota. The economic shock absorber inherent in the 90 
percent maintenance-of-effort threshold is hard to miss. Below we show 
how Minnesota, home state of Rep. Kline, already has room to cope with 
economic woes without enduring penalties to its Title I allocation. 
Figure 1 shows Minnesota's current expenditures on education from 
nonfederal sources, in blue, and a cascade of hypothetically reduced 
expenditures from the 2000-01 school year to the 2008-09 school year. 
The important point here is that despite unimaginable reductions in 
education spending, Minnesota would have suffered no penalty at the 
hands of the maintenance-of-effort provision. (see Figure 1)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Invisible barrier
    The second misplaced argument for dropping the maintenance-of-
effort requirement is that it discourages states from constructively 
reducing education spending, for example by finding savings or 
improving efficiency. Yet the 90 percent spending threshold is blind to 
whether spending reductions are driven by revenue shortfalls or 
efficiency gains. Adherents of the argument are especially worried that 
states and districts, fearing maintenance-of-effort penalties, will 
fail to embrace technologies such as virtual schooling with some 
promise of radically reducing the cost of providing educational 
services with the same potency as the current mix of services.
    Optimism about schools' abilities to adopt cost-saving technology 
is a good thing, and the potential for radical cost savings is great. 
Moore's law--the number of transistors on a microchip doubles every two 
years--and the ever-falling cost of computing have had enormous impact 
on many industries. Yet there are many obstacles to implementing cost-
saving technologies--what economists call substituting capital for 
labor--in public education. Listing the Title I maintenance-of-effort 
requirement high among them borders on the credulous.
Straightjacket
    The third misconceived argument for dropping maintenance of effort, 
repeated by Rep. Kline at an American Enterprise Institute event 
celebrating the introduction of his Student Success Act, is that the 
requirement is tainted by a faulty premise--that more spending 
translates to better results. This argument has merit only as an 
example of the straw man fallacy.
    The relationship between inputs and outputs in education is 
notoriously fuzzy, and reasonable people can disagree about what the 
relevant body of evidence says on the matter. But this dispute has 
nothing to do with the purpose of the maintenance-of-effort 
requirement. The purpose of this provision is to prevent grantees from 
using Title I funds to support spending on public services other than 
education, or to offer tax relief.
    The relationship between the receipt of Title I funds and results 
in schools does, however, have a lot to do with the accountability 
provisions of the Elementary and Secondary Education Act. The Student 
Success Act would roll back accountability for academic results to the 
20th century, requiring few results from states in exchange for Title I 
funds.
Don't tread on me
    The final argument for stripping Title I of its maintenance-of-
effort provision is basically an ideological principle: ``The federal 
government should not dictate state and local spending decisions as a 
condition of receiving federal funds.'' By this rationale, no federal 
program should have a matching requirement, or condition for the 
receipt of federal funds in any way. Rep. Kline and supporters of the 
Student Success Act apparently believe that states and districts should 
be able to do as they please with their share of the $14.5 billion or 
so in annual appropriations for Title I.
    What would this mean in practice? Well, if a state wants to reduce 
its investment in elementary and secondary education in order to build 
a new prison, or provide tax relief, that's its business, or so the 
reasoning goes. Clearly the federal government has a role to play in 
safeguarding the interests of low-income students by creating some 
parameters around the receipt of federal funds targeting services to 
them.
The bottom line
    Pushing for block-grant distributions of federal funds to the 
states has gained substantial momentum in the House of Representatives 
in recent years. It seems sadly out of place next to rhetoric about 
fiscal responsibility, and it's certainly incompatible in the context 
of education spending with the original and current purpose of Title I 
funds--to enhance the educational experiences of children raised in 
concentrated poverty. A lot has changed since the Elementary and 
Secondary Education Act was passed in 1965, but poverty and achievement 
gaps remain serious problems.
    Stripping Title I of a requirement that ensures federal funds 
address educational inequity is dangerous because our nation's economic 
competitiveness and its democratic institutions need, more than ever, a 
well-educated citizenry. We should expect more from Congress in the 
reauthorization process.

    Raegen Miller is Associate Director of Education Research at the 
Center for American Progress.
                                 ______
                                 
                                                  February 9, 2012.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, 2181 Rayburn House Office 
        Building, Washington, DC 20515.
    Dear Chairman Kline: The Business Coalition for Student Achievement 
(BCSA), a coalition of leading chief executive officers, is pleased to 
see the U.S. House of Representatives moving forward with the long 
overdue reauthorization of the Elementary and Secondary Education Act 
(ESEA). BCSA appreciates the transparent nature of the process that you 
have used to solicit input on the Student Success Act and the 
Encouraging Innovation and Effective Teachers Act, and looks forward to 
working with the committee as it finalizes these bills through the 
legislative process.
    The nation must strengthen the education provided to its students. 
The U.S. Department of Labor reports that millions of jobs are going 
unfilled despite an historically high unemployment rate, and business 
leaders know why: too few American's are prepared for the jobs of 
today. What is worse, too little is being done to prepare students for 
the jobs of tomorrow.
    Federal education policy must support the success of all students 
by advancing key education principles, including:
    <bullet> college- and career-ready standards;
    <bullet> accountability for all students;
    <bullet> required action for all low-performing schools;
    <bullet> effective teachers and leaders;
    <bullet> choices for students attending low-performing schools; and
    <bullet> clear and transparent data for parents, businesses, and 
the community.
    The proposed bills represent progress in the area of teacher 
evaluation. However, overall, the legislation proposes a striking 
retreat from the principles of education reform that will position 
students to maintain America's competitive edge in the global economy. 
The Student Success Act, for example, virtually eliminates federal 
requirements for the improvement of low performing schools, takes away 
the ability currently given to students attending low performing 
schools to choose higher performing schools and access free tutoring, 
and asks virtually nothing in return for the billions of taxpayer 
dollars invested in the nation's schools.
    The nation's education system is failing to adequately prepare 
students for the workforce. This is demonstrated by data from the U.S. 
Department of Labor stating that 3.2 million jobs were unfilled in 
November 2011 despite an historically high unemployment rate. 
Similarly, McKinsey & Company reports that 40 percent of the 2,000 
businesses they surveyed had at least one position vacant for six 
months. The fact that positions go unfilled because applicants lack the 
skills necessary to fill them is an indictment on the education 
currently being provided to children, and a clear call for reform.
    BCSA calls specific attention to the failure of the Student Success 
Act to support the state-led effort that is currently underway to 
provide all students with a college- and career-ready education. While 
this legislation includes a requirement for standards--an important and 
appropriate provision to be included in federal law--the bill does not 
call for college- and career-ready standards. Further, it removes the 
requirement within current law for assessments in science. The nation 
needs more--not fewer--engineers, scientists, and experts in 
technology. At a time when other countries are growing their capacity 
for innovation by deepening their focus on education, the United States 
cannot afford to stifle its own potential by allowing anything less 
than college- and career-ready standards to drive K--12 education.
    The business community believes that there is a vital Federal role 
in ensuring accountability for academic performance and for 
safeguarding parents' and students' interests, which are too often lost 
in a maze of education bureaucracies. As the reauthorization process 
for ESEA continues, these proposals must be strengthened to ensure that 
all students have the opportunity to succeed. Additionally, it is 
critical that this reauthorization move forward in a bipartisan 
fashion. Education has historically been a bipartisan issue, and the 
best way to move forward is through substantive negotiations including 
both democrats and republicans. BCSA hopes that such bipartisan 
deliberations will produce a bill that can earn the support of the 
business community.
    Mr. Chairman, as you well know, education is at the core of the 
nation's economy. BCSA is eager to assist in any way possible to ensure 
the education system adequately prepares today's students for 
tomorrow's workforce.
            Sincerely,
                                             Craig Barrett,
         Retired Chairman and CEO Intel Corporation; Cochair, BCSA.
                                          William D. Green,
                                Chairman, Accenture; Cochair, BCSA.
                                        Edward B. Rust Jr.,
 Chairman and Chief Executive Officer, State Farm Mutual; Cochair, 
                                                              BCSA.
                                 ______
                                 
    Chairman Kline. Of course, without objection, all those----
    Mr. Miller. Thank you.
    Mr. Kildee's comments reminded me, when we were writing No 
Child Left Behind we inserted the idea that 95 percent of the 
students would have to take the test, and geez, people went 
crazy. They went haywire. States, districts, everybody went 
haywire.
    But the fact of the matter was that we know at that time 
that students were counseled--parents were counseled that you 
might want--if you need a doctor's appointment we are only 
testing today so take your son or daughter to the doctor. Field 
trips were organized to take selected groups of students off 
campus during testing.
    Parents with students with disabilities were told, ``You 
are only going to embarrass your student. This is terrible. He 
or she cannot do this work. You are going to embarrass them in 
the class. Why don't you keep them home or feel free to take 
them, what have you.''
    And that is why we have some of these guideposts. They seem 
onerous or what have you, but the fact of the matter is this is 
about every child in our system. And when I came to Congress if 
you were in a wheelchair you could not get into the classrooms. 
You were prohibited. It is not that you couldn't physically get 
into the classrooms; you were prohibited from going into those 
classrooms.
    The report of children out of school--if you were Hispanic 
in this country your chances of suspension, I don't know how 
many times. You were, in fact, in many instances, if you were 
an English learner and you--a Hispanic English learner--you 
weren't allowed in the school.
    I mean, these are where we come from. It is not that way 
today. Everybody here sitting here today will say, ``I don't 
recognize what you are talking about,'' but the fact is today--
and we know that tests were manipulated, governors who wanted 
to show--you know, were afraid about that third year of 
progress, or a superintendent wanted to change the exam so they 
could get a reset and start over.
    And we know that we whipped the top 25 percent of the 
students in this nation harder and harder and harder so we 
could say that average school had improved. We never asked the 
question about what happened to the students below average. And 
hence, No Child Left Behind.
    Now as we reconstruct it and now as we see this, if you 
will, education spring about the understanding of 
accountability, about the understanding of real assessments and 
what they can tell, the in-depth, get rid of these check a box 
and check a bubble here. That all has to go by the wayside. It 
is yesterday, as the kids would say.
    And you see states and you see districts embracing it and 
they are doing it under current law. But they shouldn't be the 
exception. And we struggle, as Mr. Balfanz says--how do we 
replicate this? How do we transmit this? How do we translate 
this to other districts?
    People tell us, ``You can't test art,'' and yet you are 
saying your students are tested. People say, ``I only teach to 
the test.'' That was the easy way out. I visited schools all 
over this country--schools that are 100 percent--almost 100 
percent English learning. The test, as you say, is incidental. 
It is like, that is what it is. We teach. We teach and they 
learn.
    But somehow that is considered a freak show because 
everybody else says, ``We can only teach to the test.'' Somehow 
you can't cross over in some schools. I have been on Indian 
reservations where English is taught and it is taught about the 
history of the tribe, the culture of the tribe, the biology of 
the tribe is incorporated, the reservation--the assets are all 
integrated. I see that in schools all over my district, but not 
in every school.
    ``No, no. This is the time to learn to read. You can't read 
this in history.'' Now again, this sounds foreign if you are 
out there on the horizon, right? Nobody would embrace this.
    But there is a lot of evidence that unless there are some 
sideboards, as you say, on this that this happens. It happens.
    You know, the suggestion is, well let's just leave it to an 
IEP. Let's not have a standard. Let's not require them to 
participate in the assessments for students with disabilities.
    We know the tension that exists inside a school when a 
student is recommended for additional education opportunities, 
recommended that he or she needs to be able to take the exam. 
And we see it in my state playing out where we used to pool 
them all at the--what is it, the N-size? Now it is the 1 
percent assessment and a dramatic rise in the number of 
students who are sent into those alternative assessments.
    We know it goes on out there and we want to encourage and 
get out of the way--now, I think that is what the secretary 
tried to say with waivers: Get out of the way of the states and 
the systems that want to ride out on the horizon, want to go to 
the future, don't want to be held back by a bubble test or that 
static measure of how this district is doing. But if we are 
going to have growth it has got to be growth somewhere.
    We tried it in my state and first of all it was--became 
growth to nowhere. And you could end up worse off at the end of 
the year and yet you could meet these standards. Got rid of 
that; we are now getting on track.
    So this is what this contest is about. It is not about 
federal or state; it is about making sure that that federal 
investment is, in fact, yielding a return for the entire 
society.
    And, you know, we see dramatic changes in the participation 
and the improvement and the--of students of disabilities in 
these exams. They are growing, in some cases, faster than the 
general population in terms of their improvements, in terms of 
the size of the improvements that are being made.
    That doesn't mean every child will be able to do that. That 
doesn't mean every child--the classroom will be an appropriate 
place.
    But we do see what early intervention means, so do we 
withhold early intervention when it reduces the number of 
children in special education, when it provides them an 
educational opportunity that would not otherwise be there? But 
a lot of parts of the country are not interested. A lot of 
districts aren't interested in that early intervention. They 
don't see how they can do it. They don't see how it can be 
done. And yet we see it--the return on that investment.
    This is really about maximizing the return on the 
investment of that federal dollar, and to go to places where 
you have made this decision ahead of us that this district has 
to be different, this state has to be different, we have now 
got to move. I remember when Colorado suggested for the first 
time that they were going to--they were going to monitor and 
keep track of where the migrant children were moving in the 
state, we went, ``Oh, geez, don't do that.'' Well, they 
realized that those students were showing up in schools and if 
you didn't know where they came from and you didn't know what 
they had accomplished how did you deal with them when they 
walked through your front door because their parents moved to a 
new locality?
    Now we consider that to be quite proper, except in this 
bill we kind of go back about what are we doing for migrants. 
And yet they are a very important part of your economy, and 
certainly our economy, and the Southeast's economy, and the 
Northeast's economy.
    So this is really about that reevaluation, that real 
assessment of what we should be doing. But it is not about 
giving up on those sideboards to keep it moving forward and 
because we saw what happened when we didn't address graduation 
rates. We saw what happened.
    Those children have paid a price. We now see those children 
borrowing money for remedial education at community colleges 
and state college systems. How can we justify a system where a 
graduate of high school has to borrow money to learn how to 
read at the 12th grade level?
    You know, we have got to have a conversation with that 
family. We have got to have a conversation with that school 
district. And we have got to enable people to do that.
    I mean, this just makes no sense in this day and age when 
families are under this kind of struggle and the opportunities 
for those young people when they complete their high school 
education--I mean, we give a high school exam in California, an 
exit exam from high school. Because there used to be a lot of 
patter in this town about, ``We have students graduating from 
high school who can't read their diploma,'' so we put in--you 
know, the people put in an exit exam.
    In California when you graduate from 12th grade we demand 
to know whether or not you can do eighth grade math and 10th 
grade reading. I want to know what the hell you did in your 
junior and senior year if that is the test. We could have saved 
taxpayers money by giving it in 10th grade and letting you go.
    See what is going on in these systems? Exit exam. Exit 
exam. This is the measure. It just doesn't measure the right 
thing. And that is not in the interest of our economy; it is 
not in the interest of the state school board; it is not in the 
interest of the governor.
    That is why we have--one of the greatest things about No 
Child Left Behind: it turned on the lights. And now if you 
think you want to run for a higher office you better be 
concerned about your local school district if you are a mayor, 
if you are a governor, if you are a superintendent, because I 
don't agree with the characterizations of these school systems 
under No Child Left Behind and that is a big driving force for 
what we are trying to change here, but that is the reality for 
those families. And I think they want to know how you are--how 
you are looking at this.
    I really appreciate this testimony today. I think it has 
been very, very important.
    I also believe that it also makes the case for substantial 
changes in the legislation that is before us. I hope we can 
accomplish them.
    Thank you very much.
    Chairman Kline. I thank the gentleman.
    We have been trying in this legislation, I believe, to 
achieve the balance that some of you have talked about today. I 
think that Mr. Miller is correct that No Child Left Behind had 
the very, very best of intentions. When President Bush was 
pushing it, when Mr. Miller was working on it, and Mr. Boehner, 
and Senator Kennedy, and others, they were--had the best of 
intentions and they put some very good things in the law.
    One of those good things was to shine light into corners 
where there had been no light--turn the lights on, as Mr. 
Miller said. And so in this legislation, for example, we retain 
that. We want disaggregated data. We want to see how the 
English language learners are doing, and the minority kids are 
doing, and the children with special needs. We are insisting 
that that be reported.
    I agree with what Mr. Miller just said. Now, today, with 
the light on, if you are in local government--if you are on the 
city council or on the school board or on the state board--you 
better know what is going on and be taking action because 
parents and teachers and others are going to hold you 
accountable.
    I take note of, I think Dr. Balfanz said that sometimes you 
have unintended consequences. So you could, for example, say, 
well this is all about graduation rates. Well heck, everybody 
graduates and nobody can read. So it is important that we watch 
for those unintended consequences, and many of us believe that 
that watch is better performed by people like Mr. Luna and Mr. 
Schaffer and Ms. Kazmier and Mr. Cunningham, and so forth.
    So we are trying to achieve balance here. There has been a 
lot of talk about sideboards and guardrails and so forth; I 
believe those are here. Defining what those are is part of the 
issue as we go forward.
    I have been very interested in the conversation about 
special ed here. I was sadly disappointed the president's 
budget came out and once again there is no increase for special 
ed funding. That seems to be a bipartisan affliction that we 
have here. Both parties talk a lot about making sure that we 
meet the commitment that the federal government is supposed to 
have of 40 percent of the extra costs that come with special ed 
and yet nobody does it.
    So I am hoping that my colleagues here on both sides of the 
aisle will join me in pressing the Congress and the president 
to address that shortfall because every single school board 
member, superintendent, principal, teacher, parent that I have 
talked to says that would be the most important thing, the 
biggest thing. If the federal government would just meet its 
commitment for special ed it would help us--every school. So we 
are going to continue to work towards that end.
    Again, the bill has been introduced. It will be subject to 
a very open amendment process. It is not perfect, although in 
deference to my staff it is close, but there will be changes. 
There will be some changes to this, but I think that in the 
process that we are going to try to keep balance, keep focus on 
what is best for our kids, and frankly, reduce the imprint of 
the federal government, which I think is--gets in the way of 
some of the progress that is being made in dramatic and 
exciting ways around the country.
    So again, I want to thank my colleagues, I want to thank 
the witnesses. And there being no further business, the 
committee stands adjourned.
    [Additional submissions of Chairman Kline follow:]

      Prepared Statement of the National School Boards Association

    Chairman Kline, Ranking Member Miller, and Members of the House 
Committee on Education and the Workforce, on behalf of the National 
School Boards Association (NSBA), representing over 90, 000 local 
school board members across the nation, I am pleased to submit this 
Statement for the Record regarding the Student Success Act, H.R. 3989; 
and Encouraging Innovation and Effective Teachers Act, H.R. 3990.
    In reviewing these specific bills, we acknowledge our support to 
the general approach of the legislation which is closely aligned with 
many of priorities of local school boards across the nation. Among the 
proposed improvements to the current law are provisions that would:
    <bullet> Establish a new accountability system that supports 
flexibility to the states and local school districts to ensure that 
strategies are developed that can best meet local needs and conditions 
to raise student achievement.
    <bullet> Increase the focus on academic achievement to be addressed 
through both individual student progress and the elimination of 
achievement gaps between subgroups.
    <bullet> Support greater state flexibility in developing standards, 
assessments, and accountability systems to support local school 
districts in improving academic achievement.
    <bullet> Eliminate the unworkable provisions related to Highly 
Qualified Teacher and paraprofessional requirements and increase the 
emphasis on teacher and school leader effectiveness, including support 
for effective performance evaluation systems.
    <bullet> Require states in their plans to describe how they will 
assist each local school district and each public school to comply with 
accountability requirements, including how the state will work with 
local school districts to provide technical assistance.
    <bullet> Increase focus on assessment measures to address higher-
order thinking skills in addition to mathematics and reading/language 
arts (including the state discretion to add additional subjects), and 
expand authority to use adaptive assessments for children with 
cognitive disabilities.
    <bullet> Continue the use of disaggregated data collection and 
reporting.
    <bullet> Strengthen the focus on valid and reliable assessments for 
all students, including English language learners and students with 
disabilities.
    <bullet> Support the use of multiple measures of student 
achievement and growth models.
    <bullet> Encourage states to modify or eliminate state fiscal and 
accounting barriers so funds from the federal, state and local levels 
could be consolidated.
    <bullet> Provide authority to local school districts to transfer 
funds among federal programs but not out of Title I.
    <bullet> Maintain the current enrollment thresholds for targeted 
grants for small and rural schools.
    <bullet> Clarify and limit the authority of the Executive Branch in 
program implementation of the law.
    In addition to ensuring improvements in those areas identified 
above, we urge you to complete the reauthorization of ESEA during this 
second session of the 112th Congress. Since the enactment of the No 
Child Left Behind (NCLB) Act ten years ago, both Congress and the 
Administration have acknowledged that the law's accountability 
framework has proven to be seriously flawed and the mandated sanctions 
on schools and school districts have been costly--with very limited 
impact in improving student or school performance. As a result, the 
operational challenges facing states and local school districts in 
implementing the current law have caused the mislabeling of schools and 
a noticeable decline in the public's trust and view of the quality of 
educational services being delivered. Therefore, states and local 
school districts should not be forced to wait any longer for new 
legislation that would be fairer, responsive to the needs of local 
communities and meet the original objectives of the law to improve the 
academic achievement of all students.
    We acknowledge the recent actions taken by U.S. Secretary of 
Education Arne Duncan to offer waivers to States from many of the NCLB 
requirements. However, these Department waivers should not be a 
substitute for the representative legislative process. School districts 
should not be placed in a position of implementing the Department of 
Education's Waiver Program this year only to be taken in what could be 
a markedly different policy direction by the reauthorization resulting 
in an unnecessary expenditure of limited staff time and funding if it 
does not occur until next year. Additionally, school districts should 
not be forced to continue to labor under the current flawed system if 
their State does not apply for or is granted a waiver. Therefore, we 
urge you to complete the reauthorization of ESEA now by moving this 
legislation forward.
    Finally, in strengthening and finalizing the House reauthorization 
bill, we urge you to address the following areas:
    1. Authorizations of Appropriations and CPI. The bill includes 
language that would restrict future federal funding to the FY2012 base 
and a percentage of the CPI. Such an approach could ultimately 
eliminate any future increased priority for public education funding, 
fail to give any recognition for enrollment growth in general as well 
as with respect to subgroups that may require additional support. With 
significant projected increases in enrollment, the result of this 
approach will reduce per pupil funding since the cost of living 
increases is on the bottom line. Further, using CPI exclusively may not 
be the best measure. Attachment (1) offers additional information for 
your consideration developed by the Center for Public Education. We 
recommend that you not tie future K-12 education authorizations of 
appropriations solely to a cost of living index, but rather that you 
also accommodate increases in student enrollment.
    2. Maintenance of Effort Provisions. The bill includes language to 
eliminate state Maintenance of Effort (MOE) requirements. While states 
have endured serious revenue losses in recent years, their financial 
picture has largely bottomed out and revenue collections are outpacing 
projections in many states.
    Especially, since states are subject to MOEs, matching fund 
requirements, and mandates in dozens of other federal programs, 
singling out education, in effect, creates an affirmative policy to 
encourage states to cut their education funding in order to leverage 
state funding for each of these other federal programs. Meanwhile, 
local school districts, as a result of this change in policy, will have 
to either raise local property taxes or cut programs in some areas--or 
perhaps risk losing their federal funds if they don't because they may 
still have to meet local federal funding requirements.
    If education is to be valued as a national priority, the rationale 
for totally eliminating MOE rather than creating an exception for 
annual hardships cannot be justified. We recommend that you not 
eliminate MOE requirements completely. Rather, we recommend that you 
provide for an annual waiver application process based on fiscal need 
and request that states allocate not less than the same percentage of 
the state budget to K12 programs in a given year compared to the 
previous year.
    3. Charter Schools. The House bill continues strong support for 
charter schools, including a focus on funding for planning, facilities 
construction and renovation. Local school boards generally support the 
concept of charter schools provided the local school board in the 
community where the charter school is located is the chartering 
authority. In fact roughly 52% of all charters are authorized by local 
school boards. Toward that end, we recommend that in using these 
federal funds that the local school district be designated as the sole 
authorizing entity; and if restricted by State law, that you establish 
the local school district to have the first right of refusal. This 
would ensure that the charter schools develop and sustain supportive 
relationship with the local school district regarding funding and other 
operational requirements that could be shared such as food services or 
transportation, and accountability for student performance and teacher 
and school personnel performance. Federal policy should not create a 
situation that pits one segment in the community against the other.
    Additionally, local school boards are also concerned over the rush 
to significantly expand both the number of charter schools as well as 
the entities that could authorize new charter schools when there is no 
evidence that charter schools are significantly better than traditional 
schools. In fact, the CREDO study reports that only 17% of the charter 
schools performed better than traditional public schools. Further, 
research has shown that students with disabilities and English language 
learners are under-represented in charter schools, while traditional 
public schools are increasingly serving students who require special 
services. We believe that the push to create more charters is ahead of 
their development as a successful option.
    Local school boards across the nation remain strongly committed to 
these priorities and recommendations and urge you to fully address 
these critical concerns in the final House bill. We believe that our 
recommendations will work toward a much more effective framework to 
ensure progress in both improving student achievement and in closing 
the achievement gap.
    We appreciate the opportunity to re-affirm the urgency for 
completion of the ESEA reauthorization during this second session of 
the 112th Congress and to offer specific recommendations that would 
strengthen the federal law. We look forward to working with you and the 
members of your staff in finalizing key policies affecting our public 
schools and to discuss local school board concerns that we believe 
require clarification of or modification to the legislative language.

                  Indexes to Adjust Costs of Education

    The House of Representatives ESEA bill includes a provision to hold 
Title I authorized funding at FY 2012 levels then base all future 
increases on the Consumer Price Index (CPI). However, basing such 
increase on the CPI is problematic. Although other cost indexes may 
provide a more accurate measure of the true cost of providing an 
education, no current index is accurate enough to base changes in 
future Title I funding.
    It is important to keep in mind the objective to determine how to 
best capture the change in costs associated with providing students the 
same education in future years that is currently provided. Specifically 
related to the House bill, the question would be: which index would 
best reflect changes in costs of providing the same education as is 
being provided in FY2012, in terms of both services provided and the 
quality of those services.
    Unfortunately, there is no perfect index. Each has their own 
strengths and weaknesses which I will examine further below. Keep in 
mind, however, that for any of these indexes to accurately reflect the 
true cost of providing the same education they must be applied on a per 
pupil basis to account for any change in enrollment. Even then, the 
indexes would also have to fully account for any change in the 
demographics of the student population as research shows certain 
students are more expensive to educate than others. For example, an 
increase in the proportion of English Language Learners (ELL) or 
special education students would likely dramatically increase the costs 
of providing the same education to all students even if enrollments and 
the prices of the goods and services schools provided remained 
constant. Furthermore, requiring schools to provide new services (eg., 
healthier school lunches) or provide additional resources (eg., 
professional development) would also increase costs but would not be 
reflected in the indexes.
    Determining which index best reflects the change in costs that will 
provide the same education to all students is a challenge. To use an 
index to base future Title I increases must take into account student 
enrollment, student demographics, employee compensation costs 
(including all benefits such as retirement plans and medical 
insurance), along with costs of all goods and services specifically 
related to education such as food, energy, technology, and textbooks to 
name a few. Although research has shown most cost indexes provide 
similar estimates, even small differences can make dramatic differences 
over time. For example, a half a percent difference between indexes 
compounded over 20 years amounts to a 10.5 percent difference in the 
costs of education according to researchers at the American Institutes 
of Research (AIR).
    Here are common indexes used to make cost-of-living adjustments 
(COLA).
    Consumer Price Index (CPI)--Strengths: It is one of the most common 
COLA indexes so it is transparent and easy to understand. Furthermore, 
many teacher pension programs use the CPI at least in part to provide 
COLA to retirees. So the CPI does capture some of the increase in the 
cost of providing pension benefits. The CPI also includes the costs of 
both food and energy which are both significant expenditures for 
schools. The CPI provides specific cost indexes for many goods and 
services schools provide which can be aggregated to calculate an 
education specific CPI.
    Weaknesses: The CPI is a general index that reflects the cost of 
all consumer goods and services. It is designed to measure the 
difference in costs of an individual purchasing the same goods and 
services one year compared to the previous year. It is not designed to 
account for the change in costs of providing specific services, such as 
K-12 education. Since up to 90 percent of education expenditures are 
labor related it isn't likely to provide an accurate measure to the 
change of the true cost of providing a similar education from year to 
year.
                                 trends

  1-year: 3 percent <bullet> 5-year: 12 percent <bullet> 10-year: 28 
                  percent <bullet> 20-year: 64 percent

    Employment Cost Index (ECI)--Strengths: Since up to 90 percent of 
education expenditures are labor related the ECI is an effective tool 
to calculate the true change in labor costs in education. As a matter 
of fact, the ECI already calculates the cost of public elementary and 
secondary school personnel. Not only does the ECI incorporate salaries 
but benefits as well. So it provides an accurate measure of labor costs 
in education.
    Weaknesses: Since the ECI is based on employment costs it does not 
include other costs of goods and services schools provide such as 
transportation and food services among others. Although these goods and 
services are a small percent of the cost of educating students, they 
are significant expenditures that need to be accounted for.
                          all workers: trends

  1-year: 2 percent <bullet> 5-year: 12 percent <bullet> 10-year: 33 
                  percent <bullet> 20-year: 87 percent

           public elementary and secondary personnel: trends

  1-year: 1 percent <bullet> 5-year: 12 percent <bullet> 10-year: 35 
                  percent <bullet> 20-year: 78 percent

    Gross Domestic Product Deflator (GDPD)--Strengths: Provides the 
price difference of all new goods and services produced domestically. A 
number of economists argue it is a more accurate measure of inflation 
because it is more adaptive by including the prices of new goods and 
services while the CPI is based on a set number of goods.
    Weaknesses: Although it is an accurate measure of inflation it does 
not necessarily provide a more accurate measure of the change in prices 
for the resources needed to provide the students the same education 
they received the year before as it includes all goods and services not 
just those related to education.
                                 trends

  1-year: 2 percent <bullet> 5-year: 10 percent <bullet> 10-year: 25 
                  percent <bullet> 20-year: 51 percent

    AIR Study: The AIR study, which AASA references, compares each of 
these indexes to an index they developed called the Inflationary Cost-
of-Education Index (ICEI). The ICEI measures the change in the prices 
of school inputs such as personnel and good and services purchased by 
schools. The study found in the short run there are very small 
differences between the indexes. However, such small differences would 
result in quite large differences over time. For example, a one-half 
percent difference between indexes would result in a 10.5 percent 
difference in costs over a 20-year period. A larger one-year difference 
between indexes such as a 2.5 percentage would lead to a 64 percent 
difference in costs 20 years later.
    Furthermore, although the report found the CPI to provide a higher 
rate of costs on average, this differed depending on what time period 
was being studied. So the CPI did not consistently show higher costs 
than the other indicators. Also, keep in mind the AIR study is from 
1997 and examined cost changes in the late 80's and 90's. Moreover, 
each of these indicators are adjusted annually and have comprehensive 
revisions every 5 to 10 years to more accurately reflect true changes 
in costs. If this study was conducted today the results could be quite 
different, especially considering the escalation of the cost of 
providing retirement and health benefits since the report was 
published.
                                analysis
    Although the AIR study found the CPI to provide a more favorable 
measure of cost increases in education, this may not be the case today 
or in the future. The CPI is not designed to specifically measure 
employment costs that include providing retirement and health benefits 
which have increased dramatically since AIR conducted their study 
nearly 15 years ago. It is quite likely the ECI would provide a more 
accurate measure of the change in costs of providing the same education 
from year to year since the majority of education costs are labor 
related. As a matter of fact, when comparing the CPI and ECI, the ECI 
found that employment costs have increased 78 percent for K-12 schools 
since 1991 while the CPI found that overall prices have increased just 
64 percent over the same time period. Meaning, Title I schools would be 
receiving 20 percent fewer funds if Title I funding was tied to the CPI 
in 1991 instead of the ECI. Even then, the ECI does not include the 
cost of such items as food, energy, and text books which have increased 
at much higher rates than the overall CPI over this time period.
    What is needed is an index similar to the ICEI (which was only 
calculated for the AIR study) that is specifically designed to measure 
the cost of providing the same education at the same quality to all 
students that also takes into account changes in enrollment--something 
none of the current indexes do. At the very least whichever index used 
should be applied on a per pupil basis just as the CPI is applied to 
Social Security benefits on a per person basis.
    Putting it all together, attempting to restrict growth in Title I 
funds using an index is quite problematic. There is no index that 
accurately captures the true change in costs in providing the same 
education at the same quality level. Furthermore, no index can account 
for any change in enrollment whether in total number or proportion of 
higher needs students that cost more to educate. So any attempt to 
limit the change in Title I funds to any index is likely to have a 
negative impact on the education students will receive in the future.
                             recommendation
    Due to the fact the CPI does not accurately reflect the change in 
the costs of the goods and services school districts provide their 
students nor does the CPI account for the expected increase in student 
enrollment the CPI should not be used to determine future year's Title 
I funding.
    The reason is the CPI is based on prices of all goods and services 
which may not reflect the costs school districts face in providing 
their students an education. This is particularly true since education 
is a labor-driven industry where up to 90 percent of expenditures are 
labor related. So it is important an index accurately captures total 
labor costs which is not what the CPI is designed to measure. The ECI 
provides a measure of changes in labor costs but it does not included 
other expenditures such as food, utility, and transportation costs 
among other goods and services schools provide their students.
    Furthermore, the CPI does not take into consideration the fact that 
over the next eight years schools are expected to enroll 3.2 million 
more students than in 2012. The CPI only provides a measure of 
providing the same goods and services to the same number of people. So 
the CPI would have to be applied on a per-pupil basis to account for 
the fact that schools will be providing the goods and services to more 
students every year.
    It should also be noted, the CPI does not measure the change of 
future costs. The CPI tells us what the change in costs were in the 
previous year not what the costs will be in the coming year as the CPI 
is proposed to do for Title I funding. Yes, economists provide 
forecasts for future CPI but these are educated guesses where there 
have been large differences between what was forecasted and what the 
actual change in costs was.
    The CPI is a fairly accurate COLA measure when applied to 
individual consumers but it has limited use in measuring the change in 
cost of providing a similar education from year to year. The CPI, nor 
any other index at this time, is capable of accurately measuring how 
much it costs to educate our public school children.

    Prepared by Jim Hull, senior policy analyst, Center for Public 
Education, National School Boards Association, February 2012.
                                 ______
                                 
    [Questions submitted for the record and their responses 
follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                


      Ms. Kazmier's Response to Questions Submitted for the Record

    I am responding to Representative Biggert's questions, which were 
posed to Felicia Kazmier in the attached.
1. Maintenance of Effort
    In regards to Maintenance of Effort for Special Education, during 
times of reduced funding, this requirement is very restrictive on the 
budgeting process. The requirement to maintain specific program level 
funding at prior year levels increases the burden on all other programs 
to absorb all of the reductions.
    The Special Education MOE does factor into our budgeting process 
because it penalizes Districts that come up with more cost effective or 
innovative alternatives to provide the same level of services. The 
additional administrative tracking and complying with MOE is an 
additional task that requires resources that could be directed 
elsewhere.
2. STEM
    Harrison supports the assessment of science. With our pay-for-
performance plan, we administer district common science assessments 
every quarter. If states have the resources, administering a common 
state science assessment would be useful in advancing STEM initiatives.
    I hope this helps. Please let me know if you have any other 
questions.
                                                Mike Miles,
                                                    Superintendent.
                                 ______
                                 
                   <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                


       Mr. Luna's Response to Questions Submitted for the Record

RE: Reauthorization of NCLB

    1. Maintenance of Effort (MOE): Under current maintenance of effort 
provisions, districts have flexibility to reduce their funding 
commitment by up to 10 percent, while ensuring education remains a 
priority. However, one proposal within the House bill would eliminate 
language related to Maintenance of Effort.
    a. Does the current Maintenance of Effort requirement help your 
schools?
    I believe that the current Maintenance of Effort (MOE) requirement 
helps to protect schools from cuts both at the district and state level 
if and when those cuts become necessary, ensuring that the money 
allocated for education is being spent at the classroom level where it 
can have the greatest impact on student achievement. MOE also ensures 
that the federal funds being allocated to schools are targeted towards 
providing additional services and support rather than supplanting the 
services that should be provided through state funds. However, MOE can 
hamstring states and districts in their efforts to reform education as 
they work to prioritize how funds should be spent and at what level. 
Therefore, I believe that the states are in the best position to make 
these determinations. I believe that, through reauthorization, the MOE 
levels and restrictions should be set and determined by the state so 
that they can establish a system that meets the unique needs of their 
schools and districts. By shifting this responsibility to the states, 
it would allow states to establish a MOE system that works with, not 
against any reform efforts that the state may be undertaking.
    b. Does MOE factor into your budgeting process? If so, how?
    MOE does not typically play a role in our budgeting process as we 
always work to ensure that we are funding education in Idaho at a level 
that provides districts and schools with the resources to improve 
student achievement. Through Students Come First, Idaho has made 
unprecedented investments in Idaho schools to financially reward 
teachers, provide professional development statewide, and ensure every 
student has access to a highly effective teacher and the best 
educational opportunities every year they are in school. For example, 
next year, Idaho will be able to offset reductions in teacher pay to 
ensure teacher compensation will actually increase by 5 percent in the 
next school year.
    2. STEM: As you know, current law requires that Math, Reading, and 
albeit less frequently, Science are critical educational skills which 
must be tested. However, this new legislation drops the requirement to 
test Science. As a strong supporter of Science and STEM education, I am 
concerned that this change will signal to states, districts, parents 
and students that Science isn't important. I understand we got a lot 
wrong with NCLB, but we recognized the need to teach and test science 
10 years ago, and the need for high-tech skills has only grown. Are we 
saying it was a mistake to support Science?
    Science is a critical subject area. This is true today and will be 
true in the future. This legislation does not change that. States have 
taken the lead in science and in other areas to ensure that students 
are mastering these skills and graduating from high schools prepared to 
go on and succeed in science. States will continue to do this and test 
science in the future. This legislation, however, will give states the 
flexibility they need to improve on science assessments. In Idaho, we 
recognize that science is difficult to test through and end-of-the-year 
standardized test because science courses, particularly in high school 
do not directly build on one another. A more effective approach to 
ensure students have a specific, discrete set of knowledge might be a 
series of end-of-course assessments or state-designed assessments tied 
to rigorous standards that ensure students have mastered the skills 
they need in each science course. This is the approach we are taking in 
Idaho to ensure greater success for our students. These end-of-course 
assessments in science will be more rigorous than the current 
assessments we are able to give at the end of the year and give 
teachers much more feedback and information on how students are 
learning specific concepts. If approved, this legislation to 
reauthorize No Child Left Behind will support the steps that states 
like Idaho have already taken to improve science assessments because 
this legislation gives states the flexibility they need to increase 
accountability.
                                 ______
                                 
                   <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                


     Mr. Schaffer's Response to Questions Submitted for the Record

    Thank you for passing along Rep. Biggert's questions. Following is 
my reply:
    A1: The Maintenance of Effort provision in federal law has little 
practical meaning in my state. Colorado has generally increased year-
to-year funding for K-12 education. Even with the state's ``Taxpayer 
Bill of Rights,'' which caps overall state spending, we've managed to 
keep reductions from hitting Colorado classrooms. The only exception 
was the past two fiscal years where funding was actually reduced 
(slightly)--but nowhere near 10%. The pressure from Colorado's 
constituency tends to be toward higher levels of state spending on 
education, not less. The state-fund reductions were most often 
(depending on the district) compensated by local property-tax 
increases. The MOE does not help our schools because Colorado's funding 
levels are set by our state legislature at levels it establishes on its 
own volition, and without regard to the MOE. The federal MOE does not 
factor into Colorado's budgeting process.
    A2: With all due respect, the importance of science is not a 
function of the opinion of Congress or the U.S. Department of 
Education. I am confident the high priority Colorado places on science 
will not be diminished in any way by inclusion or exclusion of science-
assessment requirements in an ESEA reauthorization bill. Our school 
districts get their ``signals'' from local constituents. Generally, 
Colorado's constituents place a high value on science instruction and 
assessment. Their values are aptly reflected in state-initiated policy 
and administration. In omitting science mandates in the current ESEA 
reauthorization strategy, the Congress would not be sending any 
overriding signal to the states or to the local communities. Federal 
support for science is a fine proposition, but doing so without 
additional federal mandates would be the least onerous way to proceed. 
I agree with you that Congress got a lot wrong with NCLB.
                                 ______
                                 
              <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                

      Mr. Balfanz's Response to Questions Submitted for the Record

    Dear Representative Biggert: I am not in a position to respond to 
question 1, but on question 2 on the importance of science, I fully 
agree that it is important to stress science education in the 21st 
century. Moreover, when done well it is an area students find engaging 
and thus helps to increase their attendance and attention in school. 
The reality is that schools pay attention to what they are held 
accountable for, and if they are no longer held accountable for science 
they will inevitably pay less attention to it. Given the advances that 
will be made with assessment from the state collaboratives working on 
assessments for the common core it seems like this could be extended to 
science and in so doing , not make science accountability be burdensome 
to schools and students.
                                               Bob Balfanz,
                                          Johns Hopkins University.
                                 ______
                                 
    [Whereupon, at 12:41 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
